United States Air Force 2005
    Annual Financial Statements




        Financing the Fight
                                                                                                                   2005 Annual Financial Statement


Table of Contents
Message from the Secretary of the Air Force . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .ii
Message from the Assistant Secretary of the Air Force, Financial Management and Comptroller . . . . . .iii
          Management Discussion and Analysis
                     Air Force in Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
                     Air Force Organizations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
                                    Major Commands, Direct Reporting Units, Field Operating Agencies . . . . . . . . . . . . . . . . . . . .2
                     General Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
                                    Quality People/Force Shaping . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
                                    Operational Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
                     Financing the Fight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
                                    Financial Management Transformation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
                     Working Capital Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
                                    Supply Management Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
                                    Depot Maintenance Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12
                                    Information Services Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13
                     Financing the Future Fight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
          Financial Statements
                     General Fund
                                    Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17
                                    Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25
                                    Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .69
                                    Required Supplementary Stewardship Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .81
                                    Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .93
                                    Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .101
                     Working Capital Fund
                                    Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .109
                                    Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .117
                                    Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .149
                                    Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .161
                                    Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .167




                                                                                                                                                                                   i
       United States Air Force


                                     SECRETARY OF THE AIR FORCE
                                                 WASHINGTON DC




                                                   October 2005


                                                Message from the
                                         Acting Secretary of the Air Force




I am pleased and proud to report that in Fiscal Year 2005 the Airmen of the United States Air Force responded
with excellence to the many challenges our nation faces. Whether in the Global War on Terrorism, in defending
our homeland, in humanitarian and peacekeeping operations, or in ensuring the readiness of the world’s greatest
air and space power, the nation’s Airmen were magnificent.

FY2005 saw almost 31,000 Airmen deployed to Southwest Asia, where they continue to fly more than 200
sorties a day over Iraq and Afghanistan. Our Airmen are part of a cohesive team, integral to the joint and
combined forces taking the fight to those who threaten democracy. In addition to Operations IRAQI FREEDOM
and ENDURING FREEDOM, they also continue to protect the nation as part of Operation NOBLE EAGLE.

The nation can be equally proud of our Air Force response to other global events. Within hours of Southeast Asia’s
terrible tsunami, Air Force aircraft and Airmen were enroute to the region, with supplies and skilled expertise at the
ready for delivery to the most hard hit and remote regions of Asia. Within days, our Airmen delivered over 120
tons of relief supplies using the full range of Air Force assets from heavy airlifters to agile helicopters.

In the first two weeks after hurricane Katrina devastated the Gulf Coast, the Air Force flew thousands of relief
missions and guaranteed air access to New Orleans and Keesler AFB near Biloxi, MS. Air Force rescue missions
saved thousands of stranded victims, evacuated thousands of the injured and even flew mosquito eradication
missions to stem the spread of disease.

A key enabler of these Air Force efforts and services remains our financial management team, proud stewards
of the country’s resources, confidently entrusted with our Air Force finances. In addition to improving daily
services to our Airmen, they continue implementing the FY05-10 Air Force Financial Management Strategic Plan.
The Plan provides strategic vision, improved support to our warfighters, and better information reliability,
integration and visibility in our financial management.

These financial statements illustrate the success of the Air Force over the past year, as well as specific financial
management accomplishments. The publication of our financial statements complies with a requirement of the
Chief Financial Officers Act, and the financial information addresses both our General Fund and Working Capital
Fund activities.

The service of our financial managers has been nothing short of outstanding. Rest assured, their innovation,
dedication and professionalism will remain the bedrock for Air Force capabilities long into the future. They are
“financing the fight,” and providing stellar contributions to America’s air and space power.




ii
                                                                       2005 Annual Financial Statement


                                  DEPARTMENT OF THE AIR FORCE
                                               WASHINGTON DC
                                     OFFICE OF THE ASSISTANT SECRETARY



                                                 October 2005


                                               Message from the
                                      Assistant Secretary of the Air Force,
                                    Financial Management and Comptroller



I share with tremendous pride the sentiments expressed by the Secretary in our Air Force financial management
professionals. In Fiscal Year 2005, we continued our support to ongoing Global War on Terrorism operations
throughout the world and provided critical financial management contributions to Indian Ocean tsunami and
Gulf Coast hurricane relief efforts. Indeed, our Air Force financial team was chosen to lead DoD’s accounting
effort for hurricane Katrina. We do all this--and more, while we continue to maintain top-quality financial
services for our Airmen at home and around the globe.

Financial management plays a key role in fulfilling the Air Force mission. This in turn is made possible by the
implementation of our Air Force Financial Management Strategic Plan. The Plan calls for five goals to bring the
Financial Management Vision into clear focus:

• Become a partner in strategic Air Force decisions.
• Recruit, prepare and retain a well-trained and highly educated professional team for today and tomorrow.
• Make processes efficient and effective to produce accurate and relevant financial information.
• Reduce our cost structure by employing leading-edge technologies that continuously streamline financial
  management processes and increase capabilities.
• Provide our customers with world-class financial services.

Our financial management team members are accomplishing these goals that stress accountability, visibility and
the highest-quality management skills available anywhere. This is our highest priority. We are financing the
world’s finest air and space power.

The FY2005 Air Force Financial Statement reflects the wise investment America has made in our Air Force.
It includes a Management Discussion and Analysis section that more precisely illuminates Air Force efforts and
contributions. It fulfills the requirements of the Chief Financial Officers Act, documents the expenditures
devoted to our General Fund and Working Capital Fund, and reviews performance measures established as
part of the Government Performance and Results Act.

America’s Air Force has the obligation to be good stewards of the national resources entrusted us. Air Force
financial management professionals have met that obligation, and will continue to do so, as we proudly persevere
in “financing the fight!”




                                                                                                                  iii
Air Force in Action
America can be justly proud of the performance of the Air Force in
FY2005. Air Force operations in IRAQI FREEDOM and ENDURING
FREEDOM showed that America’s airpower is capable 24/7 and
worldwide. In continuing the global war on terror, America’s Airmen
continued to successfully fly over 200 sorties per day. Airmen also
contributed on the ground, calling in air support and evacuating the
wounded with bravery and professionalism.

Also as part of the global war on terror, Airmen continued to defend
the homeland in Operation NOBLE EAGLE. This vigilant force,
requiring readiness and extraordinary aviation response, stands ready
as always to defend the skies of the United States. In FY2005, Airmen
did indeed respond to potential threats. Fortunately, none of these
threats came to fruition, but this effort serves as an example of coor-
dination between all components of the Air Force—Active, Reserve
and Air National Guard—and civilian authorities.

Combat and defensive operations were not the only contribution of
the Air Force. As the Secretary of the Air Force has noted, in the
wake of the tsunami in Southeast Asia, the Air Force responded with
humanitarian aid within hours and delivered hundreds of tons of relief
supplies within days. Thus the great capability America has given our
dedicated Airmen was turned into lifesaving support for others.

Air Force humanitarian operations continued in both preparation for
and in response to the Gulf hurricanes. Search and rescue, recovery,
airlift, and aeromedical evacuation missions were generated from Air
Force bases nationwide, flying in vital supplies. Airmen flew and sup-
ported more than 4,000 missions, rescued almost 5,000 victims and
transported more than 3,000 patients in need of care. On the
ground, Airmen not only operated off damaged runways and airfields,
but also erected shelters to house relief personnel. As in Air Force
support to tsunami victims, the Air Force worked as a joint team with


                                                                         1
       United States Air Force


                                                               Air Force Organizations
                                                               In FY 2005, Air Force active duty members, the Air
                                                               National Guardsmen, the Air Force Reserve, and Air
                                                               Force civilians responded to unprecedented chal-
                                                               lenges with unprecedented performance. Calling
                                                               upon the Air Force Core Values of “Integrity First—
                                                               Service Before Self—Excellence In All That We Do,”
                                                               Air Force personnel proved time and time again that
                                                               they comprise the preeminent air and space power
                                                               on the planet.

                                                               The integrated components of our Air and Space
                                                               Expeditionary Force were involved in operations
                                                               including major theater war, homeland security, and
                                                               humanitarian relief. Air Force personnel and organiza-
                                                               tions operated with outstanding effectiveness and effi-
                                                               ciency, all while constantly preparing to face the chal-
other services and federal assets in everything from
                                                               lenges of the future.
elite helicopter-borne pararescue, to airlift, to civil
engineering.
                                                               Major Commands, Direct Reporting Units,
The Air Force also advanced America’s air and space            Field Operating Agencies
capabilities in FY2005. To name but a few examples:
                                                               The Air Force is organizationally aligned into nine
B-2 bomber crews not only supported ongoing
                                                               Major Commands (MAJCOMs, including the Air Force
operations, but demonstrated the ability to engage
                                                               Reserve and Air National Guard), with 13 Field
80 targets in one pass; C-17 crews continued to
                                                               Operating Agencies (FOAs), and four Direct Reporting
show the ability to support operations from remote
                                                               Units (DRUs).
bases; in space, increased coordination led to better
surveillance.
                                                               Major Command (MAJCOM)
                             All of this was underpinned
                                                               A MAJCOM is a major subdivision of the Air Force,
                             by Air Force financial man-
                                                               directly subordinate to Headquarters US Air Force.
                             agement professionals.
                                                               MAJCOM headquarters are management headquar-
                             Guided by the Air Force
                                                               ters and thus have the full range of functional staff.
                             Financial Management
                                                               Examples of MAJCOMs are Air Combat Command
                             Strategic Plan, they have
                                                               (ACC), Air Education and Training Command (AETC),
                             stressed three themes:
                                                               and Air Force Materiel Command (AFMC).
                             Warfighter Support,
                             Strategic Resourcing and
                             Cost Management, and
                             Information Reliability and
                             Integration. They have
                             been extraordinarily suc-
                             cessful in fulfilling the needs
                             of global Air Force opera-
                             tions and America’s
                             Airmen, and are indeed
                             “Financing the Fight.”



2
                                                                      2005 Annual Financial Statement


                                                         Force General Fund and Working Capital Fund, with
                                                         details on Air Force stewardship of taxpayer dollars.
                                                         This includes descriptions of the functional areas
                                                         these funds support and how they are used to fur-
                                                         ther Air Force capabilities for the nation. This
                                                         Statement also satisfies provisions of the Chief
                                                         Financial Officer Act.

                                                         General Fund

                                                         Quality People/Force Shaping
                                                         Throughout FY2005, Air Force personnel have
                                                         worked to shape our human capital to meet new chal-
                                                         lenges. After the September 11 attack on our nation,
                                                         the Air Force moved to a new post-Cold War plateau
                                                         in manning. Following a brief period of maintaining
                                                         people on active duty through Stop Loss actions, the
                                                         Air Force retention among officers and enlisted mem-
Direct Reporting Unit (DRU)                              bers climbed higher than it had during the late 1990s.
A DRU is a subdivision of the Air Force, directly sub-   At the same time the Air Force was increasing the
ordinate to the Chief of Staff, US Air Force. A DRU      pace of deployments under the Air Expeditionary
performs a mission that does not fit into any of the     Force (AEF) construct to meet the daily challenges of
MAJCOMs. A DRU has many of the same administra-          the Global War on Terrorism (GWOT), we also began
tive and organizational responsibilities as a MAJCOM.    a long-term transformation to meet the challenges of
Examples of DRUs are the Air Force Academy               applying air and space power in a post-modern world.
(USAFA), the Air Force Studies and Analysis Agency       Force shaping has been the most visible aspect of
(AFSAA), and the Air Force Operational Test and          how the Air Force is reorganizing nearly half a million
Evaluation Center (AFOTEC).                              people to create the force our nation needs.

                                                         The Air Force began the fiscal year with a challenge:
Field Operating Agency (FOA)                             reduce end strength from 376,500 to fewer than
A FOA is a subdivision of the Air Force, directly sub-   360,000 by the end of FY2005. Due to aggressive
ordinate to a Headquarters US Air Force functional       recruiting and retention programs in the late 1990s,
manager. A FOA performs field activities beyond          and the uncertainty of the early months of the GWOT,
the scope of any of the major commands. The activ-       the Air Force had more people on active duty than
ities are specialized or associated with an Air Force-   required by law. In addition, we had an imbalance in
wide mission and do not include functions per-
formed in management headquarters, unless specifi-
cally directed by a Department of Defense (DoD)
authority. Examples of FOAs are the Air Force
Intelligence Analysis Agency (AFIAA), the Air
Reserve Personnel Center (ARPC), and the Air
Force Services Agency (AFSA).

All of this leads us to proudly present both the
Management Discussion and Analysis and the Air
Force Financial Statement. This includes both the Air




                                                                                                              3
       United States Air Force


                                                           to the Army under the Blue to Green program. The
                                                           Air Force also provided additional incentives to people
                                                           eligible to retire, such as reducing from three years to
                                                           two years the time in grade required for colonels and
                                                           lieutenant colonels to retire. We also instituted a lib-
                                                           eral policy to encourage officers and enlisted members
                                                           who were not serving in shortage skills to leave if they
                                                           wanted to. This was done by announcing a policy to
                                                           waive active duty service commitments incurred for
                                                           education, recent assignments, and other administra-
                                                           tive actions. This allowed Airmen inclined to leave or
                                                           retire to do so quickly and easily.

                                                           The Air Force used a few involuntary separations to
                                                           meet authorized end-strength. These measures includ-
                                                           ed speeding up the separation of Airmen who had
                                                           refused Permanent Change of Station orders or
                                                           required training/retraining, those involved in discipli-
                                                           nary action or coming to the end of an enlistment and
skills. Several career fields were over-manned, while      those who had declined to re-enlist or extend their
others suffered from shortages. The Air Force used a       service. The Air Force also instituted a more restric-
number of tools and programs to begin simultaneously       tive policy for dealing with Airmen who were unable
reducing the number of people to meet the end-             to complete training schools. Those who could
strength set by Congress and to shift our quality Air      qualify for training and where a genuine Air Force
Force people to meet our needs.                            need existed were allowed to stay, while the rest
                                                           were not allowed to remain as excess on active
First, the Air Force relied on voluntary separations
                                                           duty.
through incentives to help reduce the overall number
on active duty. For example, it made it easier for offi-   After greatly expanding the voluntary separation and
cers and enlisted members to move from active duty         retirement opportunities, the Air Force began to
to the Reserve and Air National Guard under the            reduce the number of Airmen entering active duty.
PALACE CHASE program, and allowed them to move             These reductions began in the previous fiscal year and
                                                           became more pronounced during FY2005. Officer
                                                           accessions were cut by 335 and enlisted accessions by
                                                           16,700. Together, these reductions prevented well
                                                           over $1 billion of the Air Force budget from being
                                                           spent to maintain excess personnel.

                                                           While the end-strength was coming down, the Air
                                                           Force was also working to reshape many career
                                                           fields to correct imbalances. The Career Job
                                                           Reservation (CJR) program helped rebalance the jun-
                                                           ior enlisted force as they entered their second enlist-
                                                           ment. All Airmen were required to obtain a CJR in
                                                           one of the 146 Air Force Specialty Codes (AFSCs) in
                                                           order to re-enlist. In 27 AFSCs that had significant
                                                           overages, CJRs were limited to the number needed
                                                           to sustain the career fields at their optimal manning.
                                                           Airmen from these AFSCs who did not obtain CJRs



4
                                                                          2005 Annual Financial Statement




had the choice of applying for a CJR in one of the          Operational Performance
shortage AFSCs or leaving the Air Force. Using this
tool helped improve by 17 percent the imbalances in         Air Force Flying Hour Program
the 27 AFSCs where CJRs constrained the number of
                                                            The Air Force Flying Hour Program is designed to
people entering a second enlistment.
                                                            prepare units to support warfighting commanders.
The Air Force was able to continue to reduce the            The execution of the President’s Budget (PB) Flying
number of AFSCs receiving Selective Reenlistment            Hour Program is impacted by contingency operations
Bonuses (SRBs). SRBs are an additional financial            support, maintenance issues, fact-of-life impacts, air-
incentive for enlisted Airmen with between 17               craft flight operations suspensions, aircraft delivery
months and 14 years of service to remain on active          delays, weapons system retirements, and approved
duty. The maximum additional payment an Airman              program changes. Though the execution of the Flying
can receive for an enlistment through the SRB pro-          Hour Program does not define unit readiness, it can
gram is $60,000, but SRBs are set by AFSC on a slid-        be a forward indicator of possible readiness issues.
ing scale. The average SRB payment to Airmen in FY
2004 was $10,700. In 2004, the Air Force removed            The Major Commands (MAJCOMs) determine the
82 AFSCs from the list of those eligible for SRBs,          reasons for execution deviation and required course of
leaving 62 AFSCs eligible. In March 2005, that list         action. These evaluations provide insight to possible
was reduced further, leaving only 32 AFSCs with this        future year requirements.
additional financial incentive to serve. The reduction      As of 31 May 2005, the Air Force executed 67.0
saved the Air Force $102.7 million.                         percent of the PB Flying Hour Program and will fulfill the
Together these programs and policies helped the Air         authorized amount for FY2005. Flying Hour Program
Force meet its target end-strength in the summer of         execution hours include active Air Force Congressionally
2005 and improve imbalances between many enlisted           funded O&M hours. They do not include incrementally
AFSCs. Unfortunately, it left the force with an overall     funded contingency support hours, Transportation
shortage of enlisted personnel and an excess of officers.   Working Capital Fund hours, foreign nation reimbursable
The Air Force will continue to devise programs and          training hours, Special Operations hours, or Research,
tools to correct this imbalance in the next fiscal year.    Development, Test, and Evaluation (RDT&E).



                                                                                                                     5
           United States Air Force


                                                            Mission Capable Rates
                                                            Mission Capable (MC) rates are perhaps the best
                                                            known yardstick for measuring the readiness of Air
                                                            Force aircraft. MC rates reflect the percentage of air-
                                                            craft, by fleet, capable of performing at least one of
                                                            their assigned missions. The FY2005 aggregate MC
                                                            rate as of 30 June 05 is 78.3 percent, an increase from
                                                            the FY2004 rate of 77.3 percent, and is based on a
                                                            combined MC rate of A/O-10, B-1, B-2, B-52, C-130,
                                                            C-141, C-5, C-17, E-3, E-8, F-15, F-15E, F-16, F-117,
                                                            HC-130, KC-10, KC-135, HH-60, RC-135, RQ-1, T-1,
                                                            T-6, T-37, T-38, and U-2 aircraft. MC rates catego-
                                                            rized into Fighter, Bomber, Tanker/Airlift, and Other
                                                            are drawn from the aggregate fleet above.


Weapon System Performance Metrics                           Non-Mission Capable Rates
The Air Force uses a variety of metrics to gauge the        Total Non-Mission Capable for Maintenance
performance of its weapon systems and organizations.        (TNMCM) is a measure of a maintenance organiza-
They are barometers for measuring the effectiveness         tion’s ability to fix aircraft quickly and accurately and
of our organizational structures, our training, man-        Total Non-Mission Capable for Supply (TNMCS)
power and equipment levels, quality of spare parts,         measures spare parts availability. The FY2005 aggre-
maintenance actions, and a variety of other indicators      gate fleet TNMCM rate, as of 30 June 05, decreased
of our ability to provide mission-ready weapon sys-         from 18.9 percent to 18.2 percent. The FY2005
tems to the warfighter. Chief among these perform-          TNMCS rate as of 30 June 05 decreased from 8.9
ance metrics are Mission Capable rates, Non-Mission         percent to 8.2 percent representing the sixth consec-
Capable rates, Cannibalization rates, and engine and        utive year of improving supply rates, and the lowest
supply measures.                                            TNMCS rate since FY1994.



                                   Mission Capable Rates
           90
                                                                                           82.0
                                                                                    79.7
           80   77.3   78.3   76.1 77.0                         76.1   75.6
                                              70.1
           70                                        66.0

           60
 Percent




                                                                                                      FY 04
           50                                                                                         FY 05
           40
           30
           20
           10
                 Aggregate       Fighter         Bomber         Tanker Airlift          Other
                                                                         Rates as of 30 June 05


6
                                                                        2005 Annual Financial Statement


Other Key Metrics
Air Force weapon system performance measures for
FY2005 provide a snap-shot of the tremendous
efforts of the logistics community to provide and sup-
port combat-capable forces that are organized,
trained and equipped to provide efficient and effective
combat and combat support efforts across the full
spectrum of military operations.

Cannibalization (CANN) rates reflect the number of
cannibalization actions that occur per 100 sorties for a
particular weapon system. The FY2005 aggregate
rate of 4.2 CANN’s per 100 sorties, as of 30 June 05,
is a decrease from the FY2004 rate of 4.6, and repre-
sents the lowest CANN rate since FY1994.

Engine Non-Mission Capable-Supply (ENMCS) rate
for all Air Force engines improved as the rate             vision by providing Air Force leaders with accurate,
dropped to 5 percent, the lowest rate in the past          relevant, and timely information to make the right
seven years. ENMCS for Fighter and Tanker/Airlift          strategic choices while making existing operations
fleets improved over FY2004 rates, while Bomber            more effective and efficient. In addition, we see
fleet ENMCS increased. Engine-time-on-wing                 Airmen resolving pay issues without a trip to the
(ETOW) rates declined 1.2 percent for Fighter,             Finance Office, but retaining access to face-to-face
Bomber, and Tanker/Airlift fleets. Investments in          support when needed.
engine modifications, spare parts, and reliability cen-    In recent years, we created a roadmap that translates
tered maintenance has continued to pay quality divi-       our vision into concrete, actionable, and measurable
dends for our engine fleet throughout FY2005.              steps. It integrates ongoing transformation initiatives
Aircraft MC rates are but one indicator of enhanced        into strategy and communicates priorities, focuses
weapon system readiness. Programmed depot main-            efforts, and serves as a filter to help determine where
tenance and fleet modernization activities are critical    to invest time, people, and resources.
to maintaining mission-ready aircraft. The Air Force
strives to make continual improvements in business
practices designed to increase the efficiency and effec-
tiveness of our depot maintenance programs. As of
31 May 05, the total number of aircraft in depot for
FY2005 was 431, continuing the downward trend in
depot-possessed aircraft.

Financing the Fight

Financial Management Transformation
Air Force Financial Management (FM) envisions an Air
Force operating at peak effectiveness and efficiency
with every dollar striking the correct balance among
supporting the mission, maintaining the infrastructure,
and taking care of our people. We will achieve that



                                                                                                                  7
       United States Air Force


                                                          Strategic Resourcing and Cost Management: We
                                                          will link strategy to measurable improvements in effec-
                                                          tiveness and efficiency.

                                                          Information Reliability and Integration: We will
                                                          provide relevant, timely, accurate, and reliable infor-
                                                          mation to support decision-making.

                                                          Transformation is our catalyst to achieving the FM
                                                          vision. In 2005, through our FM operational frame-
                                                          work, we’ve begun enacting our Six Lanes of
The strategic goals outlined in the plan are:             Transformation:

1. Become a partner in strategic Air Force decisions.     • Financial Services Transformation aims to cre-
                                                            ate a shared services organization with a Central
2. Recruit, prepare, and retain a well-trained and          Processing Center (CPC) to handle back-office cus-
   highly educated professional team for today and          tomer support and a Contact Center to interface
   tomorrow.                                                with our customers. The goal is to create a 3-tier
                                                            customer service concept to include online servic-
3. Make processes efficient and effective to produce
                                                            es, a contact center, and face-to-face support.
   accurate and relevant financial information comple-
   mented by sophisticated decision support.              • Financial Advisor Transformation will provide
                                                            enhanced decision support and financial advice to
4. Reduce our cost structure by employing leading-
                                                            commanders. This includes realigning resources
   edge technologies that continuously streamline
                                                            to provide enhanced budget, cost, and accounting
   financial management processes and increase              financial services to the unit and developing a new
   capabilities.                                            position, Enhanced Financial Advisor, to serve as
5. Provide our customers with world-class financial         the commander’s right-hand person on all
   services.                                                resource issues.

                                                          • O&M Center of Expertise Transformation
Translating these goals into strategy led to three dis-
                                                            establishes a Center of Expertise that can provide
tinct strategic themes:
                                                            expert on-demand, specialized decision support and
Warfighter Support: We will remain an expedi-               financial analysis for privatization, activity-based
tionary-focused workforce trained and prepared to           costing, and economic analysis. It returns an O&M
support deployed forces.                                    cost capability to the base.

                                                          • Combat Comptroller Transformation enhances
                                                            how the 21st century FM community prepares and
                                                            deploys to support the warfighter.

                                                          • Education, Training and Development
                                                            Transformation builds the right FM training con-
                                                            struct for the future and supports all other lanes of
                                                            transformation. The team is focused on enduring
                                                            competencies needed in a post transformation envi-
                                                            ronment and on time technical training for the
                                                            effort’s major phases.

                                                          • Re-engineering the Air Force Budget processes
                                                            redesigns the current Air Staff O&M budget process
                                                            within Air Force Financial Management.


8
                                                                        2005 Annual Financial Statement


Transformation accomplishments in FY2005 have
included:
• Financial Services team produced the high-level
  design of the CPC. The Financial Advisor team
  realigned existing Accounting Liaison functions and
  personnel with base-level Financial Analysis to set
  the stage for the next step in their project, develop-
  ing the Enhanced Financial Advisor.

• In October 2005, the O&M Center of Expertise
   team stood up the Air Force Center of Expertise
   with an initial cadre of experts.

• Combat Comptroller team has finished initial design
  work on the new Combat Comptroller
  Contingency Organization, which will consolidate
  numerous duties related to how FM meets its
  deployment obligations.

• Education, Training, and Development (Tools) team
  is exploring exciting collaborative opportunities to
  enhance deployable processes with Contracting
  personnel.                                               providers charge users for the goods and services pro-
                                                           vided). AFMC accounts for more than 95 percent of
Our transformation efforts haven’t stopped there:
                                                           Working Capital Fund (WCF) revenue and expense
• Financial Services team is currently working to          activity (excluding the Transportation Working Capital
  determine who will deliver financial shared services     Fund, which is managed by the United States
  (CPC and Contact Center) and how those services          Transportation Command). The WCF consists of
  will be delivered in concert with Air Force              three functions: Supply Management, Depot
  Personnel offices. They have already developed a
                                                           Maintenance, and Information Services. These func-
  number of options and are zeroing in on the best.
                                                           tions, referred to as activity groups, supply singular
• Financial Advisor team is building detailed job          goods and services to Air Force and Department of
  descriptions for Enhanced Financial Advisors.            Defense (DoD) customers. Supply Management pro-
                                                           vides managers expedited repair, replenishment, and
• O&M Center of Expertise team will continue to            inventory control for spare parts and associated logis-
  increase the size and capability of their center dur-    tics support services to fulfill Air Force needs during
  ing the next few years, reaching full operational
                                                           war and peacetime. Depot Maintenance provides
  capability in FY2008.
                                                           economical and responsive repair, overhaul, and modi-
• Combat Comptroller team is currently examining a         fication of aircraft, missiles, engines, other major end
  number of innovative initiatives and hardware to         items, and their associated components. The
  facilitate transformation, such as hand-held equip-      Information Services business area provides for the
  ment to automate the time-consuming paper work           maintenance and development of automated informa-
  frequently required in deployed environments.            tion systems for information-related activities of the
                                                           Air Force and DoD, along with certain other govern-
Working Capital Fund                                       ment agencies.
Air Force Materiel Command (AFMC) supports Air             WCFs allow the Air Force to accomplish the following:
Force warfighters and operations via four major            • Ensure readiness through reduced support costs,
business areas that operate as revolving funds (i.e.,
                                                             stabilized rates, and customer service.



                                                                                                                 9
       United States Air Force


• Ensure flexibility to adjust customer support needs
  in response to real-world situations.

• Focus management attention on net results,
  including costs and performance.

• Identify the total cost of providing support
  products and services.

• Establish strong customer/provider relationships.


Supply Management Activity Group
The Supply Management Activity Group (SMAG)
provides policy, guidance, and resources to meet Air
Force needs for spare parts. SMAG manages
approximately two million items, including weapon       The retail operations of the WCF are comprised of
systems spare parts, medical/dental supplies and        the General Support, Medical Dental, and United
equipment, and items used for non-weapon systems        States Air Force Academy Divisions. Although each
applications. Materiel procured from vendors held       division operates independently, all purchase large
in inventory is for sale to authorized customers.       quantities of commodities in order to sell small
SMAG consists of four divisions: the Material Support   quantities directly to the ultimate consumer (sup-
Division (MSD), General Support Division (GSD),         porting the warfighter). Large bulk buys allow the
Medical/Dental Division, and the United States Air      Air Force to take advantage of the economies of
Force Academy Cadet Issue Division. AFMC man-           scale and achieve significant cost savings.
ages MSD and GSD. Headquarters United States Air        Additionally, each division concentrates its efforts in
Force manages the Medical/Dental Division and Air       a specific area of expertise.
Force Academy Cadet Issue Division.                     The GSD items support installation maintenance and
MSD is responsible for Air Force-managed, depot-        administrative functions, and field and depot mainte-
level reparable spare parts and some consumable         nance of aircraft and other systems. GSD supports
spares. The principal products of MSD are servicea-     more than 150 Air Force installations throughout the
ble spare parts and assemblies unique to Air Force      world.
weapon systems.                                         The Surgeon General of the Air Force is responsible
                                                        for the overall management of the Medical/Dental
                                                        Division. This peacetime operating authority provides
                                                        the effective support necessary to maintain established
                                                        norms in the health care of USAF active military,
                                                        retirees, and family members. The war reserve
                                                        materiel (WRM) requirement of this division is to pro-
                                                        vide medical supplies and equipment vital to support
                                                        forces in combat and contingency operations.

                                                        The United States Air Force Academy Cadet Issue
                                                        Division finances the purchase of uniforms, uniform
                                                        accessories, and computers for sale to cadets. The
                                                        division’s customer base includes more than 4,000
                                                        cadets who receive distinctive uniforms procured from
                                                        a number of domestic manufacturing contractors.


10
                                                                          2005 Annual Financial Statement


Customers, Products, and Services
In addition to the management of various inventories,
the SMAG provides a wide range of logistics support
services, including requirements forecasting, item
introduction, cataloging, provisioning, procurement,
repair, technical support, data management, item dis-
posal, distribution management, and transportation.
SMAG provides this support to a variety of customers.
The supply business also provides initial provisioning
support to the Air Force Acquisition Executive.               • Advanced Planning System (APS) is improving
                                                                the process of translating warfighter needs into
                                                                executable logistics system support plans and
SMAG Transformation Initiative
                                                                schedules. By emphasizing collaboration with
The SMAG is implementing a major redesign of the                customers and suppliers, it seeks to optimize
spares supply process through a set of initiatives              activities and resources across the Air Force
designed to improve support to the warfighter. These            supply chain.
initiatives will result in a fundamental reshaping of the
internal management processes and data systems used         Customer Support Performance Measures
on a daily basis to buy, repair, and distribute the thou-
                                                            MICAP and Customer Wait Time (CWT) allow man-
sands of different items needed to maintain weapon
                                                            agers to assess quality of spares support provided and
systems in a mission-capable (MICAP) status. Four
                                                            plan corrective action when needed. MICAP is defined
primary initiatives address key areas of opportunity
                                                            as the status of a weapon system as determined by its
within the spares process.
                                                            ability to accomplish its assigned mission. MICAP
• Purchasing and Supply Chain Management (PSCM)             hours are accrued in a given month for items affecting
  adapts commercial best practices to integrate pur-        mission capability that are on backorder to an AFMC
  chasing and supply processes into a single, cus-          source of supply. For every day during the month the
  tomer-centric, end-to-end process that provides the       requisition is unfilled, 24 hours are assigned to the req-
  right item in the right quantity and quality, on time     uisition. CWT measures the average time elapsed
  and at a reasonable cost.                                 between customer order and satisfaction of that order,
                                                            including the wait time between the retail supply issue
• Weapon System Supply Chain Management (WS
                                                            or backorder from the source of supply, and the deliv-
  SCM) is a customer-facing initiative aimed at balanc-
                                                            ery to the base customer, expressed in days.
  ing Air Force and AFMC goals. It addresses process
  improvements and savings championed by PSCM               MICAP hours and CWT have improved significantly
  strategies while retaining ultimate focus on the          since 1999. These improvements continue to have a
  warfighter through rapid and proactive maneuvers          direct impact on the warfighter’s ability to meet
  to deliver weapon system support.                         worldwide missions.

• Logistics Enterprise Architecture (LOGEA) is an ini-
                                                            Financial Performance Measures
  tiative to develop a single authoritative strategic
  map of future Logistics business practices, systems,      SMAG measures financial performance based on the
  and organizations. It is a single authoritative source    Net Operating Result (NOR) for MSD and GSD. The
  which defines operating and systems models, aligns        NOR is the difference between revenue and expenses
  business and IT initiatives, and provides a vehicle to    (i.e., a bottomline profit and loss indicator). The
  ensure transformation coordination across the Air         NOR objective of an activity group is to break even
  Force and outside the Air Force.                          over a two-year budget cycle. Setting rates that




                                                                                                                   11
       United States Air Force


                                                          The DMAG supports a variety of customers including
                                                          the Air Force Major Commands, Air National Guard
                                                          (ANG), Air Force Reserve Command (AFRC), SMAG,
                                                          Foreign Military Sales, and non-DoD customers.
                                                          Additionally, the DMAG provides storage, reclama-
                                                          tion, and regeneration for equipment not currently
                                                          used by the active forces of all military services. This
                                                          work is done at the Aerospace Maintenance and
                                                          Regeneration Center at Davis-Monthan AFB, Arizona.
                                                          Contract depot maintenance is transitioning from the
                                                          Air Force Working Capital Fund (WCF) to be financed
                                                          directly by the using commands, the Supply
                                                          Management Activity Group, and other customers.
                                                          DMAG plans to stop accepting new contract orders
                                                          for FY2007 and out. However, DMAG will fulfill all
                                                          previous contracts.
effectively offset the prior year net profit or loss
                                                          The DMAG has two principal objectives. The first
accomplishes this objective. Revenues are amounts
                                                          objective is to provide organic depot repair capability
earned as a result of normal operations and usually
                                                          for fielded and emerging weapon systems, so that
result from sale of, or reimbursements for, goods and
                                                          warfighters have mission-essential equipment.
services provided to DoD activities, other federal
                                                          Secondly, DMAG’s intent is to ensure the ability to
government agencies and the public. Expenses are
                                                          rapidly respond to those warfighter requirements
the use of resources during an accounting period in
                                                          driven by contingency operations. To accomplish this,
carrying out the DoD’s mission. They occur from
                                                          short- and long-term strategies must be used. The
rendering services, delivering or producing goods, or
                                                          depot maintenance strategic plan guides the DMAG
carrying out other mission related activities.
                                                          to have the right workload capacity and capability to
                                                          meet depot maintenance; (a) peacetime support, (b)
Depot Maintenance Activity Group                          surge, and (c) core requirements. To better support
The Depot Maintenance Activity Group (DMAG)               the services that DMAG provides to its customers, an
ensures successful management and execution of com-       integrated suite of systems, Depot Maintenance
prehensive depot maintenance programs for all Air         Accounting and Production Systems (DMAPS), pro-
Force-managed equipment in accordance with existing       vides improved financial, production, and material
Air Force guidance. In peacetime, DMAG enhances           functionality in support of the warfighter’s needs for
readiness by efficiently and economically repairing,      quality organic depot maintenance. This includes
overhauling, and modifying aircraft, engines, missiles,   improved financial management support/tools and
components, and software to meet the warfighter           reporting for organic depot maintenance activities, to
demands. During wartime or contingencies, the group       include substantial compliance with legislative require-
shifts to surge repair operations and realigns capacity   ments, such as the Chief Financial Officers (CFO) Act.
to support the warfighter’s immediate needs.
                                                          Transformation Initiatives
Customers, Products and Services                          The future financial framework being developed
DMAG provides major overhaul and repair of systems        through the Air Force logistics transformation effort
and spare parts while striving to meet or exceed          envisions centrally managed provider (AFMC) and cus-
required standards for quality, timeliness, and cost.     tomer (MAJCOMs) funds, utilizing the WCF financing
Both the AFMC depots and contract operations              mechanism to enhance cost awareness and provide
accomplish these goals.                                   flexibility. On the provider side, the Material Support



12
                                                                          2005 Annual Financial Statement


Division (MSD) and DMAG financial management                 ernment agencies and provides technological support,
operations will be merged, focusing on cost and out-         from development of leading-edge technologies to the
put. In this simplified structure, MSD and DMAG will         maintenance and modification of older legacy systems.
no longer recursively pass costs between each other
prior to establishing a price to the ultimate customer.      Customers, Products, and Services
The Depot Maintenance Reengineering and                      ISAG provides information products and services via
Transformation (DMRT) initiatives include improve-           two business lines—the Information Technology (IT)
ments to the budgeting process. This is to be accom-         solutions line and the commercial information
plished in part by using predictive modeling and statis-     technology line.
tical techniques to develop portions of the budgets.
                                                             The IT solutions business line develops, acquires, and
The model will also consider a reduction of manual
                                                             sustains automated information systems in two target
effort currently required to prepare the workload
                                                             markets: 1) AFMC-level Supply Management and
baseline for the budgets.
                                                             Depot Maintenance information systems, and 2) Air
                                                             Force-wide, standardized support systems.
Customer Support Performance Measures
                                                             The commercial information technology business line
Customer Support Performance Measures for DMAG
                                                             provides computer hardware, software, peripheral
consist primarily of Production Performance Measures,
                                                             equipment, and related services to the Department of
which are used to assess cost, schedule and quality of
                                                             the Air Force, DoD, and other agencies, and private
the DMAG output. These are designed to achieve
                                                             parties through its Web-based “Virtual Superstore”
accountability at the appropriate depot maintenance
                                                             called “AFWay.”
level, the Depot Maintenance Manager. Customer
Support Performance Measures monitor progress
toward DMAG goals.

The Due Date Performance (ability of the depot to
produce aircraft according to schedule) improved
significantly compared to a year ago and reached 99.4
percent (7 percent above goal) in May of 2005. The
depot performance of Air Logistics Centers (ALCs) con-
tinues to have a direct impact on the warfighter’s ability
to meet worldwide missions.


Financial Performance Measures
Financial Performance Indicators assess the financial
performance of the DMAG. These indicators are
designed to achieve accountability at the appropriate
level and also measure compliance with DMAG
budget objectives. The budget objectives are identi-
fied in each ALC’s financial performance plan used to
measure results during execution.


Information Services Activity Group
Information Services Activity Group (ISAG) was estab-
lished to develop and maintain automated information
systems for specific Air Force, DoD, and other gov-



                                                                                                                13
       United States Air Force




ISAG Transformation Initiatives                             both operational requirements and disbursements in
                                                            support of the capital program. Cash generated
In response to changes in Air Force structure and
                                                            from operations is the primary means of maintaining
operations, technology, and customer needs, and to
take better advantage of industry core competencies,        adequate cash levels.
the ISAG is reshaping itself to meet future information     Effective cash management is directly dependent on the
technology requirements for the warfighter.                 availability of accurate and timely data on cash levels
AFMC has initiated an effort to decapitalize the activity   and operational results. Cash levels should be main-
by transferring the function to an appropriated envi-       tained to cover at least seven to ten days of operational
ronment in FY2006.                                          costs as well as cash adequate to meet six months of
                                                            capital disbursements.
Financial Performance Measures                              Cash management efforts continue to focus on analyz-
The current method of measuring ISAG performance            ing data and developing tools to identify changes in
is determined by the Net Operating Result (revenue          cash and forecast future needs for cash. Monthly,
minus expenses).                                            AFMC prepares a statement of sources and uses of
Revenue is earned through the sale of direct billable       cash, which is used to identify areas of cash increases
labor hours at the ISAG composite rate; direct reim-        and drains, to monitor performance to the recom-
bursements for pass-through contract efforts and            mended policy.
extraordinary expenses (e.g., mission-unique travel,
equipment, and supplies); and the collection of com-        Financing the Future Fight
mercial information technology surcharges.
                                                            America’s Airmen performed brilliantly in FY2005,
Cost of operations (expenses) measures the resources        delivering decisive air supremacy and combat power
consumed in filling customer orders. These costs include    as well as much needed humanitarian support. Our
labor and non-labor expenses, both direct and overhead.     country can count on our Airmen to continue these
                                                            and other missions into the future. Our financial man-
Cash Management                                             agement professionals ensure responsible stewardship
DoD cash management policy recommends maintain-             of our resources. They will be a vital component to
ing the minimum cash balance necessary to meet              both on-going operations and any need required.




14
                  2005 Annual Financial Statement




     Fiscal Year 2005
Annual Financial Statements




                                               15
       United States Air Force


Limitations to the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the enti-
ty, pursuant to the requirements of the Title 31, United States Code, Section 3515(b). While the statements have
been prepared from the books and records of the entity, in accordance with the formats prescribed by the Office
of Management and Budget, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records. To the extent possible, the financial
statements have been prepared in accordance with federal accounting standards. At times, the Department is
unable to implement all elements of the standards due to financial management systems limitations. The
Department continues to implement system improvements to address these limitations. There are other
instances when the Department’s application of the accounting standards is different from the auditor’s applica-
tion of the standards. In those situations, the Department has reviewed the intent of the standard and applied it in
a manner that management believes fulfills that intent. The statements should be read with the realization that
they are for a component of the United States Government, a sovereign entity. One implication of this is that the
liabilities cannot be liquidated without legislation that provides resources to do so. The Federal Accounting
Standards Advisory Board (FASAB) amended the Statement of Federal Financial Accounting Standard No. 6 to
require the capitalization and depreciation of military equipment (formerly known as National Defense Property,
Plant and Equipment) for fiscal years (FY) 2004 and beyond, and encouraged early implementation. Accordingly,
the Department began the process of developing and reporting values for these assets in notes to the Balance
Sheet, beginning in FY 2003.




16
              2005 Annual Financial Statement




   General Fund

Principal Statements




                                           17
     United States Air Force




                               This page intentionally left blank.




18
                                                                           2005 Annual Financial Statement


Consolidated Balance Sheet—General Fund
As of September 30, 2005 and 2004 ($ in Thousands)
                                                                                    2005               2004
                                                                                 Consolidated       Consolidated
 1. ASSETS (Note 2)
    A. Intra-governmental:
       1. Fund Balance with Treasury (Note 3)
          a. Entity                                                          $     62,272,967   $      60,547,709
          b. Non-Entity Seized Iraqi Cash                                                   0                   0
          c. Non-Entity-Other                                                          77,275              53,290
       2. Investments (Note 4)                                                            717                 711
       3. Accounts Receivable (Note 5)                                                653,589             689,871
       4. Other Assets (Note 6)                                                       427,989             443,939
       5. Total Intra-governmental Assets                                    $     63,432,537   $      61,735,520
    B. Cash and Other Monetary Assets (Note 7)                               $        151,844   $         311,323
    C. Accounts Receivable (Note 5)                                                 1,028,310             978,883
    D. Loans Receivable (Note 8)                                                            0                   0
    E. Inventory and Related Property (Note 9)                                     47,169,013          51,340,248
    F. General Property, Plant and Equipment (Note 10)                            123,646,068         117,954,430
    G. Investments (Note 4)                                                                 0                   0
    H. Other Assets (Note 6)                                                       11,179,041          10,809,588
 2. TOTAL ASSETS                                                             $    246,606,813   $     243,129,992
 3. LIABILITIES (Note 11)
    A. Intra-governmental:
       1. Accounts Payable (Note 12)                                         $      1,651,904   $       1,900,411
       2. Debt (Note 13)                                                                    0                   0
       3. Other Liabilities (Note 15 & Note 16)                                     1,589,867           1,726,480
       4. Total Intra-governmental Liabilities                               $      3,241,771   $       3,626,891
    B. Accounts Payable (Note 12)                                            $      5,851,184   $       7,707,163
    C. Military Retirement Benefits and Other Employment-Related                    1,147,437           1,163,442
       Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                          5,781,322           7,387,187
    E. Loan Guarantee Liability (Note 8)                                                    0                   0
    F. Other Liabilities (Note 15 and Note 16)                                      4,179,504           4,602,505
 4. TOTAL LIABILITIES                                                        $     20,201,218   $      24,487,188
 5. NET POSITION
    A. Unexpended Appropriations                                             $     63,716,637   $      49,660,670
    B. Cumulative Results of Operations                                           162,688,958         168,982,134
 6. TOTAL NET POSITION                                                       $    226,405,595   $     218,642,804
 7. TOTAL LIABILITIES AND NET POSITION                                       $    246,606,813   $     243,129,992




The accompanying notes are an integral part of the financial statements.



                                                                                                                    19
       United States Air Force


Consolidated Statement of Net Cost—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                              2005                 2004
                                                                           Consolidated         Consolidated
1. Program Costs
   A. Intra-governmental Gross Costs                                 $         29,845,743   $      28,909,864
   B. (Less: Intra-governmental Earned Revenue)                                -4,207,648          -5,002,246
   C. Intra-governmental Net Costs                                   $         25,638,095   $      23,907,618
   D. Gross Costs With the Public                                              99,536,231          96,505,988
   E. (Less: Earned Revenue From the Public)                                     -879,929          -1,724,336
   F. Net Costs With the Public                                      $         98,656,302   $      94,781,652
   G. Total Net Cost                                                 $        124,294,397   $     118,689,270
2. Cost Not Assigned to Programs                                                        0                   0
3. (Less: Earned Revenue Not Attributable to Programs)                                  0                   0
4. Net Cost of Operations                                            $        124,294,397   $     118,689,270




The accompanying notes are an integral part of the financial statements.



20
                                                                           2005 Annual Financial Statement


Consolidated Statement of Changes in Net Position—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                              2005                 2004
                                                                           Consolidated         Consolidated
CUMULATIVE RESULTS OF OPERATIONS
 1. Beginning Balances                                                 $      168,982,134   $      161,327,684
 2. Adjustments (+/-)
     2a. Changes in Accounting Principles (+/-)                                         0                    0
     2b. Correction of Errors (+/-)                                                     0                    0
3. Beginning Balances, as adjusted                                            168,982,134          161,327,684
4. Budgetary Financing Sources:
    4a. Appropriations received                                                         0                    0
    4b. Appropriations transferred-in/out (+/-)                                         0                    0
    4c. Other adjustments (rescissions, etc) (+/-)                                      0                    0
    4d. Appropriations used                                                   114,969,992          124,686,986
    4e. Nonexchange revenue                                                           920                8,827
    4f. Donations and forfeitures of cash and cash equivalents                      1,860                2,171
    4g. Transfers-in/out without reimbursement (+/-)                              967,200              671,000
    4h. Other budgetary financing sources (+/-)                                         0                    0
5. Other Financing Sources:
    5a. Donations and forfeitures of property                                           0                    0
    5b. Transfers-in/out without reimbursement (+/-)                              -25,648              311,130
    5c. Imputed financing from costs absorbed by others                           742,039              663,607
    5d. Other (+/-)                                                                     0                    0
6. Total Financing Sources                                                    116,656,363          126,343,721
7. Net Cost of Operations (+/-)                                               124,294,397          118,689,270
8. Net Change                                                                  -7,638,034            7,654,451
9. Ending Balance                                                      $      161,344,100   $      168,982,135

UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                                  $       49,660,670   $       50,742,317
2. Prior period adjustments (+/-)
   2a. Changes in Accounting Principles (+/-)                                           0                    0
   2b. Correction of Errors (+/-)                                                       0                    0
3. Beginning Balances, as adjusted                                             49,660,670           50,742,317
4. Budgetary Financing Sources:
   4a. Appropriations received                                                128,888,188          125,480,665
   4b. Appropriations transferred-in/out (+/-)                                  1,631,239             -454,456
   4c. Other adjustments (rescissions, etc) (+/-)                              -1,493,468           -1,420,870
   4d. Appropriations used                                                   -114,969,992         -124,686,986
   4e. Nonexchange revenue                                                              0                    0
   4f. Donations and forfeitures of cash and cash equivalents                           0                    0
   4g. Transfers-in/out without reimbursement (+/-)                                     0                    0
   4h. Other budgetary financing sources (+/-)                                          0                    0
5. Other Financing Sources:
   5a. Donations and forfeitures of property                                            0                    0
   5b. Transfers-in/out without reimbursement (+/-)                                     0                    0
   5c. Imputed financing from costs absorbed by others                                  0                    0
   5d. Other (+/-)                                                                      0                    0
6. Total Financing Sources                                                     14,055,967           -1,081,647
7. Net Cost of Operations (+/-)
8. Net Change                                                                  14,055,967           -1,081,647
9. Ending Balance                                                      $       63,716,637   $       49,660,670



The accompanying notes are an integral part of the financial statements.



                                                                                                                 21
        United States Air Force


Combined Statement of Budgetary Resources—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)
                                                                  2005               2004
                                                                Combined           Combined
BUDGETARY FINANCING ACCOUNTS
Budgetary Resources
1. Budget Authority:
   1a. Appropriations received                              $    128,890,968   $    125,483,786
   1b. Borrowing authority                                                 0                  0
   1c. Contract authority                                                  0                  0
   1d. Net transfers (+/-)                                           638,153            -29,394
   1e. Other                                                               0                  0
2. Unobligated balance:
   2a. Beginning of period                                         9,043,364          9,189,946
   2b. Net transfers, actual (+/-)                                 1,960,286            245,938
   2c. Anticipated Transfers Balances                                      0                  0
3. Spending authority from offsetting collections:
   3a. Earned                                                              0                  0
       1. Collected                                                8,923,532          8,117,605
       2. Receivable from Federal sources                            142,948            317,565
   3b. Change in unfilled customer orders                                  0                  0
       1. Advance received                                           349,671            188,072
       2. Without advance from Federal sources                       388,543           -109,981
   3c. Anticipated for the rest of year, without advances                  0                  0
   3d. Previously unavailable                                              0                  0
   3e. Transfers for trust funds                                           0                  0
   3f. Subtotal                                                    9,804,694          8,513,261
4. Recoveries of prior year obligations                            1,300,191          1,431,079
5. Temporarily not available pursuant to Public Law                        0                  0
6. Permanently not available                                      -1,493,468         -1,437,653
7. Total Budgetary Resources                                $    150,144,188   $    143,396,963

STATUS OF BUDGETARY RESOURCES
8. Obligations incurred:
   8a. Direct                                               $    124,689,424   $    129,913,273
   8b. Reimbursable                                               12,448,555          4,447,386
   8c. Subtotal                                                  137,137,979        134,360,659
9. Unobligated balance:
   9a. Apportioned                                                11,756,881          8,072,566
   9b. Exempt from apportionment                                       3,218              2,709
   9c. Other available                                                     1                 -1
10. Unobligated Balances Not Available                             1,246,109            961,030
11. Total, Status of Budgetary Resources                    $    150,144,188   $    143,396,963

Relationship of Obligations to Outlays:
12. Obligated Balance, Net - beginning of period            $     51,504,133   $     50,541,583
13. Obligated Balance transferred, net (+/-)                               0                  0
14. Obligated Balance, Net - end of period:
    14a. Accounts receivable                                      -1,619,560         -1,476,612
    14b. Unfilled customer order from Federal sources             -1,215,937           -827,393
    14c. Undelivered orders                                       42,643,727         42,309,792
    14d. Accounts payable                                          9,197,053         11,505,411
15. Outlays:
    15a. Disbursements                                           137,805,147        131,752,381
    15b. Collections                                              -9,273,203         -8,305,678
    15c. Subtotal                                                128,531,944        123,446,703
16. Less: Offsetting receipts                                       -123,202           -115,376
17. Net Outlays                                             $    128,408,742   $    123,331,327


The accompanying notes are an integral part of the financial statements.



22
                                                                                    2005 Annual Financial Statement


Consolidated Statement of Financing—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)
                                                                                                    2005                2004
                                                                                                 Consolidated        Consolidated
Resources Used to Finance Activities:
Budgetary Resources Obligated
1. Obligations incurred                                                                      $    137,137,979    $    134,360,658
2. Less: Spending authority from offsetting collections and recoveries (-)                        -11,104,884          -9,944,341
3. Obligations net of offsetting collections and recoveries                                       126,033,095         124,416,317
4. Less: Offsetting receipts (-)                                                                     -123,202            -115,376
5. Net obligations                                                                                125,909,893         124,300,941
Other Resources
6. Donations and forfeitures of property                                                                    0                   0
7. Transfers in/out without reimbursement (+/-)                                                       -25,648             311,130
8. Imputed financing from costs absorbed by others                                                    742,039             663,607
9. Other (+/-)                                                                                              0                   0
10. Net other resources used to finance activities                                                    716,391             974,737
11. Total resources used to finance activities                                                    126,626,284         125,275,678
Resources Used to Finance Items not Part of the Net Cost of Operations
12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
      12a. Undelivered Orders (-)                                                                  -11,681,780            201,266
      12b. Unfilled Customer Orders                                                                    738,214             78,091
13. Resources that fund expenses recognized in prior periods                                          -606,526           -896,088
14. Budgetary offsetting collections and receipts that                                                 123,202            115,376
    do not affect net cost of operations
15. Resources that finance the acquisition of assets                                               -18,029,608         -16,068,394
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
      16a. Less: Trust or Special Fund Receipts Related to Exchange                                         0                   0
           in the Entity's Budget (-)
      16b. Other (+/-)                                                                                  25,648           -311,130
17. Total resources used to finance items not part of the net cost of operations                   -29,430,850        -16,880,879
18. Total resources used to finance the net cost of operations                                      97,195,434        108,394,799

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                                                 81,024             137,700
20. Increase in environmental and disposal liability                                                        0                   0
21. Upward/Downward reestimates of credit subsidy expense (+/-)                                             0                   0
22. Increase in exchange revenue receivable from the the public (-)                                         0                   0
23. Other (+/-)                                                                                        13,659              53,205
24. Total components of Net Cost of Operations that will require                                       94,683             190,905
    or generate resources in future periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                                  11,743,098           9,847,705
26. Revaluation of assets or liabilities (+/-)                                                        787,835            -938,081
27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                                       0                   0
     27b. Cost of Goods Sold                                                                                0                   0
     27c. Operating Material & Supplies Used                                                        2,037,758           3,919,002
     27d. Other                                                                                    12,435,587          -2,725,063
28. Total components of Net Cost of Operations that will not require or generate resources         27,004,278          10,103,563
29. Total components of net cost of operations that                                                27,098,961          10,294,468
    will not require or generate resources in the current period
30. Net Cost of Operations                                                                   $    124,294,395    $    118,689,267




The accompanying notes are an integral part of the financial statements.



                                                                                                                                     23
     United States Air Force




                               This page intentionally left blank.




24
              2005 Annual Financial Statement




   General Fund

  Footnotes to the
Principal Statements




                                           25
     United States Air Force




                               This page intentionally left blank.




26
                                                                          2005 Annual Financial Statement


Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the
Department of the Air Force, as required by the Chief Financial Officer (CFO) Act of 1990, expanded by the
Government Management Reform Act (GMRA) of 1994, and other appropriate legislation. The financial state-
ments have been prepared from the books and records of the Air Force in accordance with the Department of
Defense (DoD) Financial Management Regulation, the Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements, and, to the extent possible, federal generally accepted accounting principles
(Federal GAAP). The accompanying financial statements account for all resources for which the Air Force is
responsible, although information relative to classified assets, programs, and operations has been either excluded
from the statements or otherwise aggregated and reported in such a manner that it is no longer classified. The
Air Force’s financial statements are in addition to the financial reports prepared by the Air Force pursuant to
OMB directives that are used to monitor and control the Air Force’s use of budgetary resources.

The Air Force is unable to fully implement all elements of Federal GAAP and OMB Circular A-136 due to limita-
tions in its financial and nonfinancial processes and feeder systems. Reported values and information for the Air
Force major asset and liability categories are derived largely from nonfinancial feeder systems, such as inventory
and logistics systems. These systems were designed to support reporting requirements that focused on main-
taining accountability over assets and on reporting the status of federal appropriations rather than on preparing
financial statements in accordance with Federal GAAP. As a result, the Air Force currently cannot implement
every aspect of Federal GAAP and OMB Circular A-136. The Air Force is implementing process and system
improvements that address the limitations of its financial and nonfinancial feeder systems.

The Air Force entered a material number of unsupported accounting entries because financial and nonfinancial
feeder systems continue to lack sufficient customer identification information to accurately process eliminations.
This issue was disclosed in the DoD Agency-wide Note 1 and is addressed in the Air Force’s plan to obtain a
favorable opinion.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The
National Security Act Amendments of 1949 established the DoD and made the Air Force a department within
the DoD. The overall mission of the Air Force is to defend the United States through control and exploitation of
air and space.

The Air Force incorporates internal controls, reconciliations, management by exception reports, and other man-
agement control information into its accounting systems. When possible, the financial statements are presented
on the accrual basis of accounting, as required by federal accounting standards.

The accounts used to prepare the financial statements are categorized as either entity or nonentity. Entity
accounts consist of resources that are available for use in the operations of the entity. The Air Force is author-
ized to decide how to use resources in entity accounts or may be legally obligated to use these resources to
meet entity obligations. Nonentity accounts, on the other hand, consist of assets that are held by an entity but
that are not available for use in the operations of the entity. The following is a list of Air Force account numbers
and titles (all accounts are entity accounts unless otherwise noted).




                                                                                                                   27
        United States Air Force


Air Force Account Number                    Title
57 * 0704                                   Military Family Housing (O&M and Construction), Air Force
57 * 0740                                   Military Family Housing (Construction), Air Force
57 * 0745                                   Military Family Housing (O&M), Air Force
57 * 0810                                   Environmental Restoration, Air Force
57 * 1999                                   Unclassified Receipts and Expenditures, Air Force
57 * 3010                                   Aircraft Procurement, Air Force
57 * 3011                                   Procurement of Ammunition, Air Force
57 * 3020                                   Missile Procurement, Air Force
57 * 3080                                   Other Procurement, Air Force
57 * 3300                                   Military Construction, Air Force
57 * 3400                                   Operation and Maintenance (O&M), Air Force
57 * 3500                                   Military Personnel, Air Force
57 * 3600                                   Research, Development, Testing, and Evaluation (RDT&E), AF
57 * 3700                                   Personnel, Air Force Reserve
57 * 3730                                   Military Construction, Air Force Reserve
57 * 3740                                   Operation and Maintenance (O&M), Air Force Reserve
57 * 3830                                   Military Construction, Air National Guard
57 * 3840                                   Operation and Maintenance (O&M), Air National Guard
57 * 3850                                   Personnel, Air National Guard
57 X 5095                                   Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                                   Air Force Cadet Fund
57 X 8928                                   Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)                  Budget Clearing Accounts
57 * 6XXX (Nonentity)                       Deposit Fund Accounts
57 **** (Nonentity)                         Receipt Accounts



1.C. Appropriations and Funds
The Air Force's appropriations and funds are used to fund and to report how resources have been used in the
course of executing the Air Force’s missions. The Air Force’s appropriations and funds are divided into the fol-
lowing categories:
•    General funds are used for financial transactions arising under congressional appropriations and include per-
     sonnel, operation and maintenance, research and development, procurement, and construction accounts.

•    Working Capital Fund (revolving fund) activities are reported in a separate set of audited financial statements
     and related footnotes.

•    Trust funds represent the receipt and expenditure of funds held in trust by the Air Force for use in carrying
     out specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

•    Special funds account for Air Force receipts earmarked for specific purposes.

•    Deposit funds are generally used to (1) account for unidentified remittances, or (2) hold assets for which the
     Air Force is acting as an agent or a custodian or whose distribution is awaiting legal determination.



28
                                                                        2005 Annual Financial Statement


1.D. Basis of Accounting

The Air Force generally records transactions on a budgetary basis and not an accrual accounting basis as is
required by Federal GAAP. For FY 2005, the Air Force’s financial management systems are unable to meet all of
the requirements for full accrual accounting. Many of the Air Force’s financial and nonfinancial feeder systems
and processes were designed and implemented prior to the issuance of Federal GAAP for federal agencies and,
therefore, were not designed to collect and record financial information on the full accrual accounting basis as
required by Federal GAAP.

The Air Force has undertaken efforts to determine the actions required to bring its financial and nonfinancial
feeder systems and processes into compliance with all elements of Federal GAAP. One such action is the current
revision of the Air Force’s accounting systems to record transactions based on the United States Government
Standard General Ledger (USSGL).

Until all of the Air Force’s financial and nonfinancial feeder systems and processes are updated to collect and
report financial information as required by Federal GAAP, some of Air Force’s financial data will be based on
budgetary transactions (obligations, disbursements, and collections) and nonfinancial feeder systems and then be
adjusted for known accruals of major items such as payroll expenses, accounts payable, and environmental liabili-
ties. For example, much of the data on the Statement of Net Cost (SoNC) is based on obligations and disburse-
ments and may not represent all accrued costs. However, when possible, the Air Force’s financial statements are
presented on the accrual basis of accounting as required by Federal GAAP.

In addition, the Air Force identifies programs based upon the major appropriation groups provided by Congress.
The Air Force is reviewing available data and attempting to develop a cost reporting methodology that balances
the need for cost information as required by the Statement of Federal Financial Accounting Standard (SFFAS) No.
4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with the need to keep the
financial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources

Financing sources for general funds are primarily provided through congressional appropriations received on both
an annual and a multi-year basis. When authorized, these appropriations are supplemented by revenues generat-
ed by sales of goods or services through a reimbursable order process. The Air Force recognizes revenue as a
result of costs incurred or services performed on behalf of other federal agencies and the public. Revenue is rec-
ognized when earned under the reimbursable order process.

The Air Force does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in its list of other financing sources that appears in the Statement of Financing. Agreements between the
U.S. and some foreign countries include both direct and indirect sharing of the costs that each country incurs in
support of the same general purpose. Examples of such countries include those that have a mutual or reciprocal
defense agreement with the U.S. and those where U.S. troops are stationed or the U.S. fleet is serviced. The
DoD is reviewing this type of financing and cost reduction in order to establish accounting policies and proce-
dures to identify which, if any, of these costs are appropriate for disclosure in the DoD and Air Force financial
statements in accordance with Federal GAAP. Recognition of support provided by host nations would affect both
financing sources and recognition of expenses

1.F. Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses during the period
in which they were incurred. However, because the Air Force’s financial and nonfinancial feeder systems were



                                                                                                                29
       United States Air Force


not designed to collect and record financial information on the full accrual accounting basis, accrual adjustments
are made for major items such as payroll expenses, accounts payable, and environmental liabilities. Expenditures
for capital and other long-term assets are not recognized as expenses in the Air Force’s operations until depreci-
ated, in the case of Property, Plant, and Equipment (PP&E), or consumed, in the case of Operating Materials and
Supplies (OM&S). Net increases or decreases in unexpended appropriations are recognized as constituting a
change in the net position. Certain expenses, such as annual and military leave earned but not taken, are financed
in the period in which payment is made.

Operating expenses were adjusted as a result of the elimination of balances between DoD Components.

1.G. Accounting for Intra-governmental Activities

The Air Force, as an agency of the federal government, interacts with and is dependent upon the financial
activities of the federal government as a whole. Therefore, these financial statements do not reflect the results
of all financial transactions applicable to the Air Force as though the agency were a stand-alone entity.

The Air Force’s proportionate share of public debt and related expenses of the federal government are not
included in the financial statements. Debt issued by the federal government and the related costs are not
apportioned to federal agencies. The Air Force’s financial statements do not report any portion of the public
debt or interest thereon, nor do the statements report the source of public financing, whether from issuance
of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

The Air Force’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
Employees Retirement System (FERS), while military personnel are covered by the Military Retirement System
(MRS). The Air Force funds a portion of the civilian and military pensions. Additionally, employees and person-
nel covered by FERS and MRS also have varying coverage under Social Security. Reporting civilian pensions
under CSRS and FERS retirement systems is the responsibility of the Office of Personnel Management (OPM).
The Air Force recognizes an imputed expense for the portion of civilian employee pensions and other retire-
ment benefits funded by the OPM in the SoNC and recognizes corresponding imputed revenue from the civil-
ian employee pensions and other retirement benefits in the Statement of Changes in Net Position.

To prepare reliable financial statements, transactions occurring between components or activities within the Air
Force must be eliminated. However, the Air Force, as well as the rest of the federal government, cannot accu-
rately identify all intra-governmental transactions by customer. The Defense Finance and Accounting Service
(DFAS) is responsible for eliminating transactions between components or activities of the Air Force. Since FY
1999, seller entities within the DoD have provided summary seller-side balances for revenue, accounts receiv-
able, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
records have been adjusted to recognize unrecorded costs and accounts payable. Intra-Air Force balances
were then eliminated.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions
between the DoD and other federal agencies. In July 2005, the FMS issued the updated “Federal Intra-govern-
mental Transactions Accounting Policies Guide.” The DoD was not able to fully implement the policies and
procedures in this guide related to reconciling intra-governmental assets, liabilities, revenues, and expenses for
nonfiduciary transactions. The Air Force, however, was able to implement the policies and procedures con-
tained in the “Intra-governmental Fiduciary Transactions Accounting Guide,” as updated by the “Federal Intra-



30
                                                                         2005 Annual Financial Statement


governmental Transactions Accounting Policies Guide” (July 1, 2005 updated version, effective for FY 2005
reporting) for reconciling intra-governmental transactions. These transactions include or pertain to investments
in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with the OPM.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the DoD Components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
the Act, the DoD has authority to sell defense articles and services to foreign countries and international organi-
zations, generally at no profit to the U.S. Government. Customers may be required to make payments in
advance.

1.I. Funds with the U.S. Treasury

The Air Force’s financial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the United States
Army Corps of Engineers (USACE) disbursing stations, as well as at the Department of State financial service cen-
ters. Each disbursing station prepares monthly reports that provide information to the U.S. Treasury on check
issues, electronic fund transfers, interagency transfers, and deposits.

In addition, the DFAS sites and USACE Finance Center submit reports to the Department of the Treasury, provid-
ing information at the appropriation level on interagency transfers, collections received, and disbursements issued.
The Department of the Treasury then records this information to the applicable Fund Balance with Treasury
(FBWT) account maintained in the Treasury’s system. Differences between the Air Force’s recorded balance in
the FBWT accounts and Treasury’s FBWT accounts sometimes result and are subsequently reconciled. Material
disclosures are provided at Note 3. Also disclosed at Note 3 are differences between accounting offices’ detail
level records and Treasury’s FBWT accounts, specifically, differences caused by in-transit disbursements and
unmatched disbursements (where the specific disbursement has not been recorded in the appropriate accounting
offices’ detail level records).

1.J. Foreign Currency

The Air Force conducts a significant portion of its operations overseas. The Congress established a special
account to handle gains and losses from foreign currency transactions for the following five general fund appropri-
ations: O&M, Military Personnel, Military Construction, Family Housing Operation and Maintenance, and Family
Housing Construction. Gains and losses are computed as the variance between the exchange rate current at the
date of payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations
related to other appropriations require adjustment to the original obligation amount at the time of payment.
These currency fluctuations are not identified separately. See Note 7 for material disclosures.

1.K. Accounts Receivable

As presented in the balance sheet statement, accounts receivable include accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public are
based upon analysis of collection experience by fund type. The DoD does not recognize an allowance for esti-
mated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be
resolved between the agencies. See Note 5 for material disclosures.




                                                                                                                 31
       United States Air Force


1.L. Loans Receivable
Not applicable

1.M. Inventories and Related Property

The related property portion of the amount reported on the Inventory and Related Property line includes
Operating Materials and Supplies (OM&S). The OM&S are reported at approximate historical cost using Standard
Price (SP). The Air Force uses the SP method because its OM&S systems were designed for material manage-
ment rather than for accounting. The systems provide accountability and visibility over inventory items. They do
not maintain the historical cost data necessary to comply with Statement of Federal Financial Accounting
Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property.” Neither can they directly produce
financial transactions using the U.S. Standard General Ledger (USSGL), as required by the Federal Financial
Management Improvement Act of 1996 (P.L. 104-208). The DoD is transitioning to the Moving Average Cost
(MAC) methodology of valuing inventory in order to comply with SFFAS No. 3.

SFFAS No. 3 distinguishes between “inventory held for use” and “inventory held in reserve for future use.”
There is no management or valuation difference between the two USSGL accounts. Further, the DoD manages
only military or government-specific material under normal conditions. Items commonly used in and available
from the commercial sector are not managed in DoD material-management activities. Operational cycles are
irregular, and the military risks associated with stock-out positions have no commercial parallel. The DoD holds
material based on military need and support for contingencies. As a result, the Air Force does not attempt to
separately account for items held for current or future use.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held for use, are valued
at SP. Ammunition and munitions are treated as OM&S. The Air Force uses the consumption method of accounting
for OM&S. Under the consumption method, Air Force expenses material when it is issued to the end user.

In FY 2002, the DoD implemented a new policy to account for condemned material (only) as Excess, Obsolete, and
Unserviceable. The net value of condemned material is zero because the costs of disposal are greater than the poten-
tial scrap value. Material that can be potentially redistributed (presented in previous years as Excess, Obsolete, and
Unserviceable) is included in the Held for Use or Held for Repair categories, according to its condition.

In addition, past audit results identified uncertainties about the completeness and existence of quantities used to pro-
duce the reported values. Material disclosures related to inventory and related property are provided at Note 9.

1.N. Investments in U.S. Treasury Securities

Investments in U.S. Treasury securities are reported at cost, determined as the net of unamortized premiums or dis-
counts. Premiums or discounts are amortized into interest income over the term of the investment, using the effec-
tive interest rate method or other method if similar results are obtained. The Air Force’s intent is to hold invest-
ments to maturity, unless they are needed to finance claims or otherwise sustain operations. Consequently, provi-
sion is not made for unrealized gains or losses on these securities. Related earnings are allocated to appropriate Air
Force activities to be used in accordance with the directions of the donor. See Note 4 for material disclosures.

The Air Force invests in both marketable and nonmarketable securities. Marketable securities are investments
trading on a public market. The two types of nonmarketable securities are par value and market-based intra-gov-
ernmental securities. The Bureau of Public Debt issues nonmarketable, par value intra-governmental securities.
Nonmarketable, market-based intra-governmental securities mimic marketable securities but are not traded pub-
licly. See Note 4 for material disclosures.




32
                                                                           2005 Annual Financial Statement


1.O. General Property, Plant and Equipment
General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has
a useful life of two or more years and when the acquisition cost equals or exceeds the DoD capitalization thresh-
old of $100,000. Also, improvement costs over the DoD capitalization threshold of $100,000 for General PP&E
are required to be capitalized. All General PP&E assets, other than land, are depreciated on a straight-line basis.
Land is not depreciated.

When it is in the best interest of the government, the Air Force provides contractors with government property
necessary to complete contract work. The Air Force owns or leases this property, or the contractor purchases
the property directly for the government under the terms of the contract. When the value of contractor pro-
cured General PP&E exceeds the DoD capitalization threshold, such PP&E must be included in the value of
General PP&E reported on the Air Force’s balance sheet. The DoD is developing new policies and a contractor
reporting process that will provide appropriate General PP&E information for future financial statement purposes.
Accordingly, the Air Force currently reports only government property in the possession of contractors main-
tained in the Air Force real property systems.

To bring the Air Force into full compliance with federal accounting standards, the DoD has issued new property
accountability and reporting regulations that require DoD Component property systems information on all prop-
erty furnished to contractors. This and other DoD proposed actions are structured to capture and report the
information necessary for compliance with federal accounting standards.

See Note 10 for material disclosures.

1.P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported
as an asset on the balance sheet. Advances and prepayments are recognized as expenditures and expenses when
the related goods and services are received.

1.Q. Leases

Generally, lease payments are for the rental of equipment vehicles and operating facilities and are classified as
either capital or operating leases. When a lease essentially is equivalent to an installment purchase of property (a
capital lease), the Air Force records the applicable asset and liability if the value equals or exceeds the current
DoD capitalization threshold. The Air Force records the amounts as the lesser of the following two values: (1)
the present value of the rental and other lease payments during the lease term (excluding portions representing
executory costs paid to the lessor); or (2) the asset’s fair value. The Air Force deems the use of estimates for
these costs as adequate and appropriate due to the relatively low dollar value of capital leases. Imputed interest
is necessary to reduce net minimum lease payments to present value calculated at the incremental borrowing rate
at the inception of the leases. Leases that do not transfer substantially all of the benefits or risks of ownership are
classified as operating leases and are expensed over the period of the lease.

1.R. Other Assets

The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
cause, the Air Force provides financing payments. One type of financing payment for real property is based on
the percentage of completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets and
Liabilities,” such payments are treated as construction-in-progress and reported on the General PP&E line and in




                                                                                                                    33
       United States Air Force


Note 10, General PP&E, Net. In addition, based on the Federal Acquisition Regulation, the Air Force makes
financing payments under fixed price contracts not based on percentage of completion. The Air Force reports
these financing payments as advances or prepayments in the Other Assets line item. The Air Force treats these
payments as advances or prepayments because the Air Force becomes liable only after the contractor delivers
the goods. If the contractor does not deliver a satisfactory product, the Air Force is not obligated to reimburse
the contractor, and the contractor is liable to repay the Air Force for the full amount of the advance.

The DoD has completed a review of the applicable federal accounting standards; public laws on contract financ-
ing; Federal Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations
Part 1315, “Prompt Payment.” The DoD has concluded that SFFAS No. 1 does not fully address progress pay-
ment accounting and is considering what action is appropriate.

1.S. Contingencies and Other Liabilities

The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the Air
Force. The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is
recognized as a liability when a past event or exchange transaction has occurred, a future loss is probable, and the
amount of loss can be reasonably estimated. Financial statement reporting is limited to disclosure when condi-
tions for liability recognition do not exist but where there is at least a reasonable possibility that a loss or addition-
al loss will be incurred. Examples of loss contingencies include the collectibility of receivables, pending or threat-
ened litigation, and possible claims and assessments. The Air Force’s loss contingencies arising as a result of
pending or threatened litigation or claims and assessments occur due to events such as aircraft and vehicle acci-
dents, medical malpractice, property or environmental damages, and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Air Force’s assets and are classified as either
environmental or nonenvironmental. The recognition of an anticipated environmental disposal liability com-
mences when the asset is placed into service, consistent with SFFAS No. 6, “Accounting for Property, Plant, and
Equipment.” Based upon the Air Force’s policies and consistent with SFFAS No. 5, “Accounting for Liabilities of
Federal Government,” a nonenvironmental disposal liability is recognized for an asset when management makes a
decision to dispose of the asset. The DoD has agreed to the recognition of the nonenvironmental disposal liabili-
ty for nuclear-powered assets when the asset is placed in service. Such amounts are developed in conjunction
with and are not easily identifiable separately from environmental disposal costs. Material disclosures are provid-
ed at Notes 14 and 15.

1.T. Accrued Leave
Civilian annual leave and military leave balances that have been accrued and not used prior to the balance sheet
date are reported as liabilities. The liability reported at the end of the fiscal year reflects current pay rates.

1.U. Net Position

Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropri-
ations represent (1) amounts of authority that are not obligated and that have not been rescinded or withdrawn,
and (2) amounts that are obligated but for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the difference between expenses and losses and financing sources
(including appropriations, revenue, and gains) since the inception of an activity.




34
                                                                         2005 Annual Financial Statement


1.V. Treaties for Use of Foreign Bases

The DoD Components have the use of land, buildings, and other facilities that are located overseas and that have
been obtained through various international treaties and agreements negotiated by the Department of State. The
DoD purchases overseas capital assets with appropriated funds, but the host country retains title to land and
improvements. Generally, treaty terms allow the DoD Components continued use of these properties until the
treaties expire. These fixed assets are subject to loss in the event treaties are not renewed or other agreements
are not reached that allow for the continued use by the DoD Components. Therefore, if the U.S. can no longer
use foreign bases because treaties or other agreements have been terminated, losses will be recorded for the
value of any nonretrievable capital assets after negotiations between the U.S. and the host country determine the
amount to be paid the U.S. for such capital investments.

1.W. Comparative Data

The Financial Statements and accompanying Notes to the Financial Statements report the financial position and
results of operations for FY 2005. Financial statement fluctuations greater than 2 percent of total assets on the
Balance Sheet and/or greater than 10 percent between FY 2004 and FY 2005 are explained within the Notes to
the Financial Statements.

1.X. Unexpended Obligations

The Air Force obligates funds to provide goods and services for outstanding orders not yet delivered. The finan-
cial statements do not reflect this liability for payment for goods or services not yet delivered.

1.Y. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
reported on the departmental accounting reports. In-transit payments are those payments that have been made
to other agencies or entities that have not been recorded in their accounting records. These payments are
applied to the entities’ outstanding accounts payable balance. In-transit collections are those collections from
other agencies or entities that have not been recorded in the accounting records. These collections are also
applied to the entities’ accounts receivable balance. The Department of Defense policy is to allocate supported
undistributed disbursements and collections between federal and nonfederal categories based on the percentage
of Federal and nonfederal accounts payable and accounts receivable. Unsupported undistributed disbursements
are recorded in accounts payable. Unsupported undistributed collections are recorded in other liabilities. The
Air Force follows this procedure.




                                                                                                                 35
       United States Air Force


Note 2. Nonentity Assets

 As of September 30                            2005                2004
 (Amounts in thousands)

 1. Intra-governmental Assets
   A. Fund Balance with Treasury          $           77,276   $         53,290
   B. Investments                                          0                  0
   C. Accounts Receivable                              2,354             48,685
   D. Other Assets                                         0                  0
   E. Total Intra-governmental Assets     $           79,630   $        101,975

 2. Non-Federal Assets
   A. Cash and Other Monetary Assets      $        151,844     $        311,323
   B. Accounts Receivable                          128,943              238,159
   C. Loans Receivable                                   0                    0
   D. Inventory & Related Property                       0                    0
   E. General PP&E                                       0                    0
   F. Investments                                        0                    0
   G. Other Assets                                 156,872                  559
   H. Total Nonfederal Assets             $        437,659     $        550,041
 3. Total Nonentity Assets                $        517,289     $        652,016
 4. Total Entity Assets                   $    246,089,524     $    242,477,977
 5. Total Assets                          $    246,606,813     $    243,129,993



Relevant Information for Comprehension

Nonentity Assets are assets that are held by an entity but that are not available for use in the operations of the
entity. Nonfederal Other Assets classes are advances to contractors and outstanding travel advances. The
Nonentity Fund Balance with Treasury asset class represents amounts in Air Force deposit and two of suspense
accounts that are not available for Air Force use. Nonentity Accounts Receivables, both when collected, go to
the Department of the Treasury as miscellaneous receipts. The Nonentity Nonfederal Accounts Receivable
amount also includes interest receivables on aged debt. Nonentity Cash and Other Monetary Assets represent
disbursing officers’ cash and undeposited collections as reported on the Statement of Accountability. These assets
are held by the Air Force disbursing officers as agents of the Treasury.

Fluctuations

The Nonentity Fund Balance with Treasury on line 1.A increased $23,986 thousand, or 45 percent due to revised
guidance that clarifies what accounts should be reported as Nonentity Fund Balance with Treasury. This line now
includes balances in deposit fund accounts, receipt accounts, and the Civilian Thrift Saving Plan (TSP) and Military
TSP budget clearing accounts.

The decrease of Intra-governmental and Nonfederal Accounts Receivable is due to a management initiative in
identifying invalid accounts receivable and subsequently taking the appropriate corrective action. The Air Force
was also successful in collecting on a substantial amount of delinquent debts. The Intra-governmental Accounts
Receivable on line 1.C. decreased $46,330 thousand, or 95 percent, and Non-Federal Assets Accounts
Receivables on line 2.B. decreased $103,056 thousand, or 43 percent.

Total Cash and Other Monetary Assets decreased $159,479 thousand, or 51 percent, between FY 2004 and FY
2005. Of this decrease, $147,780 thousand can be attributed to changes in the reporting of Advances to



36
                                                                           2005 Annual Financial Statement


Contractors under University Pool Agreements. University Pool Agreements are agreements to provide advances
for research and development conducted on behalf of the Air Force at major academic research institutions. In
FY 2004, guidance instructed that these advances be reclassified to Cash and Other Monetary Assets from Other
Assets. The guidance was subsequently rescinded, resulting in their reclassification from Cash and Other
Monetary Assets back to Other Assets on the FY 2005 financial statements.

In addition, implementation of a new procedure using the International Treasury Service (ITS.gov) to pay foreign
vendors drove a $5,275 thousand decrease in the Foreign Currency asset class. The Centralized Disbursing
Directorate at DFAS-DE now sends U.S. dollars directly to the Bank of America in Germany for conversion to
foreign currencies and for direct disbursement from the bank to foreign vendors. ITS.gov therefore bypasses the
Air Force disbursing officers, whose need for foreign currency is thereby reduced.

Note 3. Fund Balance with Treasury

 As of September 30                                            2005             2004
 (Amounts in thousands)

 1. Fund Balances
   A. Appropriated Funds                                   $ 62,293,567     $    60,559,736
   B. Revolving Funds                                                 0                   0
   C. Trust Funds                                                 4,134               9,212
   D. Special Funds                                                 789                   0
   E. Other Fund Types                                           51,752              32,051
   F. Total Fund Balances                                  $ 62,350,242     $    60,600,999
 2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                            $ 63,268,814     $    61,497,801
   B. Fund Balance per Air Force                             62,350,242          60,600,999
 3. Reconciling Amount                                     $     918,572    $       896,802



Reconciling Amount

Parent Child Allocations that are not included in Air Force balances total $15,893 thousand. Included in these are
allocations from Foreign Military Sales Military Assistance Program and the Department of Agriculture. Included
in Air Force balance and not in Treasury balance is $4,418 thousand for funds allocated to the Department of
Transportation. This balance is reported on the Treasury Trial Balance 6654 for Treasury Index 69. In a
parent/child relationship, the child reports the FBWT amount if the amount is material to the child. Included in
the Treasury’s Balance is a canceling accounts balance of $783,279 thousand and the Receipt accounts balances of
$123,817 thousand that are not included in Air Force Fund Balance due to preclosing.

Fluctuations

The decrease of trust funds in the current year compared to the prior year is attributable to the completion of
the new expansion wing at the Air Force Museum and fewer donations in the Gift Fund because of the comple-
tion. Although donations decreased, disbursements had a greater decrease, resulting in fewer funds within the
gift fund.

The increase in special funds is due to the proper display of appropriation 5095, Fish and Wildlife, as a special
fund. During FY 2004, these funds were included on line 1.C., Trust Funds.




                                                                                                                    37
       United States Air Force


The fluctuation in Other Fund Types is primarily attributed to increases in amounts withheld from Air Force per-
sonnel for Servicemen’s Group Life Insurance Funds (SGLI) and proceeds from military airlift revenue traffic.
Amounts in these deposit fund accounts will be disbursed to applicable third parties or in the case of the pro-
ceeds from revenue traffic reimbursed to appropriations.

Air Force Cadet Fund

The Cadet Fund is a revolving trust fund account maintained for the benefit of the U.S. Air Force Academy
cadets. The Cadet Fund was initially funded by an appropriation and remains self-sufficient through equal collec-
tions and disbursements.

Check Issue Discrepancy

DFAS is in the process of collecting information for all check-issue data that are unsupportable because (1)
records have been lost during deactivation of disbursing offices, (2) transactions past the one year period in which
Treasury provides research assistance, or (3) corrections were processed for transactions that Treasury removed
from the check-comparison report. Transactions that have no supporting documentation due to one of the pre-
ceding situations shall be provided to the Department of the Treasury with a request to remove them from the
Treasury Check Comparison Report. The vast majority of the remaining check issue discrepancies result from
timing differences between the Air Force and the Department of the Treasury for processing checks. The DoD
does not require that Treasury remove any amounts from the check-issue comparison report since the check-
issue report balance was $0. Further, no empirical evidence has been presented that demonstrates that check
issue discrepancies adversely affect the FBWT.

Note Reference

See Note Disclosure 1.I., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing funds with the U.S. Treasury.


Status of Fund Balance with Treasury

As of September 30                                            2005                    2004
(Amounts in thousands)
1. Unobligated Balance
   A. Available                                              $   11,760,100       $      8,075,275
   B. Unavailable                                                 1,246,109                961,030
2. Obligated Balance not yet Disbursed                       $   51,840,781       $     53,815,202
3. Non-Budgetary FBWT                                        $      339,456       $         53,290
4. Non-FBWT Budgetary Accounts                               $   -2,836,206       $     -2,304,716
5. Total                                                     $   62,350,240       $     60,600,081


Fluctuations

Increase in Unobligated Balance Unavailable is due to less unused reimbursable authority in the Research, Test,
Development & Evaluation (RDT&E) appropriation in FY 2005.

From FY 2003 to FY 2004, the amount of reimbursable budget authority doubled from $2 billion to $4 billion to
accommodate the amount of future planned reimbursable work performed primarily in the research laboratories
and the classified programs. Although increased use of reimbursable budget authority occurred in FY 2004, a dra-
matic increase in usage didn't occur until FY 2005.


38
                                                                         2005 Annual Financial Statement


The difference between the total amount of the Status of Fund Balance with Treasury reflected here and Fund
Balance with Treasury in part one of Note 3 is identified as the Discount on U.S. Treasury Securities issued by the
Bureau of Public Debt. Further analysis is being done on a suggested mapping change that will resolve this recon-
ciling amount.

Relevant Information for Comprehension

Unexpended Obligations reported as a component of Unexpended Appropriations include both Undelivered
Orders-Unpaid and Undelivered Orders-Paid only for direct appropriated funds. This amount is distinct from
Change in Amount of Goods, Services, and Benefits Ordered but Not Yet Received line of the Statement of
Financing, which includes the change during the fiscal year in Unexpended Obligations against Budget Authority
from all sources.

Disclosures Related to Suspense/Budget Clearing Accounts
As of September 30                                                                        (Decrease)/
                                2003              2004                    2005         Increase from FY
                                                                                          2004 - 2005
(Amounts in thousands)
 Account
  F3875                          $    -364,737        $    -357,705      $   336,053     $        693,758
  F3880                                 -2,343               -3,803              691                4,494
  F3882                                -16,526              -20,956           25,523               46,479
  F3885                                  8,785               14,989          -74,564              -89,553
  F3886                                      0                    0                0                    0
 Total                           $    -374,821        $    -367,475      $   287,703     $        655,178



The Air Force continues to make a concerted effort to reduce balances in the suspense and budget clearing
accounts and to establish an accurate and consistent use of these accounts. The information presented indicates
the reductions (with the exceptions noted below) that the Air Force has achieved in the various suspense/budget
clearing accounts.

Suspense account F3882 is utilized to accommodate the Military Thrift Savings Plan (TSP). The National Finance
Center posts amounts into each member’s account, and they are consolidated and posted to the Treasury before
the Air Force can post the amounts in the military accounting system in the following month. The $4,568 thou-
sand increase is the result of increased participation in the TSP.

The increase (absolute value) in account F3885 IPAC is due to the inclusion in limit 007 of $(52,754) thousand and
the remaining variance can be attributed to IPAC transactions received during the last business day of the month.
When IPAC transactions are received, funds are placed in a suspense account until they can be researched and
assigned a valid appropriation, which will fluctuate from one reporting period to another depending upon the
amount processed to the Treasury at that time.

In the published reports for FY 2004, the balances for FY 2003 and FY 2004 are displayed incorrectly in the
opposite sign in the table. For FY 2005, the table is reflected the same as the published report. FY 2005 column
is reflected correctly.




                                                                                                                 39
          United States Air Force



Disclosures Related to Problem Disbursements and In-Transit Disbursements
As of September 30                                                                                                                           (Decrease)/
                                                                                  2003                   2004              2005            Increase from
                                                                                                                                             2004 - 2005
(Amounts in thousands)

1. Total Problem Disbursements, Absolute Value
   A. Unmatched Disbursements (UMDS)                                      $              7,813       $       161,630   $        272,972        $       111,342
   B. Negative Unliquidated Obligations (NULO)                                       12,436          $        9,792               8,209                  -1,583
2. Total In-transit Disbursements, Net                                    $       1,111,274          $    1,065,326    $        776,544        $       -288,782




Problem disbursements represent disbursements of Air Force funds reported by a disbursing station to the
Department of the Treasury which have not yet been precisely matched against the specific source obligation.
The problem disbursement arises when the various contracting, disbursing, and accounting systems fail to match
the data necessary to properly account for the transaction in all the applicable accounting systems.

The Air Force had a $109,759 thousand increase in problem disbursements and a $288,782 thousand decrease in
In-transit Disbursements. The Defense Finance and Accounting Service has efforts underway to improve the sys-
tems, to resolve all previous problem disbursements, and to process all In-transit Disbursements in a timely man-
ner. The amount of Unmatched Disbursements (UMDs) over 180 days is $0.00, of Negative Unliquidated
Disbursements (NULOs) is $0.00 and of In-transits is $17,955,733.29. The amount of UMDs over 120 days old
is $0.00, for NULOs is $0.00, and for In-transits is $20,432,111.93. The current absolute value of In-transit dis-
bursements is $1,029,617,356.16.

The increase in UMDs can be attributed to database mergers (San Antonio to Limestone in October 2004, and
Omaha to Dayton in May 2005) and difficulties encountered with the merger of the Contract Procurement
Accounting System (CPAS) and the General Accounting and Finance System (GAFS). Also, a substantial amount
of problems were encountered when we implemented new business processes for handling disbursements. ( e.g.,
corrupted data, duplicate data, missing data) All corrections are expected to be accomplished in the first quarter
of FY 2006.

Note 4. Investments and Related Interest
 As of September 30                                                                2005                                                 2004
                                                                          Unamortized
                                                           Amortization                                          Market Value      Investments,
                                            Par Value/Cost                 (Premium/          Investments,
                                                            Method                                                Disclosure           Net
                                                                            Discount)             Net

(Amounts in thousands)

1. Intra-governmental Securities
   A. Non-Marketable, Market-Based             $      710                     $           0      $        710    $         705      $          711
   B. Accrued Interest                                  7                                                   7                7                   0
   C. Total Intra-governmental Securities      $      717                     $           0      $        717    $         712      $          711

2. Other Investments                           $        0                     $           0      $           0             N/A      $              0




Fluctuations
Accrued Interest for FY 2004 of $7.3 thousand was posted using an incorrect attribute that did not cross-walk to
the Accrued Interest Line. It was incorrectly classified to accounts receivable.




40
                                                                             2005 Annual Financial Statement


Relevant Information for Comprehension
Air Force Gift Fund cash donations that are not going to be used in the immediate future to fund donor-designated
projects are invested in marketable securities with the Department of the Treasury. Increases and decreases in
the investment cost amount reflect the changes in those investments.
The Air Force Gift Fund was established to control and account for the disbursement and use of monies donated
to the Air Force along with the interest received from the investment of such donations. The related earnings
are allocated to appropriate Air Force activities to be used in accordance with the directions of the donor. These
funds are recorded as Non-Marketable Market Based U.S. Treasury Securities, which are not traded on any secu-
rity exchange but which mirror the prices of marketable securities with similar terms.

Note Reference
See Note Disclosure 1.N. Investments in U.S. Treasury, for additional Air Force policies governing investments in
U.S. Treasury securities.

Note 5. Accounts Receivable

 As of September 30
                                                   2005                                          2004

                                               Allowance For
                             Gross Amount                            Accounts Receivable,     Accounts
                                                 Estimated
                                 Due                                         Net            Receivable, Net
                                               Uncollectibles
(Amounts in thousands)


1. Intra-governmental
    Receivable s         $         653,589                    N/A      $          653,589   $           689,871

2. Non-Federal
   Receivables
   (From the Public)     $        1,178,626   $        -150,316        $       1,028,310    $           978,883

3. Total Accounts
   Receivable            $        1,832,215   $           -150,316     $       1,681,899    $       1,668,754



The total allowance method is determined at the Air Force departmental level. For closed years receivables and
deferred debts in litigation, an allowance rate of 50 percent results in an estimated allowance of $68,966 thou-
sand. Interest allowance of $332 thousand is calculated using an average percent of write offs to outstanding pub-
lic accounts receivable over a five year period starting with FY 2000 data. In addition, the allowance for Air Force
entity receivables is computed each year based on the average percent of write offs to outstanding public
accounts receivable for the last five years. This results in an estimated allowance of $81,017 thousand.

Relevant Information for Comprehension

As presented on the Consolidated Balance Sheet, accounts receivable include reimbursements receivable and
refunds receivable such as out of service debts (amounts owed by former service members), contractor debt, and
unused travel tickets. It also includes net interest receivables per Department of Defense (DoD) Financial
Management Regulation (FMR) Vol. 6B guidance. Canceled accounts receivable is reported as nonentity receiv-
ables because these amounts are deposited into a Treasury Department miscellaneous receipt account when col-
lected. Reconciliation between Report on Receivables Due from the Public and the balance sheet was accom-
plished. The differences between the balance sheet (line 1.C.) and Treasury Report on Receivables (TROR)




                                                                                                                  41
       United States Air Force


Due from the Public (line 7) include the allowance for estimated uncollectible of $150,316 thousand, unsupported
disbursements in transit in the amount of $1,938 thousand, and undistributed collections of $(9,280) thousand.
Undistributed collections are prorated between public and intra-governmental receivables on the balance sheet
based on the percentages of distributed receivables. This reconciliation is performed to ensure that the financial
statements are in agreement with the public receivables reported to the Department of the Treasury.

Accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading
partner aggregations. Therefore, the Air Force was unable to reconcile intra-governmental accounts receivable
balances with its trading partners. Through the ongoing Business Management Modernization Program, the
Department intends to develop long-term systems improvements that will capture the data necessary to perform
reconciliation.

Allocation of Undistributed Collections

The DoD policy is to allocate supported undistributed collections between federal and nonfederal categories
based on the percentage of Federal and Nonfederal Accounts Receivable. Unsupported undistributed collections
should be recorded in the United States Standard General Ledger (USSGL) account 2400, Liability for Deposit
Funds, Clearing Accounts and Undeposited Collections. The Air Force follows this allocation procedure.

Note Reference
See Note Disclosure 1.K., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing Accounts Receivable.

Note 6. Other Assets

 As of September 30
                                                                        2005                         2004
 (Amounts in thousands)

 1. Intra-governmental Other Assets
    A. Advances and Prepayments                            $                     427,989    $                 443,939
    B. Total Intra-governmental Other Assets               $                     427,989    $                 443,939
 2. Non-Federal Other Assets
    A. Outstanding Contract Financing Payments             $                   10,919,137   $               10,705,720
    B. Other Assets (With the Public)                                             259,904                      103,868
    C. Total Non-Federal Other Assets                      $                   11,179,041   $               10,809,588
 3. Total Other Assets                                     $                   11,607,030   $               11,253,527



Fluctuations

Other Assets with the Public, line 2.B., increased $156,036 thousand, or 150 percent, primarily due to the cor-
rect reporting of advances to contractors as shown on the SF 1219, Statement of Accountability, as Other Assets
this fiscal year. In FY 2004, guidance instructed the reclassification of these advances from the Other Asset line
on the Balance Sheet to the Cash and Other Monetary Asset line in order to show all SF 1219 data on one line.
The guidance was issued prematurely and was later rescinded, resulting in advances to contractors being reclassi-
fied back to Other Assets in FY 2005.

Advances to contractors on the SF 1219 are payments as part of an advance-payment pool agreement with
Massachusetts Institute of Technology and other nonprofit institutions. Advance-payment pool agreements are used for
the financing of cost-type contracts with nonprofit educational or research institutions for experimental or research and
development work when several contracts or a series of contracts require financing by advance payments.



42
                                                                           2005 Annual Financial Statement


Relevant Information for Comprehension

Other Assets

The amount of $259,904 thousand on line 2.B., Other Assets with the Public, is composed of $96,296 thousand
in travel advances, $6,928 thousand in other advances to contractors, and $156,680 thousand in advances to con-
tractors as reported on the SF 1219, Statement of Accountability.

Outstanding Contract Financing Payments

The Air Force reports as advances and prepayment all outstanding financing payments for fixed-price contracts
that are not based on percentage or stage of completion. Under the contract terms, the Air Force becomes
liable only after the contractor delivers the goods in conformance with the contract terms. If the contractor does
not deliver a satisfactory product, the Air Force is not obligated to reimburse the contractor for its cost, and the
contractor is liable to repay the Air Force for the full amount of the outstanding contract finance payments.

Note Reference

See Note Disclosure 1.R., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and Department of Defense policies governing other assets.

Note 7. Cash and Other Monetary Assets

  As of September 30                                                             2005               2004
  (Amounts in thousands)

  1. Cash                                                                    $     148,938      $    303,142
  2. Foreign Currency (non-purchased)                                                2,906             8,181
  3. Total Cash, Foreign Currency, & Other Monetary Assets                   $     151,844      $    311,323

Fluctuations

Total Cash, Foreign Currency & Other Monetary Assets decreased $159,479 thousand, or 51 percent, between
FY 2004 and FY 2005, caused by decreases in both the Cash and Foreign Currency asset classes.

The $154,204 thousand, or 51 percent, decrease in the Cash asset class can be attributed to changes in the report-
ing of Advances to Contractors under University Pool Agreements of $147,780 thousand. University Pool
Agreements are agreements to provide advances for research and development conducted on behalf of the Air
Force at major academic research institutions. In FY 2004, guidance instructed that these advances be reclassified
to Cash and Other Monetary Assets from Other Assets. The guidance was subsequently rescinded, resulting in their
reclassification from Cash and Other Monetary Assets back to Other Assets in the FY 2005 financial statements.

The implementation of a new procedure using the International Treasury Service (ITS.gov) to pay foreign vendors
drove the $5,275 thousand decrease in the Foreign Currency asset class. The Centralized Disbursing
Directorate at DFAS-DE now sends U.S. dollars directly to the Bank of America in Germany for conversion to
foreign currencies and for direct disbursement from the bank to foreign vendors. ITS.gov therefore bypasses the
Air Force disbursing officers, whose need for foreign currency is thereby reduced.




                                                                                                                   43
            United States Air Force


Relevant Information for Comprehension

The amounts reported for the Cash and Foreign Currency asset classes consist primarily of cash held by disburs-
ing officers to carry out their paying, collecting, and foreign currency accommodation exchange mission. The pri-
mary source of the amounts reported is the SF 1219, Statement of Accountability, reported by the Department of
Defense (DoD) disbursing officers.

The amount reported for the Foreign Currency asset class is valued using the Department of Treasury Prevailing
Rate of Exchange, the most favorable rate available to the U.S. Government when acquiring foreign currency to
make official disbursements and to provide currency for exchange of U.S. dollars for troops.

Note Reference

See Note Disclosure 1.J., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing foreign currency.

Note 8. Direct Loan and/or Loan Guarantee Programs
Direct Loan and/or Loan Guarantee Programs The entity operates the following direct loan and/or Loan
guarantee program(s)
•        Military Housing Privatization Initiative
•        Armament Retooling & Manufacturing Support Initiative

Note 9. Inventory and Related Property

  As of September 30                                              2005                      2004
 (Amounts in thousands)

    1.    Inventory, Net                                  $                0        $                0
    2.    Operating Materials & Supplies, Net                     47,169,013                51,340,248
    3.    Stockpile Materials, Net                                         0                         0
    4.    Total                                           $       47,169,013        $       51,340,248

 Operating Materials and Supplies, Net
    As of September 30                                 2005                                    2004
                                       OM&S          Revaluation                                            Valuation
                                                                         OM&S, Net           OM&S, Net
                                     Gross Value      Allowance                                              Method
 (Amounts in thousands)
 1. OM&S Categories
    A. Held for Use              $     36,317,706    $             0   $ 36,317,706     $      39,347,759   SP, LAC
    B. Held for Repair                 10,851,307                  0      10,851,307           11,992,489   SP, LAC
         C. Excess, Obsolete,
            and Unserviceable           1,100,179        -1,100,179               0                     0    NRV
         D. Total                $     48,269,192    $   -1,100,179    $ 47,169,013     $      51,340,248

    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses       NRV = Net Realizable Value
    S P = S t a n d a r d P r ic e                                                      O = Other
    AC = Actual Cost




44
                                                                        2005 Annual Financial Statement


Fluctuations

Held for Repair decreased $1,141,183 thousand, or 10 percent, due to a reduction in Aircraft Engines and
Munitions repairs and a policy change which resulted in Aircraft Electronics POD being reclassified from OM&S to
General PP&E.

Information related to OM&S

General Composition of OM&S

OM&S include weapon systems spare and repair parts, ammunition, tactical missiles, spare centrally managed air-
craft engines, and uninstalled cruise and ICBM missile motors.

Balances

In addition to the account balances shown in Table 9, the federal accounting standard requires disclosure of the
amount of OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding
any items for future use.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned

Managers determine which items are more costly to repair than to replace. Items retained for management pur-
poses which are beyond economic repair are coded “condemned.” The net value of these items is zero and they
are shown as Excess, Obsolete, and Unserviceable.

The category Held for Use includes all issuable materials and is coded within each supply or inventory system as
condition codes A-D.

The category Excess, Obsolete, and Unserviceable includes all material assigned condition codes H, P, S, or V.

The Category Held for Repair relates to impaired assets and includes all other condition codes as defined by the
Military Standard Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).

Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned

As stated above, the category Held for Use includes all issuable material, and the category Held for Repair
includes all economically reparable material. Before FY 2002, the Department of Defense (DoD) categorized
potentially redistributable material, regardless of condition, as Excess, Obsolete, and Unserviceable.

To date, the Air Force has partially implemented three systems to report “moving average cost,” the DoD-
approved methodology for reporting historical cost within any of the supply or inventory accounting systems for
OM&S. (In only one system was the beginning balance validated). Most OM&S assets are in systems not yet con-
verted to moving average cost so are still valued at standard price, with an allowance for Excess, Obsolete, and
Unserviceable. Under current DoD policy, no allowance is made for serviceable ready-to-issue items (category
Held for Use). An allowance equal to 100 percent of standard price, however, is made for the category Excess,
Obsolete, and Unserviceable. This allowance results in a net book value of zero, which is considered appropriate
because the items are coded condemned and, therefore, have no intrinsic value to the Air Force. The category
Held for Repair represents suspended, unserviceable (but reparable) items which have a value to the Air Force
but whose value is less than that of the Held for Use items and greater than that of the Excess, Obsolete and
Unserviceable items. To date, the Office of the Secretary of Defense is currently developing guidance for com-
puting an allowance for the Held for Repair category. As a result, Air Force continues to report Held for Repair
at full standard price.



                                                                                                                 45
        United States Air Force


Government-Furnished Material (GFM) and Contractor-Acquired Material (CAM)

Generally, the value of the Air Force’s GFM and CAM in the hands of contractors is not included in the OM&S
values reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to
determine the appropriate accounting treatment and the best method to collect and report required information
quarterly without duplicating information already in other logistics systems.

Operating Materials and Supplies (OM&S) Value

The OM&S data reported on the financial statements are derived from logistics systems designed for material
management purposes. Some of these systems do not maintain the historical cost data necessary to comply with
the valuation requirements of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
“Accounting for Inventory and Related Property.”

Items commonly used in and available from the commercial sector are not managed in the DoD material manage-
ment activities. Further, unlike the commercial sector, the DoD operational cycles based on national need are
irregular. In addition, the military risks associated with stock-out positions (e.g., weapon systems that are not
mission capable due to lack of supplies) are totally different from a commercial activity’s risk of losing sales.
Therefore, the Department does not attempt to account separately for items held for current or future use.

In general, the Air Force is using the consumption method of accounting for OM&S, since OM&S is defined in the
SFFAS No. 3 as material that has not yet been issued to the end user. Once issued, the material is expensed.
According to federal accounting standards, the consumption method of accounting should be used to account for
OM&S unless (1) the amount of OM&S is not significant, (2) OM&S are in the hands of the end-user for use in
normal operations, or (3) it is cost-beneficial to expense OM&S when purchased (purchase method).

Note Reference

See Note Disclosure 1.M., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing inventory and related property.

For a regulatory discussion of OM&S, see DoD Financial Management Regulation, Volume 6B, Chapter 10, para-
graph 101107.

Other Air Force Disclosures

In the past, the Air Force provided only minimal OM&S accounting data that could be used to prepare the finan-
cial statements but has made considerable strides in improving the systems to provide actual transactions for
completing the financial statements. However in some cases, the data provided still consists of only beginning
and ending balances for each of the asset accounts Held for Use; Excess, Obsolete, Unserviceable; and Held for
Repair. Without the required additional data (acquisitions, transfers in, amounts consumed, transfers out, trading
partner data, etc), the Defense Finance and Accounting Service (DFAS) could only report the net change between
prior-period ending balances and the values reported as current-period ending balances.

Although the Air Force OM&S systems, in most cases, capture some trading partner data at the transaction level, no
electronic interfaces exist between the Air Force OM&S feeder systems, the DFAS accounting systems, other DoD
services, and other federal agencies for reporting the data for all items transferred in and out. Consequently, intra-
governmental transactions (trading partner data) could not always be reconciled. The Air Force and DFAS are cur-
rently developing processes, methodologies and standard electronic interfaces that will allow intra-governmental
transactions to be reported monthly to the General Accounting and Finance System—Rehost.




46
                                                                                                     2005 Annual Financial Statement


Note 10. General Property, Plants, and Equipment (PP&E), Net

As of September 30                                                                     2005                                             2004
                                                Depreciation/                                    (Accumulated
                                                                                   Acquisition                        Net Book      Prior FY Net
                                                Amortization    Service Life                     Depreciation/
                                                                                     Value                             Value        Book Value
                                                  Method                                         Amortization)
(Amounts in thousands)

1. Major Asset Classes
  A. Land                                            N/A            N/A        $     432,911                N/A   $       432,911   $       431,608
  B. Buildings, Structures, and Facilities           S/L         20 Or 40         44,089,947     $  -25,173,005        18,916,942        18,166,918
  C. Leasehold Improvements                          S/L        lease term                 0                  0                 0                 0
  D. Software                                        S/L         2-5 Or 10           484,668           -140,107           344,561            23,782
  E. General Equipment                               S/L          5 or 10         36,023,812        -29,215,209         6,808,603         6,744,374
  F. Military Equipment                              S/L          Various        313,670,000       -221,400,000        92,270,000        89,060,000
  G. Assets Under Capital Lease                      S/L        lease term           453,481           -301,883           151,598           163,059
  H. Construction-in-Progress                        N/A            N/A            4,721,453                N/A         4,721,453         3,364,351
   I. Other                                                                                0                  0                 0               338
2. Total General PP&E                                                          $ 399,876,272     $ -276,230,204   $   123,646,068   $   117,954,430
[1]
  Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line      N/A = Not Applicable



Fluctuations

The overall increase of $320,779 thousand, or 1,349 percent for Software on line 1.D. is the result of Air Force
providing a more realistic figure for the Audited Financial Statements. The new figure was derived using the
‘best’ budget data available (i.e., FY 2003 and FY 2004) in conjunction with the DoD study “Industry Software
Cost, Quality and Productivity Benchmarks,” which indicated 60 percent of the total software effort was develop-
ment, 20 percent was preliminary design and 20 percent was post deployment. The FY 2004 and FY 2005
President’s budget identified approximately 68 systems with software development over the $100 thousand capi-
talization criteria. These systems were analyzed further to identify and categorize them into Air Force General
Fund, Air Force Working Capital Fund, and Other.

The Construction-in-Progress (CIP) on line 1.H. increased $1,357,102 thousand, or 40 percent because the
Treasury Index 97 funds were incorporated into the Air Force Construction-in-Progress total projects. The
reporting of CIP has long been a problem, not only with Air Force but with all services. TI97 funds allocated to
the Air Force and used on Air Force real property projects that benefit the AF must be reported on the Air Force
financial statements (see DoD FMR Volume 4, Chapter 6, page 6-20).

When a Construction Agent, such as United States Army Corps of Engineers (USACE) or Naval Facilities
Engineering Command (NAVFAC), constructs a building, they use funds from several different Appropriations; some
of these are TI97 funds. In the past, the USACE and NAVFAC did not provide all of the necessary data that would
identify which service should be reporting these CIP values. The DoD Component that is to receive the construct-
ed property shall report CIP amounts on their financial statements, regardless of what type of funds were used to
fund the construction. Without knowing if this was an Air Force construction project, or if the Air Force was going
to be the end user, these TI97 funds were left with the DoD agencies funding the project. DFAS and the services
have been working this issue and have now been able to identify most, if not all projects under construction, and are
now able to identify who should do the reporting. These TI97 funds have now been added to the Air Force CIP as
required. Some issues still have not been resolved. This has been discussed with OSD Policy.

The Other asset class on line 1.I. decreased by $338 thousand, or 100 percent. The Other category represents
the timing factor inherent in timber harvesting. The timber markets, driven by supply and demand, are volatile
and fluctuate. Timber sale contracts are awarded at irregular intervals, with some contracts held back until the




                                                                                                                                                      47
       United States Air Force


market improves. Similarly, when buyers pay for just the timber they cut, they may hold off when markets are
bad and cut more when markets are good. Weather conditions also influence the flow of timber and revenue.

Relevant Information for Comprehension
The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards
No. 23, “Eliminating the Category National Defense Property, Plant and Equipment,” in May 2003. This standard,
which became effective for accounting periods after September 30, 2002, establishes Generally Accepted
Accounting Principles (GAAP) for valuing and reporting military equipment (e.g., aircraft, satellites, and interconti-
nental ballistic missiles) in federal financial statements. The standard requires the capitalization and depreciation
of the cost of military equipment, including the cost of modifications and upgrades. The Department of Defense
has determined that it is not practicable at this time to accumulate sufficient information from internal records to
value military equipment in accordance with GAAP. The Department is currently working to revise its accounting
processes and systems to support the informational needs of management and compliance with GAAP. In the
interim, the Department will base the value of military equipment for financial statement presentation purposes
on data provided by the Bureau of Economic Analysis (BEA) at the Department of Commerce.

The value of the Bureau of Economic Analysis (BEA) data provided by the DoD to the Air Force for inclusion in
the financial statements for the 4th Quarter, 2005 amounted to approximately $313,670,000 thousand less accu-
mulated depreciation of $221,400,000 thousand for a net realized book value of $92,270,000 thousand.

The data provided by the BEA consists of investment and net book value data for 84 groups of equipment such as
aircraft, ships, and combat vehicles. The Department adjusts BEA data to eliminate equipment items (such as
spares, munitions, and inventory items) that are not accounted for as military equipment. Such items are
accounted for and reported as Inventory and Related Property.

Personal property in the Air Force consists of General Equipment, Automated Data Processing (ADP) hardware
and software, Medical Equipment, Special Tools and Test Equipment (ST/STE) and Military Equipment.

Other Air Force Disclosures

The 2005 hurricane season saw a record number of historic storms causing extensive damage to real property assets
at numerous Department of the Air Force installations. Hurricanes Dennis, Katrina and Rita were especially damag-
ing. Multi-disciplinary Air Force Civil Engineer teams consisting of structural and mechanical engineers, architects,
roofing specialists and construction contract specialists were quickly dispatched to the Gulf Coast region of the United
States to aid mission recovery and assist in assessing the damage caused by these storms.

Air Force engineers continue to provide support to local base civil engineer teams at damaged installations. Among
the installations recovering from significant damage are Keesler AFB, Columbus AFB, and Gulfport Combined
Readiness Training Center in Mississippi, and Tyndall AFB and Eglin AFB in Florida. The Civil Engineer Damage
Assessment Teams are dealing with three broad categories of buildings, structures, and utilities: (1) facilities that only
have cosmetic/minor damage and therefore small repair costs; (2) facilities that have major damage that it makes
more economic sense to build new rather than repair and therefore new military construction; and (3) structures that
have significant damage, but it makes more economic sense to repair them than to build new and therefore capital-
ized improvements. Once the assessments are completed and decision on course of action and execution method
are made, the values of the buildings, structures, and utilities on the financial statements will either increase due to
new construction and capital improvements or adjust downward because they were demolished by the hurricanes
and/or require demolition as part of the recovery and restoration effort.

For the 4th Quarter, FY 2005 reports, the Air Force used some FY 2002 ending data for (ST/STE) but did use actual
data for the B2 aircraft. The FY 2002 values were still being used for all other (ST/STE) because the two systems



48
                                                                          2005 Annual Financial Statement


previously used to report ST/STE have been turned off and are scheduled to be replaced by Air Force Equipment
Management System (AFEMS) in FY 2005.

The value of the Air Force’s General PP&E real property in the possession of contractors is included in the values
reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General
PP&E personal property (Major Asset Classes of Software and Equipment) does not include all of the General PP&E
above the DoD capitalization threshold in the possession of contractors. The net book amount of such property is
immaterial in relation to the total General PP&E net book value. General Accounting Office, the Inspector General,
DoD, and the Department are developing new policies and a contractor-reporting process to capture General PP&E
information for future reporting purposes in compliance with GAAP.

Note Reference

See Note Disclosure 1.O., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing PP&E.

 Assets Under Capital Lease
 As of September 30                                                      2005                       2004
 (Amounts in thousands)

 1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                                            $            453,481      $           408,540
   B. Equipment                                                                        0                      958
   C. Other                                                                            0                        0
   D. Accumulated Amortization                                                  -301,883                 -246,439
   E. Total Capital Leases                                          $            151,598      $           163,059


The Air Force is the lessee in ten capital leases. These leases are for military family housing acquired through
Section 801 Family Housing Program. The leased items are capitalized and reported as an asset when the costs
of the items exceed the capitalization threshold. Leased items not meeting the capitalization threshold are
expensed. All leases originating prior to FY 1992 are funded on a fiscal-year basis. Six of the current military
family housing leases originated before FY 1992. The Air Force has adjusted their records to account for the ter-
mination and conveyance of one lease as of October 30, 2004.

Fluctuations

The increase of $44,941 thousand, or 11 percent in Land and Building and $55,444 thousand, or 23 percent
increase in accumulated amortization is the result of a change in methodology for the use of interest rates that
applies to the individual leases. The Air Force previously used the interest rate provided with each of the ten
capital leases. This interest rate did not accurately provide the cost of money to compute fair market value. The
current interest rate used reflects the appropriate government rate that best reflects the government’s cost of
borrowing, using the historical rates from the Federal Reserve. The new change was coordinated between the
Air Force and OSD.

The $958 thousand Equipment lease reflected on the FY 2004 statements is no longer held by the Air Force.




                                                                                                                    49
        United States Air Force


     Note 11. Liabilities Not Covered by Budgetary Resources

       As of September 30                                                     2005                     2004
       (Amounts in thousands)

       1. Intra-governmental Liabilities
          A. Accounts Payable                                      $                         0    $                 0
          B. Debt                                                                            0                      0
          C. Other                                                                     491,562                682,737
          D. Total Intra-governmental Liabilities                  $                   491,562    $           682,737

       2. Non-Federal Liabilities
          A. Accounts Payable                                      $                   232,672    $           473,152
          B. Military Retirement Benefits and
             Other Employment-Related Actuarial Liabilities                           1,147,437           1,163,442
          C. Environmental Liabilities                                                6,376,345           6,876,461
          D. Loan Guarantee Liability                                                         0                   0
          E. Other Liabilities                                                        2,835,261           2,721,503
          F. Total Non-Federal Liabilities                         $                 10,591,715   $      11,234,558

       3. Total Liabilities Not Covered by Budgetary Resources     $                 11,083,277   $      11,917,295

       4. Total Liabilities Covered by Budgetary Resources         $                 10,462,797   $      12,569,893

       5. Total Liabilities                                        $                 21,546,074   $      24,487,188



     Fluctuations and Abnormalities
     The fluctuation in Accounts Payable is due to a concerted effort in FY 2005 to clean up accounts payable in can-
     celled appropriations; items in the General Accounting and Finance System—Rehost (GAFS-R) system were cleared
     that were found not to be supported in the General Accounting and Finance System—Base Level (GAFS-BL) system.

     Information Related to Liabilities Not Covered by Budgetary Resources

     Other Liability Disclosures

     Other Intra-governmental Liabilities Not Covered by Budgetary Resources consists of $291,104 thousand in
     Federal Employees’ Compensation Act (FECA) reimbursement to the Department of Labor, $32,812 thousand in
     unemployment compensation, and $167,646 thousand in custodial liabilities.

     Other Nonfederal Liabilities Not Covered by Budgetary Resources consists of $222,570 thousand in capital lease
     liabilities, $260,566 thousand in contingent liabilities, $2,351,814 thousand in accrued annual leave liabilities for
     military and civilians, and $311 thousand in accrued interest liability.

     Note Reference

     For Additional Line Item discussion, see:
     •      Note 12, Accounts Payable
     •      Note 13, Debt
     •      Note 14, Environmental Liabilities and Disposal Liabilities
     •      Note 15, Other Liabilities
     •      Note 16, Commitments and Contingencies
     •      Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities




50
                                                                                2005 Annual Financial Statement


Note 12. Accounts Payable

 As of September 30                                                    2005                                  2004

                                                Accounts      Interest, Penalties, and
                                                                                             Total           Total
                                                 Payable        Administrative Fees

 (Amounts in thousands)
 1. Intra-governmental Payables             $     1,651,904   $                   N/A    $   1,651,904   $   1,900,411
 2. Non-Federal Payables (to the Public)          5,851,184                          0       5,851,184       7,707,163


 3. Total                                   $     7,503,088   $                      0   $   7,503,088   $   9,607,574



The Intra-governmental Payables category consists of amounts owed to other federal agencies for goods or serv-
ices ordered and received but not yet paid for. Interest, penalties, and administrative fees are not applicable to
intra-governmental payables. As a result of guidance from Treasury, Judgment Fund Liabilities resulting from the
Contract Dispute Act (CDA) and the Notification and Federal Employee Antidiscrimination and Retaliatory Act
(NoFEAR) of 2002 are now included in Intra-governmental Payables. The Non-Federal Payables (to the Public)
category consists of payments to non-federal governmental entities.

Fluctuations

Accounts Payable—Public decreased by $1,855,979 thousand, or 24 percent. This net decrease can be attributed
to a $1,820,450 thousand increase in Aircraft Procurement - Air Force Materiel Command resulting from produc-
tion increases for the F/A22, C-130J, Predator and final delivery of the Joint STARS aircraft; a $2,738,699 thou-
sand decrease in classified Other Procurement—Air Force Special Programs; an increase of $41,434 thousand in
classified Missile Procurement—Air Force Special Programs, and a decrease of $859,763 thousand attributable to
an supplemental Elimination Adjusting Entry made in September 2004 whereas additional seller data was received
after the initial Adjusting Entries were made which then made it necessary to effect an additional Elimination
Adjusting Entry to bring into agreement the reported Air Force accounts payable with the accounts receivable
reported by the sellers. There was also a decrease of $389,424 thousand in the Military Personnel—Air Force
program entity due to a posting logic change that was implemented. Accrued Funded Payroll, Employer
Contributions, and Other Post Employment Benefits are now cited (when applicable) instead of Accounts
Payable. The remaining $270,023 thousand increase is shared by a number of other program entities.

Accounts Payable—Intra-governmental decreased by $248,506 thousand or 13 percent. The variance can be
attributed to a $93,331 thousand decrease in liabilities to the Department of the Treasury; a $97,187 thousand
decrease to the Army General Fund, and a decrease of $67,065 to the Department of Labor. The fluctuation
associated with Intra-governmental accounts payable is impacted by the elimination process that requires the
accrual of accounts payable to agree with Air Force trading partner seller data. Also, the recording of accounts
payable based on actual seller side data provided by the agency or using an estimation technique for those agen-
cies that did not provide actuals contributes to the fluctuation as well. The estimation technique was implement-
ed in the 4th Quarter FY 2004 and continues to be refined.

Judgment Fund liabilities for the 4th Quarter FY 2005 total $14,530 thousand as of September 30, 2005. This is a
result of contractor claims under the Contract Disputes Act in the amount of $13,192 thousand for Air Force con-
tracts that have been adjudicated in favor of the contractor by a court or a board. Initially, Treasury pays the mone-
tary awards to the contractor. The Air Force must subsequently reimburse the Treasury’s Judgment Fund for the
amount that was paid to the contractors. Also included is approximately $1,338 thousand owed for Judgment Fund
liabilities that resulted because of the Notification of reimbursements to Treasury’s Judgment Fund, and because of



                                                                                                                         51
       United States Air Force


judgments amounts resulting from the Federal Employee Antidiscrimination and Retaliatory Act of 2002. These
amounts can change daily and can fluctuate substantially due to new billings by the Treasury, and to payments made
to the Treasury by DFAS and the U.S. Army Corps of Engineers on behalf of the Air Force.

Intra-governmental Eliminations

For the majority of intra-agency sales, the Air Force’s feeder systems and the DFAS accounting systems do not
capture trading partner data at the transaction level in a manner that facilitates trading partner aggregations.
Therefore, the Air Force was unable to reconcile intra-governmental accounts payable to the related intra-gov-
ernmental accounts receivable. The volume of intra-governmental transactions is so large that after-the-fact rec-
onciliation cannot be accomplished with current or foreseeable resources. The DoD summary-level seller
accounts receivables were compared to the Air Force accounts payable. An adjustment was posted to the Air
Force accounts payable based on the comparison with the accounts receivable of the DoD components providing
goods or services to the Air Force. The DoD and Air Force intend to develop long-term systems improvements
that will include sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations.

Comparison prior to eliminations:

                                                Sep 2005           Sep 2004        $ Change

Intra-governmental accounts payable             $ 811,280           $ 427,882       $ 383,398
Accruals to match seller data                   1,615,885           2,034,148        -418,263
                                               2,427,165            2,462,030        -34,865
Less: Intra-Air Force eliminations               775,261              561,620        213,641
Total                                        $ 1,651,904          $ 1,900,410      $ 248,506
(All data in thousands)

Allocation of Undistributed Disbursements

It is DoD policy to allocate supported undistributed disbursements between federal and nonfederal categories
based on the percentage of federal and non-federal accounts payable. Unsupported undistributed disbursements
should be recorded in the United States Standard General Ledger account 2120, Disbursements in Transit. The
Air Force followed this allocation policy.

Note Reference

See Note Disclosure 1.G., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing accounting for Intra-governmental activities.

Note 13. Debt
Not applicable

Note Reference

See Note Disclosure 1. G., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing accounting for Intra-governmental Activities, Public Debt.




52
                                                                                         2005 Annual Financial Statement


Note 14. Environmental Liabilities and Disposal Liabilities

 As of September 30                                                                  2 0 05                             2004
                                                                         Current              Noncurrent
                                                                         Liability             Liability        Total           Total
 (Amounts in thousands)
 1. Environmental Liabilities – Non Federal
    A. Accrued Environmental Restoration (DERP funded) Costs:
       1. Active Installations--Environmental Restoration (ER)       $     387,680      $       3,618,947   $   4,006,627   $   4,225,215
       2. Active Installations--ER for Closed Ranges                        15,000              1,329,856       1,344,856       1,344,856
       3. Formerly Used Defense Sites (FUDS) -- ER                               0                      0               0               0
       4. FUDS--ER for Transferred Ranges                                        0                      0               0               0
    B. Other Accrued Environmental Costs (Non-DERP funds)
       1. Active Installations--Environmental Corrective Action                   0               138,378        138,378         182,385
       2. Active Installations--Environmental Closure Requirements            2,354                49,301         51,655         112,283
       3. Active Installations--Environ. Response at Active Ranges                0                     0              0               0
       4. Other                                                                   0                     0              0               0
    C. Base Realignment and Closure (BRAC)
       1. BRAC Installations--Environmental Restoration (ER)                60,688              1,140,756       1,201,444       1,379,647
       2. BRAC Installations--ER for Transferring Ranges                         0                      0               0               0
       3. BRAC Installations--Environmental Corrective Action                7,697                144,679         152,376         142,801
       4. Other                                                             11,660                219,182         230,842               0
    D. Environmental Disposal for Weapons Systems Programs
       1. Nuclear Powered Aircraft Carriers                                      0                      0               0               0
       2. Nuclear Powered Submarines                                             0                      0               0               0
       3. Other Nuclear Powered Ships                                            0                      0               0               0
       4. Other National Defense Weapons Systems                                 0                      0               0               0
       5. Chemical Weapons Disposal Program                                      0                      0               0               0
       6. Other                                                                  0                      0               0               0
 2. Total Environmental Liabilities:                                 $     485,079      $       6,641,099   $   7,126,178   $   7,387,187


Fluctuations

Other Accrued Environmental Costs (Non-DERP funds) Active Installations - Environmental Corrective Action
decreased $44,007 thousand, or 24 percent. RCRA corrective actions are defined by the Environmental
Protection Agency as Solid Waste Management Units (SWMU). SWMUs are not determined in a scientific man-
ner and may arise from any indication of potential pollution. Therefore, there are a high number of SWMUs.
Limited initial investigation generally leads to the conclusion that there is no significant pollution at the SWMU.
The amount of the liability fluctuates greatly from year-to-year as further investigation results in significant
changes in cost estimates. These changes result from the additional information gained in each step of the
cleanup process and the relatively few sites that actually require significant cleanup costs.

Other Accrued Environmental Costs (Non-DERP funds) Active Installations—Environmental Closure
Requirements decreased $60,628 thousand, or 54 percent, due primarily to the fact that the Air Force no longer
recognizes the costs of closure for Underground Storage Tanks (USTs) and Treatment, Storage, and Disposal
Facilities (TSDFs) as environmental liabilities. The Air Force does not plan to abandon these facilities and there-
fore has no liability to be recognized in the financial statements. RCRA states that the cleanup of a UST facility
takes place only when the tank is abandoned for 12 consecutive months. The only closure liability that meets the
accounting requirements for recognition is that of landfills. As of September 30, 2005, the liability for landfill clo-
sure was estimated at $51,655 thousand based on the percentage of the landfill used as of September 30, 2005
with a total liability for landfill closures of $203,800 thousand. The change in the landfill liability represents
increased improvement in direct cost estimates to close and monitor landfills, as well as improved information
concerning the use of the landfills. The size of a landfill is not limited over time and opening a greater capacity
each period may expand the landfill. Therefore, a landfill that was 50 percent full last year may only be 40 percent
full this year. The Air Force plans to develop a methodology to reduce the variability in the capacity used to
amortize the landfill liability.




                                                                                                                                            53
       United States Air Force


Base Realignment and Closure (BRAC) Installations—Environmental Restoration decreased $178,203 thousand, or
13 percent. The decrease is due to cleanup work performed, expensed, and paid during the reporting period as
well as revaluations attributed primarily to the adjustment of Chanute Air Force Base’s Last Remedial Action In
Place (LRIP) date from FY 2007 to FY 2009. This adjustment was the result of the Air Force Real Property
Agency’s (AFRPA’s) bottoms-up review and subsequent budget scrubs. In FY 2004, with LRIP projected for FY
2007, Chanute based its environmental assumptions on fast-track cleanup efforts and programmed massive dig
and haul efforts and Engineering Evaluation Cost Analysis (EECA) to meet the September 30, 2007 LRIP date.
With the FY 2009 LRIP, many fast track requirements were eliminated or scopes significantly reduced, which
affected Cost-To-Complete (CTC) projections. In addition to the LRIP date change, Chanute’s current
Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA) status—the Remedial
Investigation phase—has produced more accurate data during FY 2005 which in turn has allowed the BRAC
Environmental Coordinator to make better assumptions to more clearly define the environmental requirements
for Chanute. The data supports significantly less remedial action than was previously assumed by operating loca-
tion. Many of the environmental sites can be recommended in Record of Decision documents for Long-Term
Monitoring with Land Use Control/Institutional Controls cost rather than dig and haul and/or active systems,
which have greatly reduced out-year costs.

Base Realignment and Closure (BRAC)—Other increased $230,842 thousand, or 100 percent. The increase is
due to improved identification of costs resulting in the addition of this line item. The increase includes cost for
manpower services at BRAC installations and headquarters offices for services performed by Global Engineering
Integration and Technical Assistance (GEITA) for $57,711 thousand, or 25 percent of the total. This contractual
support provides program level support for management oversight services at various BRAC installations. This
supports the strategy development and execution for environmental and property transfer programs. This sup-
port allows the installations to remain on track working towards the Defense Planning Goals which includes:
property transfer, Remedial Actions In Place (RIP), Last RIP (LRIP), Operating Properly and Successfully (OPS),
Response Complete (RC) and ultimately, Site Closure (SC). Also, the Air Force Center for Environmental
Excellence (AFCEE) comprised $115,421 thousand, or 50 percent, of the total cost. AFCEE provides technical,
management, contract and administrative manpower assistance to manage and execute BRAC projects and other
closure related matters for closure bases. The Program Managers are the heart of program execution and single
point of contact for all activities cradle-to-grave. Programs Managers frequently require technical consultation
from staff members who are experts in toxicology, risk assessment, engineering, chemistry, and hydrogeology.
Contracting personnel provide the necessary contracting expertise to conduct acquisition planning, develop con-
tracting strategies, execute contract awards, and administer those contracts. Administrative personnel are
required to adequately leverage the myriad of technical and project management correspondence, reports, visi-
tors, and callers to relieve staff from clerical duties.

In addition, various mandated direct costs comprise $57,710 thousand, or 25 percent, of the total. These costs
include the cost for Technical Assistance for Public Participation (TAPP) grants which allow community members
to obtain objective, independent scientific and engineering support concerning the restoration process through
the issuance of government purchase orders to small businesses. Also, included are costs for the Agency for
Toxic Substances and Disease Registry (ATSDR), which is mandated under CERCLA Section 104(i) to evaluate all
federal facilities on or proposed to the Environmental Protection Agency’s (EPA’s) National Priorities List (NPL)
for public health concerns. In addition, under the EPA’s Fast Track Cleanup, an agreement was made between
service components and DoD to provide funds to the Deputy Under Secretary of Defense (Installation and
Environment) in support of the BRAC Fast Track Program. They provide assistance in setting up BRAC
Environmental Coordinator/BRAC Cleanup Teams (BEC/BCT) workshops to develop BRAC environmental poli-
cies and issue Defense Planning Guidance and Goals. Also, direct costs are included for the Defense/State




54
                                                                            2005 Annual Financial Statement


Memorandum of Agreement (DSMOA) program which was established by DoD to enhance state and territorial
involvement in the cleanup of active and closing DoD installations and at Formerly Used Defense Sites (FUDS).
This program provides funds to federal organizations and state regulatory programs that mandate funding in
order to support AFRPA.

General Disclosures

Accrued Environmental Restoration Costs (DERP-funded) Active Installations - Environmental
Restoration and Other Accrued Environmental Costs (Non-DERP funds) Active Installations -
Environmental Corrective Action:

Environmental cleanup liabilities are incurred in connection with the Comprehensive Environmental Response,
Compensation, and Liability Act (CERCLA) and the Resource Conservation and Recovery Act (RCRA). Cost esti-
mates are performed using the Remedial Action Cost Engineering and Requirements System (RACER) unless
there is a historic comparable project, a specific bid, or an independent government cost estimate for the project.
The liability amount is composed of the sum of several stages of activity and not necessarily contained in a single
estimate or contract.

The change in environmental cleanup liability during a reporting period is comprised of revaluations of the cost-
to-complete cleanup of engineering sites that existed at the beginning of the period plus the cost-to-complete
cleanup for new engineering sites introduced during the reporting period, less amounts expensed in the program
during the reporting period. The beginning environmental cleanup liability plus the cost-to-complete new engi-
neering sites added during the period plus or minus changes in cost-to-complete estimates (revaluations) during
the period is equal to the ending environmental cleanup liability for the period. Because the DERP is accounted
for as a totally self-contained program, all direct and indirect costs of the program are captured and reported.

Non-DERP, non-BRAC environmental cleanup liabilities represent corrective actions generally required under
RCRA law. These environmental cleanup liabilities are estimated in the same manner as DERP environmental
cleanup liabilities. The change in non-DERP, non-BRAC environmental cleanup liabilities during a reporting period
is comprised of revaluations of the cost-to-complete for engineering sites that existed at the beginning of the peri-
od plus the cost-to-complete for new engineering sites added during the reporting period less amounts expensed
during the period. Because the non-DERP, non-BRAC environmental cleanup activity is part of general funding
achieved using Air Force Operation and Maintenance appropriated funds, there is no special accounting for the
costs of the cleanup program per se. Therefore, the costs captured for the non-DERP, non-BRAC environmental
cleanup reflect only direct costs. Because this program was not tracked and appropriated specifically, there was
no accounting specific to this program. Expense codes for this program were established in 1999 and implement-
ed in FY 2000. Therefore, the expense portion of the estimate has no significant history. Because of the lack of
expense history for the program, there is no reliable data for estimating the current portion of the non-DERP,
non-BRAC environmental cleanup liability. It is believed that the current portion of the environmental cleanup lia-
bility in this area is relatively small and not material in the classification of liabilities. Because the non-DERP, non-
BRAC environmental cleanup liabilities are only estimated between 1 July and 1 September of each year, there is
no significant change other than at fiscal yearend for non-DERP, non-BRAC environmental liabilities. On less than
an annual basis the only change to the liability estimate in this area is the amount recorded as expensed during the
reporting period.

Included in the DERP Environmental Restoration Liability for September 30, 2005 are 32 engineering sites that
represent building demolition and debris removal totaling $50,000 thousand. These costs represent joint costs
that entail environmental and non-environmental aspects that cannot be separated for reporting purposes.




                                                                                                                      55
        United States Air Force


The DERP environmental liability represents an addition of $132,200 thousand due to new engineering sites
added during the year, $374,600 thousand in expenses during the year, and $118,600 thousand in revaluations of
engineering sites that existed at the end of fiscal year 2004. Revaluations result as better information is obtained
and cost estimates are revised accordingly.

All environmental liabilities for DERP restoration represent estimates of cleanups covering all time and actual
results may vary significantly from such estimates. The current liability represents a deflated level of expected
activity during fiscal year 2006 and should be accurate although not precise because of variations in the timing of
expense recognition and official estimates for the year’s activity.

Accrued Environmental Restoration Costs (DERP funded) Active Installations - Environmental
Restorations for Closed Ranges:

The environmental cleanup of military ranges is governed by the Military Munitions Rule in 40 CFR 266.201.
Environmental cleanup liabilities on ranges refer only to munitions related activities. Other actions are captured
under the DERP, BRAC, and non-DERP, non-BRAC environmental cleanup categories. Additionally, environmental
cleanup liabilities are reported only for closed ranges.

Environmental cleanup areas within a closed range are referred to as Munitions Response Areas (MRAs). As stud-
ies are done to find munitions-related contamination on closed ranges, the number of sites is expected to rise. As
investigations progress, the number of sites will increase to reflect specific areas of pollution. The Air Force
expects the number of sites reported to increase as pollution is discovered and sites are defined in areas less than
the total boundary of the closed range. For example, one closed range of 100 acres may become three sites: one
of five acres with pollution A, one of 15 acres with pollution B, and the remaining 80 acres with no pollution
found. Thus, one closed range can become three sites, each with its own cost-to-complete cleanup estimate.

The sum of the sites’ costs-to-complete cleanup becomes the environmental cleanup liability for closed ranges.
The environmental cleanup for closed ranges is in its infancy, and the total liability is expected to increase signifi-
cantly over the coming years as investigations progress. Current policy is to investigate all closed ranges by the
end of 2007.

Although there are no stated standards for the environmental cleanup of closed ranges, the Air Force has imple-
mented studies to determine the extent of pollution from munitions. It is expected that there will be significant
changes in range cleanup standards that eventually will be applied on a case-by-case basis for munitions-response
requirements.

As investigations progress, it is expected the environmental cleanup liability for closed ranges will increase materially.
The liability for environmental cleanup will reflect direct costs. Also, the lack of expense history for range environ-
mental cleanup makes it impossible to estimate current liabilities reliably for some time. The current liability reflects
the amount contained in the President’s Budget that shows the expected activity for the next fiscal year.

Other Accrued Environmental Costs (Non-DERP funds) Active Installations - Environmental Closure
Requirements:

Environmental closure liabilities are incurred under RCRA with the cost-to-complete closure reported for RCRA
facilities. Cost estimates are prepared under assumptions defined in the RCRA law and estimated using RACER in
the absence of a specific contract cost or bid. The specific facilities reported are RCRA permitted landfills.

Disposal liabilities are presented as an accrued amount for the life of the landfill, and the total liability is presented
in the year-end narrative. The accounting standard requires full cost be recognized for closure liability. Closure
liabilities recognized by the Air Force cover only direct costs. No cost accounting exists to determine indirect




56
                                                                            2005 Annual Financial Statement


closure costs. Costs incurred in periods greater than 30 years into the future are considered immaterial. The
present value of such costs would be negligible in recognition of closure liabilities if such recognition were not on
a current cost basis.

There are no material changes in environmental closure liabilities on less than an annual basis because revaluation
and addition of new engineering sites occurs in the last quarter of the year in preparation for the budget process.
Because environmental closure liabilities are estimated in the last quarter of the year, new closure facilities are
recognized in the last quarter of the year and no accounting process to capture environmental closure expenses,
there is no material change in environmental closure liabilities on less than an annual basis. The total amortized
annual portion of the liability estimate is recognized in the fiscal yearend liability; therefore, there is no change in
the amortized liability amount on a quarterly basis. There is no value to the amortization of the estimated liability
more frequently than annually because there is no cash impact for such recognition and there is no funding
requirement in connection with the liability amortization. Because the function does not generate any revenues it
is not essential to match costs against revenues to establish net income.

The environmental closure liability for landfills is based on the proportion of the landfill used as of the reporting
date. This estimate includes the cost of capping the fill, as well as 30 years of monitoring required by federal
regulations.

Reporting of landfill closure liability is not in conformance with the accounting standard. The standard would rec-
ognize all future costs regardless of timing. The Air Force recognizes only the initial closure. A landfill cap typi-
cally requires replacement every 30 to 40 years. An estimation of current costs based on all future costs, regard-
less of timing, would result in an infinite liability. This result would be meaningless and not the intent of the stan-
dard. Therefore, the Air Force reports only the cost of the initial cap required to close a landfill. The Air Force
believes this reporting is more meaningful. The present value of the future caps (those after the initial cap) would
be negligible.

Base Realignment and Closure (BRAC) Installations - Environmental Restoration, Environmental
Corrective Action, and Other:

The Air Force Real Property Agency (AFRPA) estimates a $1,584,662 thousand total environmental liability as of
September 30, 2005. This amount includes all cleanup requirements to meet applicable laws and regulatory
requirements and to transfer property. However, this amount does not include Land Use Control/Institutional
Control costs beyond system operations associated with property transfer. Cost estimates are assigned to cur-
rent operating periods using RACER.

Reporting of Estimates

The Air Force attempts to prepare financial statements in accordance with Federal Generally Accepted
Accounting Principles. These accounting principles require certain estimates, judgments, and assumptions that we
believe are reasonable based upon information available to us at the time of the estimates. These estimates, judg-
ments, and assumptions may affect the reported amounts of environmental liabilities as of the date of the financial
statements.

Our financial statements would be affected to the extent there are material differences between these estimates
and actual results. There are areas in which management judgment in selecting any available alternative could
produce a materially different result. Because the estimated costs are derived from the summation of cost esti-
mates at individual engineering sites the overall liability recognized cannot be attributed to specific causes, such as
technology changes or changes in legal requirements during the period.




                                                                                                                      57
        United States Air Force


Engineering sites represent cost centers established for the purposes of management of the cleanup activities
directly related to the process. The basis for accounting is the accounting site that is the installation. The installa-
tion represents the lowest level for which expenses may be determined. However, expenses also are summed
across the Air Force in the determination of the changes in the liability estimates. Because of this rollup activity in
the determination of a financial statement for the entire entity, changes cannot be attributed to specific reasons at
the Air force level. Such attribution would be meaningless and misleading and is not attempted by the Air Force.

Note Reference

For regulatory discussion on environmental liabilities, see DoD FMR, Volume 6B, Chapter 10, Paragraph 1016 and
Volume 4, Chapters 13 and 14.

Note 15. Other Liabilities

     As of September 30                                                       2005                             2004
                                                                            Noncurrent
                                                        Current Liability                     Total            Total
                                                                             Liability
(Amounts in thousands)

1. Intra-governmental
    A. Advances from Others                               $      573,687    $         0   $      573,687   $      664,325
    B. Deposit Funds and Suspense Account Liabilities            167,899              0          167,899           23,508
    C. Disbursing Officer Cash                                   304,148              0          304,148          311,323
    D. Judgment Fund Liabilities                                       0              0                0          101,779
    E. FECA Reimbursement to the Department of Labor             129,229        161,875          291,104          304,421
    F. Other Liabilities                                         252,150            879          253,029          321,124
    G. Total Intra-governmental Other Liabilities         $    1,427,113    $   162,754   $    1,589,867   $    1,726,480
2. Non-Federal
    A. Accrued Funded Payroll and Benefits                $      877,966    $         0   $     877,966    $    1,589,124
    B. Advances from Others                                       67,773              0          67,773            71,763
    C. Deferred Credits                                                0              0               0                 0
    D. Deposit Funds and Suspense Accounts                       171,514              0         171,514            30,199
    E. Temporary Early Retirement Authority                          414            263             677             1,503
    F. Nonenvironmental Disposal Liabilities
       (1) Military Equipment (Nonnuclear)                             0              0                0                0
       (2) Excess/Obsolete Structures                                  0              0                0           91,980
       (3) Conventional Munitions Disposal                             0              0                0                0
       (4) Other                                                       0              0                0                0
    G. Accrued Unfunded Annual Leave                           2,351,814              0        2,351,814        2,272,599
    H. Capital Lease Liability                                   165,960         99,583          265,543          235,637
     I. Other Liabilities                                        183,650        260,567          444,217          309,700
    J. Total Non-Federal Other Liabilities                $    3,819,091    $   360,413   $    4,179,504   $    4,602,505
3. Total Other Liabilities                                $    5,246,204    $   523,167   $    5,769,371   $    6,328,985



Intra-government Fluctuations

The $90,637 thousand decrease in Advances from Others on Line 1.A. is due to the timing of the receipt and
execution of orders mainly in the Research, Development, Test and Evaluation (RDT&E) classified program, caus-
ing variations.

Balances in Intra-governmental Deposit Funds and Suspense Account Liabilities (Line 1.B, above) increased in FY
2005 by $144,391 thousand or 23 percent. This increase was driven by a change in Treasury guidelines (Treasury
Bulletin No. 2005-06: “Yearend Closing”). In FY 2004, Treasury required that certain suspense account balances




58
                                                                          2005 Annual Financial Statement


have a zero balance at the end of the fiscal year. Treasury now allows agencies to carry forward a balance into
the upcoming fiscal year in all suspense accounts.

The decrease in Judgment Fund Liabilities is a result of guidance received from Treasury requiring information to
be included in Accounts Payable, Footnote 12.

The decrease in Other Liabilities is primarily due to a management initiative in identifying invalid accounts receiv-
able and subsequently taking the appropriate corrective action. The offset for closed year receivables is Custodial
Liabilities, which are part of Other Liabilities

Other Liabilities

The amount of $258,436 thousand represents $54,997 thousand in government contributions for employee bene-
fits, $32,812 thousand in unfunded unemployment compensation liabilities, $879 thousand in funded unemploy-
ment compensation liabilities, $168,141 thousand in custodial liabilities, and $1,607 thousand in DoD education
benefit liabilities.

Non-Federal Fluctuations

The decrease in Accrued Funded Payroll and Benefits is due to the military payroll. During FY 2004, the military
pay date occurred in October, whereas during FY 05, the pay date occurred in September.

Nonfederal Deposit Funds and Suspense Accounts (Line 2.D. above) increased in FY 2005 by $141,359 thousand
or 82 percent. See the explanation for Intra-governmental Deposit Fund and Suspense Account Liabilities (Line
1.B.), above.

The Temporary Early Retirement Authority (TERA) liabilities decrease of $826 thousand or 55 percent is due to
the expiration of the authority in FY 2001. The liability will continue to decrease as expenditures are made
because the program was terminated resulting in no new liabilities.

Nonenvironmental Disposal Liabilities – Excess/Obsolete Structures decreased $91,980 thousand or 100 percent
due to the completion of Defense Reform Initiative Directive (DRID) 36. The liability was originally established to
meet reporting requirements for DRID 36 which provided facility demolition goals for the Air Force beginning in
FY 1998. DRID 36 directed that increased funding be used to eliminate these structures by FY 2003. Currently,
there are no established facility demolition goals for the Air Force.

Other Liabilities increases by a total of $134,517 thousand or 44 percent. The major contributor of this is attrib-
uted to the win/loss settlement of case(s) and the associated dollar value reported as Contingent Liabilities. In
addition, there was a posting logic change implemented in the Military Personnel program for Air Force active,
reserve and guard. Accrued Funded Payroll, Employer Contribution, and Other Post Employment benefits are
now reported (when applicable) and cross walked to Other Liabilities.

Other Liabilities

The amount of $440,650 thousand represents legal contingencies of $261,913 thousand and accrued interest lia-
bility of $311 thousand and employee benefits in the amount of $178,426 thousand.

The recorded estimated probable liability amount of $12,203 thousand has been included in the accompanying
financial statements for open contractor claims greater than $100,000 and neither under appeal nor in litigation.
In addition to the contractor claims under appeal and the open contractor claims for an amount greater than
$100,000, the Air Force was party to numerous other contractor claims in amounts less than $100,000 per claim.
These claims are a routine part of the contracting business and are typically resolved through mutual agreement



                                                                                                                  59
        United States Air Force


between the contracting officer and the contractor. Because of the routine nature of these claims, no require-
ment exists for a consolidated tracking mechanism to record the amount of each claim, the number of open
claims, or the probability of the claim being settled in favor of the claimant. The potential liability arising from
these claims in aggregate would not materially affect the operations or financial condition of the Air Force. A rea-
sonably possible liability is estimated at $8,386 thousand and is not included in the reported amount.

The total estimated probable liability for claims and litigation against the Air Force handled by the Civil Law
and Litigation Directorate, as of Sept 30, 2005, was valued at $218,171 thousand and has been included in the
accompanying financial statements. As of Sept 30, 2005, the Air Force was party to 21,733 claims and litigation
actions. This liability dollar amount recorded in the financial statements is an estimate based on the weighted
average payout rate for the previous three years. A reasonably possible liability is estimated at $101,756 thou-
sand and is not included in the reported amount. Neither past payments nor the current contingent liability
estimate provides a basis for accurately projecting the results of any individual lawsuit or claim. It is uncertain
that claims will ever accrue to the Air Force. In addition, many claims and lawsuits, even if successful, will not
be paid out of Air Force Funds.

As of Sept 30, 2005, the Air Force was party to 78 contract appeals before the Armed Services Board of
Contract Appeals (ASBCA). The probable amount of loss from contractor claims of 30,191 thousand has been
included in the financial statements. The contractor claims involve unique circumstances, which are considered
by the ASBCA in formulating decisions on the cases. Such claims are funded primarily from Air Force appro-
priations. A reasonably possible liability is estimated at $308,076 thousand and is not included in the reported
amount.

Other Disclosures

Intra-governmental Reconciliation for Fiduciary Transactions with the Department of Labor (DoL) and
the Office of Personnel Management (OPM):

With respect to the major fiduciary balances with the DoL and the OPM, the Air Force was able to reconcile with
the OPM and the DoL. During these reconciliations, immaterial differences were identified.

Capital Lease Liability
As of September 30                                                     2005                                    2004
                                                                   Asset Category
                                               Land and
                                               Buildings      Equipment        Other           Total           Total
(Amounts in thousands)
1. Future Payments Due
  A. 2006                                      $     42,973    $       0   $           0   $      42,973   $      45,433
  B. 2007                                            39,878            0               0          39,878          45,152
  C. 2008                                            38,594            0               0          38,594          42,056
  D. 2009                                            38,478            0               0          38,478          38,978
  E. 2010                                            38,478            0               0          38,478          38,502
  F. After 5 Years                                  128,881            0               0         128,881         115,278
  G. Total Future Lease Payments Due           $    327,282    $       0   $           0   $     327,282   $     325,399
  H. Less: Imputed Interest Executory Costs          61,738            0               0          61,738          89,761
   I. Net Capital Lease Liability              $    265,544    $       0   $           0   $     265,544   $     235,638

2. Capital Lease Liabilities Covered by Budgetary Resources                                $      42,973   $     188,413
3. Capital Lease Liabilities Not Covered by Budgetary Resources                            $     222,570   $      47,224




The Air Force is the lessee in ten capital leases. These leases are for military family housing acquired through the
Section 801 Family Housing Program. All leases originating prior to FY 1992 are funded on a fiscal year basis.



60
                                                                           2005 Annual Financial Statement


Six of the current military family housing leases were awarded before FY 1992. In addition, the Air Force has
adjusted their records to account for the termination and conveyance of one lease as of October 30, 2004.

Fluctuations

The decrease in Capital Lease Liability in the amount of $29,907 thousand is the result of a change in methodolo-
gy for the use of interest rates that applies to the individual leases. The Air Force previously used the interest
rate provided with each of the eleven capital leases. This interest rate did not accurately provide the cost of
money to compute fair market value. The current interest rate used reflects the appropriate government rate
that best reflects the governments cost of borrowing, using the historical rates from the Federal Reserve. The
new change was coordinated between the Air Force and OSD.

For FY 2004, the amount in Line 2 and Line 3 are reversed. However, the fluctuation in Capital Lease Liability cov-
ered by budgetary and not covered by budgetary resources is due to a more accurate reporting of Capital Leases.

Note 16. Commitments and Contingencies

Relevant Information for Comprehension

The Commitments and Contingencies consist of the following reasonably possible liabilities:

Contractual Actions:
        Contractor Claims                                                          $ 8,386 Thousand
        Appeals before Armed Services Board of Contract Appeals                   308,076 Thousand
        (ASBCA)                                                                 $ 316,462 Thousand
Claims and Litigation from Civil Law                                            $ 101,756 Thousand
                                                         Total                  $ 418,218 Thousand

Note Reference

See Note Disclosure 1.S., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and Department of Defense policies governing Contingencies and Other Liabilities.




                                                                                                                       61
        United States Air Force


Note 17. Military Retirement Benefits and Other Employment Related Actuarial
Liabilities
 As of September 30                                                          2005                                          2004
                                                    Actuarial
                                                                  Assume      (Less: Assets       Unfunded             Unfunded
                                                 Present Value
                                                                  Interest     Available to       Actuarial            Actuarial
                                                  of Projected
                                                                  Rate (%)    Pay Benefits)        Liability            Liability
                                                 Plan Benefits
 (Amounts in thousands)

 1. Pension and Health Benefits
    A. Military Retirement Pensions             $             0               $          0    $                0       $            0
    B. Military Retirement Health Benefits                    0                          0                     0                    0
    C. Medicare-Eligible Retiree Benefits                     0                          0                     0                    0
    D. Total Pension and Health Benefits        $             0               $          0    $                0       $            0

 2. Other
    A. FECA                                     $     1,147,437               $          0    $     1,147,437          $   1,163,442
    B. Voluntary Separation Incentive
       Programs                                               0                          0                  0                      0
    C. DoD Education Benefits Fund                            0                          0                  0                      0
    D. [Enter Program Name}                                   0                          0                  0                      0
    E. Total Other                              $     1,147,437               $          0    $     1,147,437          $   1,163,442

 3. Total Military Retirement Benefits and
    Other Employment Related Actuarial
    Liabilities:                                $     1,147,437               $          0    $     1,147,437      $       1,163,442

Actuarial Cost Method Used:
Assumptions:
Market Value of Investments in Market-based and Marketable Securities:



Military Retirement Pensions—Assumptions:
The portion of the military retirement benefits actuarial liability applicable to the Department of the Air Force is
reported on the financial statements of the Military Retirement Fund.

Military Retirement Health Benefits—Assumptions:
Health benefits are funded centrally at the Department of Defense (DoD) level. As such, the portion of the
health benefits actuarial liability that is applicable to the Air Force is reported only on the DoD Agency-wide
financial statements.

Federal Employees’ Compensation Act (FECA)—Assumptions and Actuarial Cost Method Used:
The Air Force’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor
and provided to the Air Force at the end of each fiscal year. The liability includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but
not reported claims. The liability is determined using a method that utilizes historical benefit payment patterns to
predict the ultimate payments. The projected annual benefit payments are then discounted to the present value
using the Office of Management and Budget’s (OMB’s) economic assumptions for 10-year U.S. Treasury notes and
bonds.

Interest rate assumptions utilized for discounting were as follows:

                                                             2005
                                                       4.528% in Year 1
                                               5.020% in Year 2 and thereafter



62
                                                                           2005 Annual Financial Statement


To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors
for the charge back year (CBY) 2005 were also used to adjust the methodology’s historical payments to current
year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                  CBY                COLA              CPIM
                                  2005               2.20%            4.33%
                                  2006               3.33%            4.09%
                                  2007               2.93%            4.01%
                                  2008               2.40%            4.01%
                                  2009+              2.40%            4.01%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was
based on three tests: (1) a comparison of the percentage change in the liability amount by agency to the percent-
age change in the actual payments; (2) a comparison of the ratio of the estimated liability to the actual payment of
the beginning year calculated for the current projection to the liability-payment ratio calculated for the prior pro-
jection; and (3) a comparison of the incremental paid losses (the medical component in particular) in CBY 2005
(by injury cohort) to the average pattern observed during the prior three CBYs.

Note Reference

For regulatory discussion on “Military Retirement Benefits and Other Employment Related Actuarial Liabilities,”
see DoD Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1019.

Note 18. Disclosures Related to the Statement of Net Cost

Statement of Net Cost fluctuations

Intra-governmental Earned Revenue decreased $794,599 thousand, or 16 percent, in FY 2005, driven mainly by
an increase in Intra-Air Force transactions. Intra-Air Force transactions are removed from the revenue generated
by all government sources by matching seller-side transactions to buyer-side transactions and eliminating those
transactions which are between two Air Force entities. Total revenue from all governmental sources increased
$667,523 thousand in FY 2005 over FY 2004. Intra-Air Force transactions for the same time period increased
$1,462,122 thousand, leaving a decrease in revenue generated by Air Force transactions with non-Air Force gov-
ernmental entities of $794,599 thousand. Driving this decrease were reductions in Air Force receipts for classi-
fied projects involving Aircraft Procurement, Research, Development, Test & Evaluation (RDT&E), and
Operations & Maintenance(O&M).

Earned Revenue From the Public decreased $844,406 thousand, or 49 percent, in FY 2005. Earned Revenue
From the Public was overstated in FY 2004 and the first three quarters of FY 2005 due to an Air Force
Equipment Management System (AFEMS) problem that incorrectly posted suspended transactions to Other Gains
when they should have been posted to Other Expenses not Requiring Budgetary Resources. The error was dis-
covered in late FY 2005, and $439,364 thousand in FY 2005 Other Gains were reclassified from Other Gains to
Other Expenses not Requiring Budgetary Resources. Corrections to AFEMS posting logic are in process. System
problems in FY 2005 posted negative accounts receivable to intra-governmental revenue. The error was



                                                                                                                   63
       United States Air Force


discovered and corrections made, and accounts receivable balances with trading partners were reclassified from
public revenue to intra-governmental revenue in FY 2005, yielding a decrease of $36,806 thousand in public rev-
enue. Additional decreases in public revenue can be attributed to actual decreases in revenue from the public for
personnel costs associated with foreign military sales ($63,714 thousand) and non-medical reimbursements from
consumers ($147,780 thousand).

Note 19. Disclosures Related to the Statement of Changes in Net Position
As of September 30                                                    2005             2005           2004               2004
                                                                    Cumulative      Unexpended      Cumulative        Unexpended
                                                                    Results of     Appropriations   Results of       Appropriations
(Amounts in thousands)

1. Prior Period Adjustments Increases (Decreases) to Net Position
  A. Changes in Accounting Standards                                 $           0 $            0    $           0      $         0
  B. Errors and Omissions in Prior Year Accounting Reports                       0              0                0                0
  C. Other Prior Period Adjustments                                              0              0                0                0
  D. Total Prior Period Adjustments                                  $           0 $            0    $           0      $         0
2. Imputed Financing
  A. Civilian CSRS/FERS Retirement                                   $   236,321 $              0    $   244,900        $         0
  B. Civilian Health                                                     427,569                0        393,519                  0
  C. Civilian Life Insurance                                               1,398                0          1,316                  0
  D. Judgment Fund                                                        76,751                0         23,872                  0
  E. Intra-Entity                                                              0                0              0                  0
  F. Total Imputed Financing                                         $   742,039 $              0    $   663,607        $         0



Relevant Information for Comprehension

Imputed Financing

The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil
Service Retirement System (CSRS), the Federal Employees’ Retirement System (FERS), the Federal Employees
Health Benefits Program (FEHB), and the Federal Employees Group Life Insurance Program (FEGLI) do not fully
cover the U.S. Government’s cost to provide these benefits. An imputed cost is recognized as the difference
between the Government’s cost of providing these benefits to the employees and contributions made by and for
them. The OPM provides the cost factors to Defense Finance and Accounting Service (DFAS) for computation of
imputed financing cost. DFAS provides the costs to the Office of the Under Secretary of Defense (Personnel and
Readiness) (OUSD [P&R]) for validation. Approved imputed costs are provided to the reporting components for
inclusion in their financial statements.

The total Civilian Retirement imputed financing of $236,322 thousand is comprised of $207,471 thousand for the
CSRS and $28,851 thousand for the FERS.

The imputed revenue is equal to the imputed expense recognized in the Statement of Net Cost.

Note Reference

For regulatory disclosure related to the Statement of Changes in Net Position, see Department of Defense
Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1022.




64
                                                                                  2005 Annual Financial Statement


Note 20. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                             2005             2004
 (Amounts in thousands)
 1. Net Amount of Budgetary Resources Obligated for
                                                            $   54,587,501   $   42,905,248
    Undelivered Orders at the End of the Period
 2. Available Borrowing and Contract Authority at the End
                                                                        0                0
    of the Period



Other Information Related to the Statement of Budgetary Resources
The amount of direct obligations incurred and apportioned under category A is $70,014,669 thousand, category B is
$54,673,386 thousand, and exempt is $1,370 thousand. For reimbursable obligations incurred and apportioned, category
A is $8,543,615 thousand, category B is $3,904,940 thousand, and exempt is $0.

Unexpended Obligations presented in the SBR includes Unexpended Obligations for both direct and reimbursable
funds. The Department of Defense has not fully implemented the U.S. Standard General Ledger (USSGL) in all
operational accounting systems. The statement does not include any amounts for which the Department of
Treasury is willing to accept corrections to canceled appropriation amounts, in accordance with the Statement of
Federal Financial Accounting Standards No.1.

Adjustments in funds that are temporarily not available pursuant to public law and those that are permanently not
available (included in the Adjustments line on the SBR) are not included in the Spending Authority from Offsetting
Collections and Adjustments line of the SBR or the Spending Authority for Offsetting Collections and Adjustments
line of the Statement of Financing.

Due to accounting system deficiencies, the proper amount of intra-agency eliminations for this statement cannot
be determined. Accounting systems currently do not provide or capture data needed for obligations incurred and
recoveries of prior year obligations in accordance with the Office of Management and Budget Circular A-11,
“Instructions on Budget Execution,” requirements. Although the Defense Finance and Accounting
Service–Denver (DFAS-DE) developed an alternative methodology to calculate these items, the auditors and
DFAS-DE concur that this methodology also distorts the obligation figures. As a result, the amount of distortion
cannot be reliably determined and may or may not be material.

Note 21. Disclosures Related to the Statement of Financing
The objective of the Statement of Financing is to reconcile the difference between budgetary obligations and the
net cost of operations reported. It is presented as combined or combining statements rather than consolidated
statements due to intra-governmental transactions not being eliminated. Due to limitations in the Department of
the Air Force’s financial system, budgetary data are not in agreement with proprietary expenses and assets capi-
talized. Differences between budgetary and proprietary data constitute a previously identified deficiency.

Note 1A and Note 1F provide additional detail.

Other Information Related to the Statement of Financing
Components Requiring or Generating Resources in Future Period, Other consists of $13,659 thousand in closed
year liabilities. Components Not Requiring or Generating Resources, Other consists of $171,533 thousand in bad
debt expense, $15,178,363 thousand in Other Expenses not Requiring Budgetary Resources, and $(2,914,308)
thousand in Cost Capitalization Offset.




                                                                                                                  65
        United States Air Force


The components and amount of liabilities not covered by budgetary resources are disclosed in Note 11, Liabilities
Not Covered by Budgetary Resources.

Intra-entity transactions have not been eliminated because the statements are presented as combined and combining.

Note 22. Disclosures Related to the Statement of Custodial Activity
Not applicable

Note 23. Other Disclosures

 As of September 30                                                               2005
(Amounts in thousands)
                                               Land and Buildings         Equipment         Other           Total
 1. ENTITY AS LESSEE-Operating Leases
 Future Payments Due
     Fiscal Year
       2006                                $               8 0 , 30 1 $               0 $      133,321 $       213,622
       2007                                                76,877                     0        135,987         212,864
       2008                                               100,960                     0        138,716         239,676
       2009                                               116,387                     0        141,391         257,778
       2010                                               117,543                     0        144,319         261,862
       A f t e r 5 Y e ar s                               126,286                     0        147,197         273,483
 Total Future Lease Payments Due            $             618,354 $                   0 $      840,931 $     1,459,285


Fluctuations

In FY 2005, projections made in FY 2004 for future land and building leases were revised. This led to a $24,885
thousand, or 31%, increase in projected building lease costs for FY 2006. This increase was driven by added
lease costs of $10,700 thousand for new leases (375 additional leased units by U.S. Air Force—Europe and 13
additional leased units for trainers and recruiters at Air Education & Training Command in 2005). Increases in
projections for FY 2007, FY 2008, FY 2009 and FY 2010 are also due to 1325 projected new leases of family
housing units for USAF—Europe.

The bulk of the remaining $14,185 thousand FY 2005 increase was caused by anticipated unfavorable changes in
the exchange rate between the U.S. dollar and European currencies. Foreign exchange rate calculations made by
the Department of Defense, Office of the Secretary of Defense for Acquisition, Technology and Logistics—
Housing Directorate account for the bulk of these changes. Working in conjunction with its military counterparts,
the Directorate revised (for the first time since 1988) factors used to calculate foreign currency exchange per
U.S.C. Title X, Sec. 2828: Domestic and Foreign Leases. The new exchange rates were also used to project FY
2006 through FY 2010 lease expenses for Buildings and Land.

The Air Force has no leases in the Equipment Category and does not anticipate any in the future.

Other leases consist of vehicle leases. The Air Force leases vehicles in three major geographic regions (stateside, Europe
and Southwest Asia), and from two types of lessors, the General Service Administration (GSA) and commercial lessors.

Overall lease costs for Other leases in FY 2005 rose $30,400 thousand over FY 2004 costs. Two causes drove
this increase: an increase in the number of new vehicle leases and increased fuel costs charged on both new and
existing leases.

New vehicle leases increased in every region in FY 2005, contributing $14,600 thousand to the total increase in
Other operating lease expenses. Projections made in FY 2005 for future vehicle lease costs include these new
leases. Increases in FY 2005 contributed to increased projected vehicle lease costs for FY 2006, FY 2007, FY 2008
and FY 2009 of $16,203 thousand, $16,527 thousand, $16,857 thousand and $17,123 thousand, respectively.



66
                                                                             2005 Annual Financial Statement


The General Services Administration (GSA) implemented a fuel surcharge of 1.5 cents per mile traveled on its
leased vehicles in FY 2005; Defense Energy Support Center (DESC) has likewise raised fuel costs per gallon by
approximately 25% worldwide. Increased fuel costs added $1,400 thousand to total Other lease costs in FY
2005. These fuel expense increases are also factored into projected leases costs for subsequent years.

In addition, factors unique to each geographic region added to actual costs in FY 2005, and to the projected costs
in subsequent years for Other leases. The causes of rising vehicle leases by geographic region are:

Stateside, the Air Force is moving towards GSA leased vehicles within light, medium and heavy duty class vehicles
at stateside bases. Moving towards GSA leased vehicles enables the Air Force to obtain alternative fuel vehicles
that satisfy petroleum conservation requirements mandated by the Energy Policy and Conservation Act (EPACT)
of 1992/2005 and Executive Order 13149. Air Force is now leasing 1,802 more GSA vehicles over the same
period last year. These additional leases contributed $7,400 thousand to the overall increase in FY 2005.

The number of commercial vehicle leases in Europe has increased as well. New European leases contributed
$3,188 thousand to the overall increase.

The Air Force realized an overall increase of $4,000 thousand in commercial vehicle leases in SWA in FY 2005.
Commercial leases for comparable vehicles can cost as much as 10 times more in SWA than stateside. Vehicle leases
in SWA therefore account for a disproportionate amount (nearly one third) of Air Force Other lease costs worldwide.

Fluctuations in commercial lease cost data for Other leases also reflect cumbersome data collection at deploy-
ment locations in SWA. Late in FY 2005, units at deployed locations began implementing uniform procedures
established by the HQ Air Combat Command and Transportation Division. As a result, Vehicle Maintenance
Managers now receive improved training in leased vehicle procurement, accountability and standardized data
reporting prior to deployment to SWA. This additional training is helping to reduce data reporting errors, and
summary statements are now provided whenever significant fluctuations occur.




                                                                                                                      67
     United States Air Force




                               This page intentionally left blank.




68
              2005 Annual Financial Statement




    General Fund

  Consolidating and
Combining Statements




                                           69
        United States Air Force


Consolidating Balance Sheet—General Fund
As of September 30, 2005 and 2004 ($ in Thousands)

                                                                     Air Force          Air Force         Air National
                                                                      Active            Reserve              Guard
 ASSETS (Note 2)
     Intra-governmental:
        Fund Balance with Treasury (Note 3)
        Entity                                                   $    59,428,317    $     1,051,111   $       1,793,539
        Non-Entity Seized Iraqi Cash                                           0                  0                   0
        Non-Entity-Other                                                  77,275                  0                   0
        Investments (Note 4)                                                 717                  0                   0
        Accounts Receivable (Note 5)                                   1,206,890             47,391             175,650
        Other Assets (Note 6)                                                 31                  0                   0
        Total Intra-governmental Assets                          $    60,713,230    $     1,098,502   $       1,969,189
     Cash and Other Monetary Assets (Note 7)                     $       151,844    $             0   $               0
     Accounts Receivable (Note 5)                                        998,501              8,718              21,091
     Loans Receivable (Note 8)                                                 0                  0                   0
     Inventory and Related Property (Note 9)                          44,108,240            442,477           2,618,296
     General Property, Plant and Equipment (Note 10)                 119,735,929            958,811           2,951,328
     Investments (Note 4)                                                      0                  0                   0
     Other Assets (Note 6)                                            11,154,741              5,717              18,583
 TOTAL ASSETS                                                    $   236,862,485    $     2,514,225   $       7,578,487

 LIABILITIES (Note 11)
      Intra-governmental:
         Accounts Payable (Note 12)                              $        703,276   $        31,505   $          74,770
         Debt (Note 13)                                                         0                 0                   0
         Other Liabilities (Note 15 & Note 16)                          2,080,613             2,182                 938
         Total Intra-governmental Liabilities                    $      2,783,889   $        33,687   $          75,708
     Accounts Payable (Note 12)                                  $      5,620,700   $        72,861   $         122,366
     Military Retirement Benefits and Other Employment-Related            823,713           120,179             203,545
     Actuarial Liabilities (Note 17)
     Environmental Liabilities (Note 14)                               5,781,322                  0                   0
     Loan Guarantee Liability (Note 8)                                         0                  0                   0
     Other Liabilities (Note 15 and Note 16)                           3,896,185            119,668             163,651
 TOTAL LIABILITIES                                               $    18,905,809    $       346,395   $         565,270
 NET POSITION
    Unexpended Appropriations                                    $    61,864,263    $       907,247   $       1,677,255
    Cumulative Results of Operations                                 156,092,413          1,260,583           5,335,962
 TOTAL NET POSITION                                              $   217,956,676    $     2,167,830   $       7,013,217
 TOTAL LIABILITIES AND NET POSITION                              $   236,862,485    $     2,514,225   $       7,578,487




The accompanying notes are an integral part of the financial statements.



70
                                                                                    2005 Annual Financial Statement




    Component         Combined                                    2005                  2004
      Level             Total           Eliminations           Consolidated          Consolidated




$             0   $    62,272,967   $                  0   $       62,272,967   $        60,547,709
              0                 0                      0                    0                     0
              0            77,275                      0               77,275                53,290
              0               717                      0                  717                   711
       -776,342           653,589                      0              653,589               689,871
        427,958           427,989                      0              427,989               443,939
$      -348,384   $    63,432,537   $                  0   $       63,432,537   $        61,735,520
$             0   $       151,844   $                  0   $          151,844   $           311,323
              0         1,028,310                      0            1,028,310               978,883
              0                 0                      0                    0                     0
              0        47,169,013                      0           47,169,013            51,340,248
              0       123,646,068                      0          123,646,068           117,954,430
              0                 0                      0                    0                     0
              0        11,179,041                      0           11,179,041            10,809,588
$      -348,384   $   246,606,813   $                  0   $      246,606,813   $       243,129,992




$       842,353   $     1,651,904   $                  0   $        1,651,904   $         1,900,411
              0                 0                      0                    0                     0
       -493,866         1,589,867                      0            1,589,867             1,726,480
$       348,487   $     3,241,771   $                  0   $        3,241,771   $         3,626,891

$        35,257   $     5,851,184   $                  0   $        5,851,184   $         7,707,163
              0         1,147,437                      0            1,147,437             1,163,442
              0         5,781,322                      0            5,781,322             7,387,187
              0                 0                      0                    0                     0
              0         4,179,504                      0            4,179,504             4,602,505
$       383,744   $    20,201,218   $                  0   $       20,201,218   $        24,487,188

$      -732,128   $    63,716,637   $                  0   $       63,716,637   $        49,660,670
              0       162,688,958                      0          162,688,958           168,982,134
$      -732,128   $   226,405,595   $                  0   $      226,405,595   $       218,642,804
$      -348,384   $   246,606,813   $                  0   $      246,606,813   $       243,129,992




                                                                                                                 71
       United States Air Force


Consolidating Statement of Net Cost—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                           Air Force         Air Force           Air National
                                                            Active           Reserve                Guard
Program Costs
A. Military Personnel                                                0
   Intra-governmental Gross Costs                      $        -2,370   $        55,752     $        295,858
   (Less: Intra-governmental Earned Revenue)                  -275,622            -4,927              -18,871
   Intra-governmental Net Costs                        $      -277,992   $        50,825     $        276,987
   Gross Costs With the Public                              26,533,041         1,328,708            2,228,638
   (Less: Earned Revenue From the Public)                     -102,980                12               -9,944
   Net Costs With the Public                           $    26,430,061   $     1,328,720     $      2,218,694
   Total Net Cost                                      $    26,152,069   $     1,379,545     $      2,495,681
B. Operation and Maintenance                                         0
   Intra-governmental Gross Costs                      $    16,530,530   $       742,927     $      1,947,990
   (Less: Intra-governmental Earned Revenue)                -3,512,031          -296,275             -588,762
   Intra-governmental Net Costs                        $    13,018,499   $       446,652     $      1,359,228
   Gross Costs With the Public                              23,951,923         2,251,507            5,706,030
   (Less: Earned Revenue From the Public)                     -502,991            -1,800              -77,534
   Net Costs With the Public                           $    23,448,932   $     2,249,707     $      5,628,496
   Total Net Cost                                      $    36,467,431   $     2,696,359     $      6,987,724
C. Procurement                                                       0
   Intra-governmental Gross Costs                      $    17,606,563   $               0   $                  0
   (Less: Intra-governmental Earned Revenue)                  -316,706                   0                      0
   Intra-governmental Net Costs                        $    17,289,857   $               0   $                  0
   Gross Costs With the Public                              12,496,105                   0                      0
   (Less: Earned Revenue From the Public)                      -92,344                   0                      0
   Net Costs With the Public                           $    12,403,761   $               0   $                  0
   Total Net Cost                                      $    29,693,618   $               0   $                  0
D. Research, Development, Test & Evaluation                          0
   Intra-governmental Gross Costs                      $     9,218,480   $               0   $                  0
   (Less: Intra-governmental Earned Revenue)                -3,174,483                   0                      0
   Intra-governmental Net Costs                        $     6,043,997   $               0   $                  0
   Gross Costs With the Public                              14,262,616                   0                      0
   (Less: Earned Revenue From the Public)                     -160,712                   0                      0
   Net Costs With the Public                           $    14,101,904   $               0   $                  0
   Total Net Cost                                      $    20,145,901   $               0   $                  0
E. Military Construction/Family Housing                              0
   Intra-governmental Gross Costs                      $       272,226   $           163     $         -7,524
   (Less: Intra-governmental Earned Revenue)                     1,168                 0                    0
   Intra-governmental Net Costs                        $       273,394   $           163     $         -7,524
   Gross Costs With the Public                                -276,055           -10,215              218,070
   (Less: Earned Revenue From the Public)                            0                 0                    0
   Net Costs With the Public                           $      -276,055   $       -10,215     $        218,070
   Total Net Cost                                      $        -2,661   $       -10,052     $        210,546
F. Other                                                             0
   Intra-governmental Gross Costs                      $        13,069   $               0   $                  0
   (Less: Intra-governmental Earned Revenue)                         0                   0                      0
   Intra-governmental Net Costs                        $        13,069   $               0   $                  0
   Gross Costs With the Public                                -393,961                   0                      0
   (Less: Earned Revenue From the Public)                      -12,817                   0                      0
   Net Costs With the Public                           $      -406,778   $               0   $                  0
   Total Net Cost                                      $      -393,709   $               0   $                  0
G. Total Program Costs                                               0
   Intra-governmental Gross Costs                      $    43,638,498   $       798,842     $      2,236,324
   (Less: Intra-governmental Earned Revenue)                -7,277,674          -301,202             -607,633
   Intra-governmental Net Costs                        $    36,360,824   $       497,640     $      1,628,691
   Gross Costs With the Public                              76,573,669         3,570,000            8,152,738
   (Less: Earned Revenue From the Public)                     -871,844            -1,788              -87,478
   Net Costs With the Public                           $    75,701,825   $     3,568,212     $      8,065,260
   Total Net Cost                                      $   112,062,649   $     4,065,852     $      9,693,951
Cost Not Assigned to Programs                                        0                 0                    0
(Less:Earned Revenue Not Attributable to Programs)                   0                 0                    0
Net Cost of Operations                                 $   112,062,649   $     4,065,852     $      9,693,951




The accompanying notes are an integral part of the financial statements.



72
                                                                                             2005 Annual Financial Statement




     Component          Combined                                        2005                 2004
       Level              Total               Eliminations           Consolidated         Consolidated


                    $       349,240   $                      0   $          349,240   $          319,206
                           -299,420                          0             -299,420             -315,349
                    $        49,820   $                      0   $           49,820   $            3,857
                         30,090,387                          0           30,090,387           29,708,361
                           -112,912                          0             -112,912             -106,551
                    $    29,977,475   $                      0   $       29,977,475   $       29,601,810
                    $    30,027,295   $                      0   $       30,027,295   $       29,605,667

                    $    19,221,447   $                      0   $       19,221,447   $       16,886,951
                         -4,397,068                          0           -4,397,068           -4,385,376
                    $    14,824,379   $                      0   $       14,824,379   $       12,501,575
                         31,909,460                          0           31,909,460           28,465,443
                           -582,325                          0             -582,325             -644,464
                    $    31,327,135   $                      0   $       31,327,135   $       27,820,979
                    $    46,151,514   $                      0   $       46,151,514   $       40,322,554

                    $    17,606,563   $                      0   $       17,606,563   $          652,495
                           -316,706                          0             -316,706             -265,408
                    $    17,289,857   $                      0   $       17,289,857   $          387,087
                         12,496,105                          0           12,496,105           27,231,988
                            -92,344                          0              -92,344             -401,470
                    $    12,403,761   $                      0   $       12,403,761   $       26,830,518
                    $    29,693,618   $                      0   $       29,693,618   $       27,217,605

                    $     9,218,480       $                  0   $       9,218,480    $         791,689
                         -3,174,483                          0          -3,174,483           -2,553,633
                    $     6,043,997       $                  0   $       6,043,997    $      -1,761,944
                         14,262,616                          0          14,262,616           20,987,117
                           -160,712                          0            -160,712             -174,458
                    $    14,101,904       $                  0   $      14,101,904    $      20,812,659
                    $    20,145,901       $                  0   $      20,145,901    $      19,050,715

                    $      264,865        $                  0   $         264,865    $         200,852
                             1,168                           0               1,168                  781
                    $      266,033        $                  0   $         266,033    $         201,633
                           -68,200                           0             -68,200              585,403
                                 0                           0                   0                    0
                    $      -68,200        $                  0   $         -68,200    $         585,403
                    $      197,833        $                  0   $         197,833    $         787,036

 $    -16,827,921   $   -16,814,852   $                      0   $      -16,814,852   $       10,058,671
        3,978,861         3,978,861                          0            3,978,861            2,516,739
 $    -12,849,060   $   -12,835,991   $                      0   $      -12,835,991   $       12,575,410
       11,239,824        10,845,863                          0           10,845,863          -10,472,324
           81,181            68,364                          0               68,364             -397,393
 $     11,321,005   $    10,914,227   $                      0   $       10,914,227   $      -10,869,717
 $     -1,528,055   $    -1,921,764   $                      0   $       -1,921,764   $        1,705,693

 $    -16,827,921   $    29,845,743   $                      0   $      29,845,743    $      28,909,864
        3,978,861        -4,207,648                          0          -4,207,648           -5,002,246
 $    -12,849,060   $    25,638,095   $                      0   $      25,638,095    $      23,907,618
       11,239,824        99,536,231                          0          99,536,231           96,505,988
           81,181          -879,929                          0            -879,929           -1,724,336
 $     11,321,005   $    98,656,302   $                      0   $      98,656,302    $      94,781,652
 $     -1,528,055   $   124,294,397   $                      0   $     124,294,397    $     118,689,270
                0                 0                          0                   0                    0
                0                 0                          0                   0                    0
 $     -1,528,055   $   124,294,397   $                      0   $     124,294,397    $     118,689,270




The accompanying notes are an integral part of the financial statements.



                                                                                                                          73
       United States Air Force


Consolidating Statement of Changes in Net Position—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                                            Air Force        Air National
                                                                     Air Force Active
                                                                                            Reserve             Guard
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                               $       159,814,485    $      1,604,932 $       7,562,717
Adjustments (+/-)
   Changes in Accounting Principles (+/-)                                          0                   0                 0
   Correction of Errors (+/-)                                                      0                   0                 0
Beginning Balances, as adjusted                                          159,814,485           1,604,932         7,562,717
Budgetary Financing Sources:
   Appropriations received                                                         0                   0                 0
   Appropriations transferred-in/out (+/-)                                         0                   0                 0
   Other adjustments (rescissions, etc.) (+/-)                                     0                   0                 0
   Appropriations used                                                   105,465,154           3,699,577         7,489,194
   Nonexchange revenue                                                           920                   0                 0
   Donations and forfeitures of cash and cash equivalents                      1,860                   0                 0
   Transfers-in/out without reimbursement (+/-)                              967,200                   0                 0
   Other budgetary financing sources (+/-)                                         0                   0                 0
Other Financing Sources:
   Donations and forfeitures of property                                           0                   0                 0
   Transfers-in/out without reimbursement (+/-)                             -181,453              21,925           -21,997
   Imputed financing from costs absorbed by others                           742,039                   0                 0
   Other (+/-)                                                                     0                   0                 0
Total Financing Sources                                                  106,995,720           3,721,502         7,467,197
Net Cost of Operations (+/-)                                             112,062,649           4,065,852         9,693,951
Net Change                                                                -5,066,929            -344,350        -2,226,754
Ending Balance                                                   $       154,747,556    $      1,260,582 $       5,335,963

UNEXPENDED APPROPRIATIONS
  Beginning Balances                                             $        49,486,289    $        803,393 $       1,787,049
  Prior period adjustments (+/-)
        Changes in Accounting Principles (+/-)                                     0                   0                 0
        Correction of Errors (+/-)                                                 0                   0                 0
  Beginning Balances, as adjusted                                         49,486,289             803,393         1,787,049
  Budgetary Financing Sources:
        Appropriations received                                          117,808,827           3,821,047         7,258,314
        Appropriations transferred-in/out (+/-)                            1,478,871              11,026           141,342
        Other adjustments (rescissions, etc) (+/-)                        -1,444,570             -28,642           -20,256
        Appropriations used                                             -105,465,154          -3,699,577        -7,489,194
        Nonexchange revenue                                                        0                   0                 0
        Donations and forfeitures of cash and cash equivalents                     0                   0                 0
        Transfers-in/out without reimbursement (+/-)                               0                   0                 0
        Other budgetary financing sources (+/-)                                    0                   0                 0
  Other Financing Sources:
        Donations and forfeitures of property                                      0                   0                 0
        Transfers-in/out without reimbursement (+/-)                               0                   0                 0
        Imputed financing from costs absorbed by others                            0                   0                 0
        Other (+/-)                                                                0                   0                 0
   Total Financing Sources                                                12,377,974             103,854          -109,794
   Net Cost of Operations (+/-)
   Net Change                                                             12,377,974             103,854          -109,794
   Ending Balance                                                $        61,864,263    $        907,247 $       1,677,255




The accompanying notes are an integral part of the financial statements..



74
                                                                              2005 Annual Financial Statement




     Component         Combined                                 2005                2004
                                        Eliminations
       Level             Total                               Consolidated        Consolidated

 $               0 $    168,982,134 $                  0 $      168,982,134 $       161,327,684

                 0                0                    0                  0                   0
                 0                0                    0                  0                   0
                 0      168,982,134                    0        168,982,134         161,327,684

                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
       -1,683,933       114,969,992                    0        114,969,992         124,686,986
                0               920                    0                920               8,827
                0             1,860                    0              1,860               2,171
                0           967,200                    0            967,200             671,000
                0                 0                    0                  0                   0

                0                 0                    0                  0                   0
          155,877           -25,648                    0            -25,648             311,130
                0           742,039                    0            742,039             663,607
                0                 0                    0                  0                   0
       -1,528,056       116,656,363                    0        116,656,363         126,343,721
       -1,528,055       124,294,397                    0        124,294,397         118,689,270
               -1        -7,638,034                    0         -7,638,034           7,654,451
 $             -1 $     161,344,100 $                  0 $      161,344,100 $       168,982,135



 $     -2,416,061 $      49,660,670 $                  0 $       49,660,670 $        50,742,317

                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
       -2,416,061        49,660,670                    0         49,660,670          50,742,317

                0       128,888,188                    0        128,888,188         125,480,665
                0         1,631,239                    0          1,631,239            -454,456
                0        -1,493,468                    0         -1,493,468          -1,420,870
        1,683,933      -114,969,992                    0       -114,969,992        -124,686,986
                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
                0                 0                    0                  0                   0

                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
                0                 0                    0                  0                   0
        1,683,933        14,055,967                    0         14,055,967          -1,081,647

        1,683,933        14,055,967                    0         14,055,967          -1,081,647
 $       -732,128 $      63,716,637 $                  0 $       63,716,637 $        49,660,670




The accompanying notes are an integral part of the financial statements.



                                                                                                           75
       United States Air Force


Combining Statement of Budgetary Resources—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                               Air Force         Air Force
                                                                Active           Reserve
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
  Budget Authority:
     Appropriations received                               $   117,811,607   $     3,821,047
     Borrowing authority                                                 0                 0
     Contract authority                                                  0                 0
     Net transfers (+/-)                                           409,785            31,026
     Other                                                               0                 0
  Unobligated balance:
     Beginning of period                                         8,586,693           123,021
     Net transfers, actual (+/-)                                 2,036,286           -20,000
        Anticipated Transfers Balances                                   0                 0
  Spending authority from offsetting collections:
     Earned                                                              0                 0
        Collected                                                7,863,996           367,750
        Receivable from Federal sources                            207,029           -64,747
     Change in unfilled customer orders                                  0                 0
        Advance received                                           349,671                 0
        Without advance from Federal sources                       386,137             1,881
     Anticipated for the rest of year, without advances                  0                 0
     Previously unavailable                                              0                 0
     Transfers for trust funds                                           0                 0
     Subtotal                                                    8,806,833           304,884
  Recoveries of prior year obligations                           1,029,817            86,331
  Temporarily not available pursuant to Public Law                       0                 0
  Permanently not available                                     -1,444,570           -28,642
  Total Budgetary Resources                                $   137,236,451   $     4,317,667


STATUS OF BUDGETARY RESOURCES
   Obligations incurred:
       Direct                                              $   113,497,488   $     3,787,130
       Reimbursable                                             11,423,914           306,731
       Subtotal                                                124,921,402         4,093,861
   Unobligated balance:                                                            4,093,861
       Apportioned                                              11,526,850            79,393
       Exempt from apportionment                                     3,218                 0
       Other available                                                   1                 0
   Unobligated Balances Not Available                              784,980           144,413
   Total, Status of Budgetary Resources                    $   137,236,451   $     4,317,667
Relationship of Obligations to Outlays:
   Obligated Balance, Net - beginning of period            $    49,104,743   $       786,248
   Obligated Balance transferred, net (+/-)                              0                 0
   Obligated Balance, Net - end of period:
       Accounts receivable                                      -1,379,402           -50,176
       Unfilled customer order from Federal sources             -1,213,193            -1,932
       Undelivered orders                                       42,425,919           679,671
       Accounts payable                                          7,018,470           199,742
   Outlays:
       Disbursements                                           125,551,368         4,029,339
       Collections                                              -8,213,667          -367,750
       Subtotal                                                117,337,701         3,661,589
   Less: Offsetting receipts                                      -123,202                 0
   Net Outlays                                             $   117,214,499   $     3,661,589

The accompanying notes are an integral part of the financial statements.



76
                                                                             2005 Annual Financial Statement




     Air National           Component                                  2004
                                                2005 Combined
        Guard                 Level                                  Combined




 $         7,258,314    $               0   $      128,890,968   $    125,483,786
                   0                    0                    0                  0
                   0                    0                    0                  0
             197,342                    0              638,153            -29,394
                   0                    0                    0                  0

            333,650                     0            9,043,364             9,189,946
            -56,000                     0            1,960,286               245,938
                  0                     0                    0                     0

                   0                    0                    0                  0
             691,786                    0            8,923,532          8,117,605
                 666                    0              142,948            317,565
                   0                    0                    0                  0
                   0                    0              349,671            188,072
                 525                    0              388,543           -109,981
                   0                    0                    0                  0
                   0                    0                    0                  0
                   0                    0                    0                  0
             692,977                    0            9,804,694          8,513,261
             184,043                    0            1,300,191          1,431,079
                   0                    0                    0                  0
             -20,256                    0           -1,493,468         -1,437,653
 $         8,590,070    $               0   $      150,144,188   $    143,396,963




 $         7,404,806    $               0   $      124,689,424   $    129,913,273
             717,910                    0           12,448,555          4,447,386
           8,122,716                    0          137,137,979        134,360,659

             150,638                    0           11,756,881          8,072,566
                   0                    0                3,218              2,709
                   0                    0                    1                 -1
             316,716                    0            1,246,109            961,030
 $         8,590,070    $               0   $      150,144,188   $    143,396,963

 $         1,613,142    $               0   $       51,504,133   $     50,541,583
                   0                    0                    0                  0

            -189,982                    0           -1,619,560         -1,476,612
                -812                    0           -1,215,937           -827,393
           1,192,089           -1,653,952           42,643,727         42,309,792
             324,889            1,653,952            9,197,053         11,505,411

           8,224,440                    0          137,805,147        131,752,381
            -691,786                    0           -9,273,203         -8,305,678
           7,532,654                    0          128,531,944        123,446,703
                   0                    0             -123,202           -115,376
 $         7,532,654    $               0   $      128,408,742   $    123,331,327

The accompanying notes are an integral part of the financial statements.



                                                                                                          77
       United States Air Force


Combining Statement of Financing—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                         Air Force           Air Force
                                                                          Active             Reserve
 Resources Used to Finance Activities:
 Budgetary Resources Obligated
  Obligations incurred                                               $   124,921,402     $     4,093,861
  Less: Spending authority from offsetting collections                    -9,836,649            -391,215
  and recoveries (-)
  Obligations net of offsetting collections and recoveries               115,084,753           3,702,646
  Less: Offsetting receipts (-)                                             -123,202                   0
  Net obligations                                                        114,961,551           3,702,646
 Other Resources
  Donations and forfeitures of property                                            0                   0
  Transfers in/out without reimbursement (+/-)                              -181,453              21,925
  Imputed financing from costs absorbed by others                            742,039                   0
  Other (+/-)                                                                      0                   0
  Net other resources used to finance activities                             560,586              21,925
  Total resources used to finance activities                             115,522,137           3,724,571

 Resources Used to Finance Items not Part
 of the Net Cost of Operations
   Change in budgetary resources obligated for goods,
   services and benefits ordered but not yet provided
     Undelivered Orders (-)                                               -10,235,882              -4,938
     Unfilled Customer Orders                                                 735,808               1,881
   Resources that fund expenses recognized in prior periods                  -594,728              -8,661
   Budgetary offsetting collections and receipts that                         123,202                   0
   do not affect net cost of operations
   Resources that finance the acquisition of assets                       -17,776,704             -45,012
   Other resources or adjustments to net obligated resources
   that do not affect net cost of operations
     Less: Trust or Special Fund Receipts Related to Exchange                        0                    0
     in the Entity's Budget (-)
     Other (+/-)                                                              181,453             -21,925
 Total resources used to finance items not                                -27,566,851             -78,655
 part of the net cost of operations
 Total resources used to finance the net cost of operations               87,955,286           3,645,916

 Components of the Net Cost of Operations that will
 not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
   Increase in annual leave liability                                         80,366                      0
   Increase in environmental and disposal liability                                0                      0
   Upward/Downward reestimates of credit subsidy expense (+/-)                     0                      0
   Increase in exchange revenue receivable from the the public (-)                 0                      0
   Other (+/-)                                                                13,612                     29
   Total components of Net Cost of Operations that                            93,978                     29
   will require or generate resources in future periods
 Components not Requiring or Generating Resources:
   Depreciation and amortization                                          11,442,702              45,136
   Revaluation of assets or liabilities (+/-)                                621,661               4,631
   Other (+/-)
      Trust Fund Exchange Revenue                                                  0                   0
      Cost of Goods Sold                                                           0                   0
      Operating Material & Supplies Used                                   1,949,358               9,863
      Other                                                                9,999,663             360,276
 Total components of Net Cost of Operations that                          24,013,384             419,906
 will not require or generate resources
 Total components of net cost of operations that                          24,107,362             419,935
 will not require or generate resources in the current period
 Net Cost of Operations                                              $   112,062,648     $     4,065,851




The accompanying notes are an integral part of the financial statements.



78
                                                                           2005 Annual Financial Statement




                         Component
                           Level


  $                  $               0
                                     0

                                     0
                                     0
                                     0

                                    0
                              155,877
                                    0
                                    0
                              155,877
                              155,877




                            -1,683,933
                                     0
                                     0
                                     0

                                     0


                                     0

                              -155,877
                            -1,839,810

                            -1,683,933




                                     0
                                     0
                                     0
                                     0
                                     0
                                     0


                                    0
                              155,877

                                    0
                                    0
                                    0
                                    0
                              155,877

                              155,877

  $                  $      -1,528,056   $                  $




The accompanying notes are an integral part of the financial statements.



                                                                                                        79
     United States Air Force




                               This page intentionally left blank.




80
                2005 Annual Financial Statement




     General Fund

Required Supplementary
Stewardship Information




                                             81
     United States Air Force




                               This page intentionally left blank.




82
                                                                          2005 Annual Financial Statement


NATIONAL DEFENSE PROPERTY, PLANT AND EQUIPMENT
The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial
Accounting Standards No. 6 to require the capitalization and Depreciation of military equipment (formerly
National Defense Property, Plant and Equipment/ND PP&E) for fiscal years (FY) 2004 and beyond and encour-
aged early implementation.

                                                HERITAGE ASSETS
                                        For Fiscal Year Ended September 2005
                                        Measurement        As Of                                         As Of
                                                                        Additions      Deletions
                                         Quantities      10/1/2004                                     9/30/2005

 Museums                                    Each                   19              0              0              19
 Monuments & Memorials                      Each                  244              0              0             244
 Cemeteries                                 Sites                  39              0              0              39
 Archeological Sites                        Sites               1,685            168            168           1,685
 Buildings & Structures                     Each                5,968            193              8           6,153
 Major Collections                          Each                    4              0              0               4


Narrative Statement:

1. Museums

The Air Force Museum, located at Wright-Patterson Air Force Base, Ohio, houses the main collection of histori-
cal artifacts that are registered as historical property in the USAF Museum System. The other 17 Air Force muse-
ums are considered Air Force Field Museums or Heritage Centers, which also contain items of historical interest;
some however, are specific to the general locality. The 19th museum belonging to the Air National Guard, in
good condition with significant architectural characteristic, was erroneously not reported in FY 04.

All museums and Heritage Centers are reported in acceptable condition.

2. Monuments and Memorials

The memorials and monuments reported above, except for 28, are all located at the Air Force Academy in the
Air Gardens and Honor Court. Most of these monuments and memorials honor specific individuals or cadet
wings for various accomplishments. The remaining 28 Air Force memorials, all with costs that exceed $100,000,
are located on various Air Force bases throughout the United States. All are reported in acceptable condition.
There are 120 memorials and monuments belonging to the Air National Guard, which were erroneously omit-
ted from the FY04 Report, all in good condition.

The Air Force made an adjustment to the beginning balance of 91 monuments and memorials do to an oversight
of not including the Air National Guard in previous reporting periods.

3. Cemeteries

The Air Force has administrative and curatorial responsibilities for 39 cemeteries on its Active Duty bases. The
cemeteries are maintained by the bases and are in good condition.

4. Archeological Sites

As of 30 September 2005, the Air Force has (as reported in the FY04 Annual Report to Congress on Federal
Archaeological Activity, submitted 30 March 05) 1,685 archeological sites listed on or eligible for the National



                                                                                                                   83
           United States Air Force


Register. The Air Force has 9,292 recorded but unevaluated (AKA “potentially eligible”) archeological sites, and
4,327 sites, considered not eligible for the Register. A total of 15,304 archeological sites have been reported so
far from Air Force lands. Eligible site and unevaluated sites (both herein considered heritage assets) are main-
tained in an acceptable condition.

Changes in site numbers from those reported last year are the result of several factors: (1) Each year the Air
Force performs additional surveys of un-inventoried lands, in accordance with Sections 106 and 110 of the
National Historical Reservation Act. The average number of acres surveyed each year is around 100,000. These
surveys yield about 600 newly reported archaeological sites per year. (2) Relatively few (or sometimes none) of
these newly reported sites are evaluated for eligibility during their discovery year. The Air Force programs evalu-
ations of a significant portion of the backlog of “potentially eligible” sites every year, so the number of unevaluat-
ed sites diminishes, and the number of eligible and ineligible sites increase. (3) By coincidence, the number of
sites considered eligible increased by the same amount of eligible sites removed from the Air Force eligible inven-
tory by data recovery, development, re-valuation, and closure of transfer. For that reason, the number of eligible
sites listed in the FY 05 report is the same: 1685.

5. Buildings and Structures

As of 30 September 2005 (as reported in the FY04 Annual Report to Congress on Federal Archaeological
Activities, submitted 30 March 2005), the Air Force considers 6,153 buildings and structures as heritage assets
(listed, eligible, and potentially eligible buildings/structures). Most are considered Multi-use Heritage Assets, and
as such, are reported as general Property, Plant, and Equipment on the balance sheet. These buildings and struc-
tures are maintained by each base civil engineering group and are considered to be in good condition. A discrep-
ancy was discovered in the FY 04 RSSI data reported: Instead of the 4,074 reported buildings and structures last
year, the actual total should have been 5,968. The error was due to a categorical omission of data set. So the
increase in historical buildings and structures between FY 04 and FY 05 is only 193 (with 8 buildings reported as
disposed). Most of the 193 newly counted buildings and structures are those turning 50 years of age in FY 05
that have not yet been fully evaluated, but are considered “potentially eligible” for the national Register.

6. Major Collections

The Air Force has four significant or major collections consisting of: (a) the Air Force Art Collection, and (b)
three collections, at the Air Force Academy containing historical items and memorabilia as well as distinctive
works of art. The curators for all major collections reported the contents to be in good condition. They further
added that almost all of the materials are protected in an environment suitable for long-term storage. The over-
all condition of the collections in the museums is good; items are displayed and protected in accordance with the
standards of Air Force Instruction 84-103, USAF Museum System.

                                                 STEWARDSHIP LAND
                                         For Fiscal Year Ended September 2005
                                                  (Acres in Thousands)
                     (a)                 (b)                  (c)                  (d)                (e)
                  Land Use         As of 10/1/2004         Additions            Deletions       As of 9/30/2004

     1. Mission                        7,728                   0                   0                7,728
     2. Parks & Historic Sites           0                     0                   0                  0
     Totals                            7,728                   0                   0                7,728




84
                                                                                          2005 Annual Financial Statement


The Air Force has approximately 7,728,000 acres of mission-essential Stewardship land under their administra-
tion. Lands purchased by the Air Force with the intent to construct buildings or facilities are considered general
PP&E and are reported on the balance sheet. All stewardship lands, as reported, are in acceptable condition,
based on designated use.

                                                NONFEDERAL PHYSICAL PROPERTY
                                           Yearly Investment in State and Local Governments
                                                   For Fiscal Years 2001 through 2005
                                                              ($ in Millions )
              Categories                                      FY 2001     FY 2002         FY 2003      FY 2004   FY 2005

              Funded Assets:
               National Defense Mission Related                $20.20      $21.30         $11.31        $18.30          $8.30
               Total                                           $20.20      $21.30         $11.31        $18.30          $8.30



Narrative Statement:
The Air National Guard investments in non-federal physical property are strictly through the Military
Construction Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and
allow joint participation with States, Counties, and Airport Authorities for construction or repair of airfield pave-
ments and facilities required to support the flying mission assigned at these civilian airfields

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures).
Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with
the Federal Accounting Standards requirements.

                                            INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                               Yearly Investment in Research and Development
                                                     For Fiscal Years 2001 through 2005
                                                                 ($ in Millions)
 Categories                                               FY 2001         FY 2002            FY 2003         FY 2004            FY 2005

 1. Basic Research                                               $207            $205                $220          $209               $287

 2. Applied Research                                                582             658                735             805                805

 3. Development
     Advanced Technology Development                               560             559                 545           681                966
     Advanced Component Development and Prototypes               5,209           4,640               4,385         1,426              1,897
     System Development and Demonstration                        3,358           3,509               4,341         4,390              4,179
     Research, Development, Test and Evaluation
     Management Support                                            777             824                 880           890                824
     Operational Systems Development                             6,872           7,103               7,571        10,361             10,083

 Totals                                                        $17,565         $17,498             $18,677       $18,762            $19,041



Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phe-
nomena and of observable facts without specific applications, processes, or products in mind. Basic Research
involves the gathering of a fuller knowledge or understanding of the subject under study. Major outputs are sci-
entific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
means by which a recognized and specific need may be met. It is the practical application of such knowledge or
understanding for the purpose of meeting a recognized need. This research points toward specific military needs
with a view toward developing and evaluating the feasibility and practicability of proposed solutions and



                                                                                                                                            85
       United States Air Force


determining their parameters. Major outputs are scientific studies, investigations, and research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system to include nonsystem spe-
cific development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to estab-
lish technological feasibility, assessment of operability, and production capability. Development is comprised of
five stages defined below:
1. Advanced Technology Development is the systematic use of the knowledge or understanding gained from
   research directed toward proof of technological feasibility and assessment of operational and producibility
   rather than the development of hardware for service use. Employs demonstration activities intended to
   prove or test a technology or method.

2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an oper-
   ating environment as possible to assess the performance or cost reduction potential of advanced technology.
   Programs in this phase are generally system specific. Major outputs of Advanced Component Development
   and Prototypes are hardware and software components, or complete weapon systems, ready for operational
   and developmental testing and field use.

3. System Development and Demonstration concludes the program or project and prepares it for production.
   It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapon
   systems finalized for complete operational and developmental testing.

4. RDT&E Management Support is support for installations and operations for general research and develop-
   ment use. This category includes costs associated with test ranges, military construction maintenance sup-
   port for laboratories, operations and maintenance of test aircraft and ships, and studies and analysis in sup-
   port of the R&D program.

5. Operational Systems Development is concerned with development projects in support of programs or
   upgrades still in engineering and manufacturing development, which have received approval for production,
   for which production funds have been budgeted in subsequent fiscal years.

The following are representative program examples for each of the above major categories:

Basic Research—The Air Force supported basic researchers have developed a method to produce gallium
nitride material for use in improved semiconductor devices. This advance could enable improved electronics that
can perform in harsh environments. Possible applications include: remote-sensing platforms; displays and indica-
tors based on light-emitting diodes; laser diodes for optical data storage; and sensor and detector surveillance
systems, such as the solar-blind shield and biological agent detectors.

Air Force supported basic researchers have discovered a new method of improving digital signal processing
through holography. These holographic systems are able to record fast events that occur on the nanosecond
timescale. This advance could lead to significant improvements in our capability to track and identify enemy air-
craft and missile threats.

Applied Research—The Air Force’s Applied Research program is developing technologies to support the air
and space force of the future. Development of electronic components and subsystems for use in shallow-depth
phased-array radar antennas for persistent intelligence, surveillance, and reconnaissance and time-sensitive strike
capabilities. Such phased-array antennas, at 1/5 the cost of conventional antennas, could have direct application
to advanced unmanned aerial vehicles and fighter aircraft. Wireless Intrusion Detection System sensors for
information assurance were designed, developed, and field-tested. This program opens door for secure opera-
tion of military wireless networks based on this widely available and cost-effective technology.



86
                                                                         2005 Annual Financial Statement


Advanced Technology Development—The Air Force’s Advanced Technology Development program demon-
strates, in a realistic operational environment, integrated sets of technology to prove military worth and utility.
The first example was the AF and the Defense Advanced Research Projects Agency conducted a successful jetti-
son release of a weapon from a Boeing X-45A Joint Unmanned Combat Air System (J-UCAS) over the Precision
Impact Range Area (PIRA) at Edwards Air Force Base, CA. It is an aviation-first for a UAV to release from an
internal weapons bay. Secondly, AFRL also demonstrated a 330 Gigahertz detector that operates at frequencies
billions of times faster than the blink of an eye. This technology will be used to produce compact solid-state cir-
cuits operating at Terahertz frequencies. Likely technology application would be to enable a new generation of
sensors to enhance homeland security. Completed the final transition of the very successful Laser Infrared
Countermeasures Fly-out Experiment demonstration with a final risk reduction live fire missile test at Tonopah
National Test Range, Nevada. This test showed conclusively that Closed Loop Infrared Countermeasures jam-
ming techniques provide a robust capability against a wide variety of infrared missiles, including proliferated Man
Portable Air Defense Systems.

Developed a custom-molded, noise-attenuating earplug that enables seamless voice communications to and from
radios, while electronically passing all outside environmental sounds to the operator at safe levels.

Demonstration and Validation (Advanced Component Development and Prototypes)—The Air Force’s
Advanced Component Development and Prototypes (ACD&EP) programs are comprised of system specific
advanced technology integration efforts accomplished in an operational environment to help expedite transition
from the effort: In FY04 the Air Force successfully demonstrated Fighter Aircraft Command and Control
Enhancement (FACE). FACE provides an improved, beyond-line-of-sight (BLOS) command and control link with
fighter aircraft by integrating Iridium telephone communications equipment with existing aircraft communications
equipment. BLOS capability has traditionally been provided by low-density, high-demand airborne platforms act-
ing as communications relays. FACE provides relief for these overworked assets, while allowing combatant com-
manders to maintain positive control of the battle space. FACE, which has been approved for deployment to
Afghanistan through the Air Force's Rapid Response Process, has the potential for extensive use in virtually any
Area of Responsibility, including Homeland Defense.

In FY04, the joint DARPA/Air Force program office awarded Falcon contracts (other transaction agreements
administered by DARPA) for the development and demonstration of key technologies. The small responsive
launch vehicle portion (four contracts) is proceeding toward a FY05 down select (to one or more contractors)
with a launch no later than FY07 while the hypersonic test vehicle portion (one contract) is also working toward
a FY07 launch. The ultimate goal of this technology demonstration program is to demonstrate and validate key
technologies leading to residual capability and follow-on operational systems.

In FY05, the Air Force restructured and refocused the Space Radar (SR) program (formerly Space Base Radar) to
address congressional concerns with technical risk, affordability, and DoD-Intelligence Community (IC) integra-
tion. In January 2005, the Secretary of Defense (SECDEF) and the Director of Central intelligence (DCI) singed a
joint memo designating the SR program as the single space radar capability for the nation. The Undersecretary
of the Air Force appointed a two-star general as SR System Program Director (SPD) and Program Executive
Officer (PEO), and moved the SR Integrated Program Office (IPO) from Los Angeles, CA to Chantilly, VA in
order to foster greater synergy with the IC. The SR program implemented a demonstration framework
approach to system development. This approach will further technology maturity risk reduction and CONOPS
experimentation through a mix of space, air, and land-based demonstration activities that will maximize existing
assets. The SR program will provide day/night, all-weather global surface moving target indications (MTI), syn-
thetic aperture radar (SAR) and high-resolution terrain information (HRTI) capabilities from a space-based plat-
form. Initial launch capability is planned for FY 15.




                                                                                                                  87
        United States Air Force


Engineering and Manufacturing Development—The Air Force’s System Demonstration and Engineering
Development (SD&ED) efforts are development projects which have not received approval for full-production.
The F/A-22 Raptor program is closing out Engineering and Manufacturing Development (EMD) and is now in Full
Rate Production (FRP) following a successful Initial Operational Test and Evaluation (IOT&E) and Defense
Acquisition Board (DAB) approval. The F/A-22 Raptor is the key enabler of joint air dominance. The Raptor is a
transformational combat aircraft ready to counter persistent and emerging national security challenges for
decades. Its capabilities create desired effects when, where, and for the duration they are needed. The Raptor is
the best value for the money today, and the only fighter produced today that will defeat the threats of tomorrow.
The air force accepted the 50th F/A-22 on 5 October 05. The Air combat command stationed at Langley AFB,
Virginia, expects to achieve Initial Operational Capability (IOC) during December 05. Significant program accom-
plishments in fiscal year 2005 include:
•    DAB approval to commerce FRP March 2005

•    Delivery of first operational aircraft to the 27th Fighter Wing During May 2005

•    Commencement of Follow-on Test and Evaluation (FOT&E) during August 2005

•    The exceeding of over 3,400 flight test missions, logging in over 7,500 hours on the EMD aircraft fleet

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for the Air Force, Navy,
Marine Corps and our allies, with maximum commonality among the variants to minimize life cycle costs. The Air
Force Conventional Takeoff and Landing (CTOL) variant will be a multi-role, primary air-to-ground aircraft to
replace the F-16 and A-10 and complement the F/A-22. While the F/A-22 will establish air dominance, the F-35--
-with its combination of stealth, large internal payloads and multi-spectral avionics---will provide persistent stealth
and precision engagement to the future battlespace. The F-35 has been in System Development and
Demonstration (SDD) since 2001. In May 2005, the USD(AT&L) formally approved a program restructure to
address design maturity issues. The F-35 is still projected to meet or exceed all Key Performance Parameters.
Significant program accomplishments in fiscal year 2005 include:
•    Assembly and power on of the first CTOL aircraft

•    $2.4B contract awarded to General Electric/Rolls Royce Fighter Engine Team for F136 Engine SDD

•    Began assembly of first Short Takeoff and Vertical landing (STOVL) aircraft

The last block of the B-1 Conventional Mission Upgrade Program (CMUP) completed development and entered
full rate production. The B-1 successfully fielded JSOW and JASSM capability, achieving Required Assets Available
(RAS) in October 2004; the user declared Initial Operating Capability (IOC) for JASSM on the B-1 in August 2005;
and the Block E computer deliveries continued under an accelerated schedule, with new computers installed in
54 of the 67 B-1 aircraft as of September 2005. Since production is almost complete, the B-1 CMUP program
was removed from OSD oversight.

The Multi-Platform – Radar Technology Insertion Program is being developed for the Global Hawk and E-10 pro-
grams as an interoperable platform-independent Ground Moving Target indicator (GMTI), Synthetic Aperture
Radar (SAR) imaging, and Air Moving Target Indicator (AMTI) system-of-systems capable of providing dynamic
support to operations. The MP-RTIP development is on cost and on schedule, building upon the FY 04 achieve-
ments of a Final Design Review and successful lab demonstration of a Global hawk-size radar. MP-RTIP has begun
developmental fabrication for both the Global Hawk and the E-10 radars. The Global Hawk developmental test-
ing remains on track to begin in 2007 with production deliveries projected for 2010. Additionally, the E-10 MP-
RTIP variant is on schedule for a first flight demonstration in 2010. The capability that MP-RTIP promises will
enhance the mission areas of air and surface surveillance and tracking with faster revisit rates, increased resolu-



88
                                                                         2005 Annual Financial Statement


tion, simultaneous tracking and SAR imaging, as well as, cruise missile defense capability. The program’s contin-
ued schedule delivery for the Global Hawk program ensures next generation radar technology on time to the
Warfighter.

The Theater Battle Management Core Systems (TBMCS) develops force-level and wing-level command, control,
and intelligence systems to support the operational functions of the Joint Forces Air Component Commander.
TBMCS has been designated the Joint System of Record for Air Tasking Order/Airspace Control Order genera-
tion within the Department of Defense. The system has shown its flexibility by successful employments in sup-
port of the Global War on Terror (OIF, OEF, ONE) as well as in support of humanitarian relief efforts (Tsunami
Relief, and Hurricanes Katrina and Rita Relief ). TBMCS generated over 83,000 sorties for OIF/OEF in FY04 and
over 77,000 sorties in FY05. TBMCS Version 1.1.3 successfully passed test and was released to the field, provid-
ing numerous system improvements.

In FY04, the Air Force awarded contracts for Transformational Satellite Communications System (TSAT) space
segment development and continued technology development for the next-generation communication satellite.
The TSAT program will develop key technologies such as laser communications, internet-like communications
protocols, and methods of dynamically allocating communications capability among users. The program made
tremendous progress in FY 05. Key TSAT technologies were demonstrated during key risk reduction testing,
and both contractors completed a successful interim Space Segment design review. As a result, sufficient risk has
been retired for four of the seven key technical challenges to advance them to Technology Readiness Level (TRL)
6. A Request For Proposal for the TSAT Network and Mission Operations contract was released and a single
contract is to be awarded in early FY 06. The ultimate goal is a FY 14 first launch of TSAT.

The Counter Communications Systems first system was delivered in December 2003. Air Force Space
Command declared initial capability on Sept. 24, 2004, after the final two systems were delivered. The Counter
Communications Systems (CCS) is operated by the 76th Space Control Squadron at Peterson AFB, Co., and is a
transportable ground-based system that denies adversary satellite communications through reversible, non-
destructive methods.

Research, Development, Test and Evaluation Management Support—The Air Force’s Research,
Development, Test and Evaluation (RDT&E) Management Support efforts include projects directed toward sup-
port of installation or operations required for general research and development use. Included would be test
ranges, military construction, maintenance support of laboratories, operation and maintenance of test aircraft and
ships, and studies and analyses in support of the research and development program. Example of Air Force
RDT&E management support is: The Major Test and Evaluation Investment program, which funds the planning,
improvements and modernization for three national asset test centers having over $10 billion of unique test facili-
ties/capabilities operated and maintained by the Air Force for the Department of Defense (DoD) test and evalua-
tion missions, and available to others having a requirement for their unique capabilities. The test capabilities and
facilities are operated and maintained by the Air Force for the DoD test and evaluation missions, and are available
to others having a requirement for their unique capabilities. Many efforts are contained within this program, but
two examples are the Propulsion Wind Tunnel Upgrade at Arnold Engineering Development Center. This effort
replaces outdated data acquisition, processing, and control systems and drive motors. A second example is the
Threat Simulator Development program, which supports many of the AF Electronic Warfare Test Processes.
Current projects focus on improved Low Radar Cross Section threat modeling and simulation, and enhanced
infrared and radio frequency countermeasures testing.

Operational Systems Development — The Air Force’s operational system efforts include projects in support
of development acquisition programs or upgrades in System Demonstration and Development (SDD). Examples
of operational systems development are: The AIM-9X Short Range Missile (SRM) completed Milestone III in May




                                                                                                                 89
       United States Air Force


2004, and Full-Rate Production was approved with the first full-rate production lot (Lot 5) awarded in first quar-
ter of Fiscal year 2005. Lot 6 will be awarded in First Quarter FY 2006 and platform integration efforts for the F-
16 and F-18E/F remain on track.

The Phase 3 (AIM-120C-7) effort completed System Demonstration and Development (SDD) in May 2004 and
has begun Operational Test (OT). Production units for this variant began in the fourth quarter FY 2004 and will
complete in the fourth quarter FY 2007. The AIM-120C-7 provides a major upgrade over the AIM-120C-6 guid-
ance section, particularly the use of circular processor cards over previously used rectangular cards. These cards
provide significant space savings within the missile for added capability in addition to providing greater processing
power.

AMRAAM Phase 4 (AIM-120D) builds on the AIM-120C-7 capability and is progressing. This new AIM-120D mis-
sile will add a GPS/INU and a 2-way Data Link to enhance accuracy and control, and thus, increasing weapon
effectiveness. In addition, the AIM-120D will have increased range and third party targeting which expands the
HOBS launch envelope. The SDD contract was awarded in December 2003 and initial systems integration testing
of the Proof of Design (POD) missile began in September 2005.

The Joint Direct Attack Munition Program completed the SAASM/Anti-Jam 27 month effort that commenced in
FY 2003. SAASM/AJ capability decreases vulnerability to crypto compromise and spoofing as well as enhanced
anti-jam performance. All JDAMS delivered in Lot 9 (starting in FY 2006) and beyond will be SAASM capable.
The 9,000 JDAMs delivered in Lot 9 will also be AJ capable. Future AJ quantities will be determined by ACC and
AF/XOR.

The JDAM program also started developing the JDAM supplement to the Universal Armament Interface (UAI)
interface control document (ICD). JDAM’s UAI ICD will be ready for integration on the F-15E’s Suite 6
Operational Flight Program (OFP). UAI will reduce the complexity, schedule and cost of the weapon-aircraft
integration process, decoupling weapon integration from aircraft OFP cycles.

The Small Diameter Bomb I (SDB I) program will increase the number of kills per platform or sortie (x4) while
achieving required effects by improving accuracy and reducing collateral damage over current inventory weapons.
SDB I is an incremental development weapon program that entered a 36-month System Development and
Demonstration (SDD) of its first increment in FY04. The first Increment of SDB I will attack fixed and stationary
targets using anti-jam/SAASM Inertial Navigation System (INS)/Global Positioning Satellite (GPS) aided by a very
wide area differential GPS solution and standoff capability. The program has successfully completed 29 free flight
events and entered the IOT&E phase of Seamless Verification in Oct 2005. The program completed a successful
MS C decision in April 05 with Required Assets Available (RAA) scheduled for September 2006. The SDB will
provide transformational capability to the Air Force by increasing loadout per weapon station on multiple plat-
forms, reducing sorties and minimizing collateral damage.

The predator program successfully completed development and testing of Multiple Aircraft Control (MAC)
Ground Control Stations (GCS). The MAC capability will allow a single pilot to control up to four Predators
simultaneously from a single GSC. The first MAC GCS is scheduled to be available for operations late in CY 05.

The Air Force Space program achieved four successful launches of military satellites, utilizing Titan, Atlas & Delta
to launch NROL-23, NROL-16, GPS IIR-13, DSP-22 and GPS IIR-14.

The Air Force continues to develop the Family of Advanced Beyond Line of Sight Terminals (FAB-T) to provide
robust, secure, strategic and tactical global communications for nuclear and conventional forces. This family of
terminals will provide transformational communications via connectivity to Advanced EHF satellites (AEHF),
Wideband Gapfiller Satellites (WGS), and the future Transformational Satellite Communications System (TSAT).
Future increments of this terminal will provide laser communications in conjunction with optical capabilities on



90
                                                                           2005 Annual Financial Statement


TSAT to deliver data in excess of one GB per second, as well as a new multi-band antenna that will enable air-
craft to have simultaneous connectivity to multiple satellites via a phased array construct. This capability will allow
the Air Force to reduce the costs of integrating multiple antennas to communicate with different satellite constel-
lations.

In FY04, the Air Force conducted a successful Preliminary Design Review for the Space Based Space Surveillance
(SBSS) pathfinder satellite. The SBSS pathfinder program will design, build, launch and operate this single satel-
lite with a visible sensor payload, as well as build and operate a ground segment to support initial satellite opera-
tions. The SBSS Pathfinder will detect and track objects in Earth orbit, contributing to timely space situation
awareness, and is scheduled to launch in late 2009.

In FY05, the Air Force awarded a contract to begin architecture development for the Orbital Deep Space Imager
(ODSI). In FY 05, three concept study contracts were awarded to further define the ODSI system. The ODSI
program will deploy a satellite constellation for characterization of objects in deep space in support of overall
battlespace awareness. The first ODSI launch is scheduled for FY13.

Successfully completed initial operational test and evaluation on the Safety Enhanced Reentry Vehicle (SERV) pro-
gram. The SERV program allows the Minuteman III system to use the Mk21 reentry vehicle, originally developed
for the recently retired Peacekeeper missile. The Mk21 has the most modern safety features of any such
weapon in the DoD inventory.




                                                                                                                    91
     United States Air Force




                               This page intentionally left blank.




92
           2005 Annual Financial Statement




General Fund

   Required
Supplementary
 Information




                                        93
        United States Air Force


Disaggregated Statement of Budgetary Resources—General Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                     Research, Development,           Operation and
                                                   Other                Test & Evaluation             Maintenance
BUDGETARY RESOURCES
1. Budget Authority:
  1a. Appropriations received               $      400,148.00    $               21,029,922.00    $       40,070,798.00
  1b. Borrowing authority                                   0                                0                        0
  1c. Contract authority                                    0                                0                        0
  1d. Net transfers (+/-)                         -396,384.00                      -316,894.00               657,368.00
  1e. Other                                                 0                                0                        0
2. Unobligated balance:
  2a. Beginning of period                            3,224.00                     1,998,848.00              1,394,749.00
  2b. Net transfers, actual (+/-)                           0                        51,366.00              1,017,182.00
  2c. Anticipated Transfers Balances                        0                                0                         0
3. Spending authority from
offsetting collections:
  3a. Earned                                                0                                0                         0
    1. Collected                                    12,799.00                     3,251,279.00              4,908,057.00
    2. Receivable from Federal sources                     18                        83,152.00                 67,108.00
  3b. Change in unfilled customer orders                    0                                0                         0
    1. Advance received                                     0                       129,002.00                179,530.00
    2. Without advance                                      0                       292,629.00                 47,970.00
      from Federal sources
  3c. Anticipated for the rest of year                      0                                 0                       0
      without advances
  3d. Transfers from trust funds                            0                               0                         0
  3e. Subtotal                                              0                               0                         0
4. Recoveries of prior year obligations                     0                      101,851.00                747,049.00
5. Temporarily not available
pursuant to Public Law                                      0                                0                        0
6. Permanently not available                             -984                      -345,781.00              -455,689.00
7. Total Budgetary Resources                $       18,821.00    $               26,275,374.00    $       48,634,122.00

STATUS OF BUDGETARY
RESOURCES
8. Obligations incurred:                    $
  8a. Direct                                         2,167.00                    19,969,969.00            42,232,853.00
  8b. Reimbursable                                  12,817.00                     3,563,491.00             5,301,449.00
  8c. Subtotal                                      14,984.00                    23,533,460.00            47,534,302.00
9. Unobligated balance:
  9a. Apportioned apportionment                          619                      3,004,781.00               109,810.00
  9b. Exempt from                                    3,218.00                                0                        0
  9c. Other available                                       0                                0                        0
10. Unobligated Balances Not Available                      0                      -262,869.00               990,008.00
11. Total, Status of                        $       18,821.00    $               26,275,372.00    $       48,634,120.00
Budgetary Resources

12. Obligated Balance, Beginning of period $         7,295.00    $                7,873,000.00    $       16,814,207.00

13. Obligated Balance transferred, net (+/-)                0                                 0                       0
14. Obligated Balance, Net -
end of period:
 14a. Accounts receivable                                  -21                     -306,141.00             -1,233,620.00
 14b.
 Unfilled customer order from Federal sour
 ces                                                         0                     -668,570.00              -352,350.00
 14c. Undelivered orders                         -1,653,633.00                    6,865,398.00            15,042,094.00
 14d. Accounts payable                            1,655,446.00                    1,017,709.00             2,550,650.00
15. Outlays:
 15a. Disbursements                                 20,469.00                    24,020,435.00            47,479,609.00
 15b. Collections                                  -12,799.00                    -3,380,281.00            -5,087,587.00
 15c. Subtotal                                       7,670.00                    20,640,154.00            42,392,022.00
16. Less: Offsetting receipts                     -123,202.00                                0                        0
17. Net Outlays                              $    -115,532.00    $               20,640,154.00    $       42,392,022.00




94
                                                                                       2005 Annual Financial Statement




                         Military         Military Construction/
    Procurement         Personnel            Family Housing            2005 Combined       2004 Combined



$     35,420,540.00 $   29,748,267.00 $              2,221,293.00 $     128,890,968.00 $    125,483,786.00
                  0                 0                           0                    0                   0
                  0                 0                           0                    0                   0
          79,150.00        595,812.00                   19,101.00           638,153.00          -29,394.00
                  0                 0                           0                    0                   0

       4,190,942.00       438,056.00                 1,017,546.00         9,043,364.00        9,189,946.00
         934,644.00        29,670.00                   -72,576.00         1,960,286.00          245,938.00
                  0                0                            0                    0                   0


                 0                 0                             0                   0                   0
        348,393.00        404,173.00                     -1,168.00        8,923,532.00        8,117,605.00
        -15,504.00          8,175.00                             0          142,948.00          317,565.00
                 0                 0                             0                   0                   0
         39,970.00                 0                      1,168.00          349,671.00          188,072.00
         47,939.00                 5                             0          388,543.00         -109,981.00

                  0                 0                              0                 0                   0

                 0                 0                            0                    0                   0
                 0                 0                            0                    0                   0
        159,945.00        283,903.00                     7,443.00         1,300,191.00        1,431,079.00

                  0                 0                           0                    0                   0
        -524,296.00        -93,554.00                  -73,164.00        -1,493,468.00       -1,437,653.00
$     40,681,723.00 $   31,414,507.00 $              3,119,643.00 $     150,144,188.00 $    143,396,963.00




      33,054,632.00     27,781,820.00                1,647,983.00       124,689,424.00      129,913,273.00
         341,456.00      3,229,342.00                           0        12,448,555.00        4,447,386.00
      33,396,088.00     31,011,162.00                1,647,983.00       137,137,979.00      134,360,659.00

       7,108,817.00         69,381.00                1,463,473.00        11,756,881.00        8,072,566.00
                  0                 0                           0             3,218.00            2,709.00
                  0                 0                           0                    1                  -1
         176,818.00        333,964.00                    8,187.00         1,246,109.00          961,030.00
$     40,681,723.00 $   31,414,507.00 $              3,119,643.00 $     150,144,188.00 $    143,396,963.00


$     22,352,881.00 $    1,806,465.00 $              2,650,285.00 $      51,504,133.00 $     50,541,583.00

                  0                 0                              0                 0                   0


         -40,468.00        -39,309.00                              0      -1,619,560.00       -1,476,612.00


        -195,009.00               -6                            0        -1,215,937.00         -827,393.00
      20,097,550.00        36,878.00                 2,255,441.00        42,643,727.00       42,309,792.00
       3,142,426.00       770,666.00                    60,157.00         9,197,053.00       11,505,411.00

      32,552,090.00     31,757,316.00                1,975,227.00       137,805,147.00      131,752,381.00
        -388,363.00       -404,173.00                           0        -9,273,203.00       -8,305,678.00
      32,163,727.00     31,353,143.00                1,975,227.00       128,531,944.00      123,446,703.00
                  0                 0                           0          -123,202.00         -115,376.00
$     32,163,727.00 $   31,353,143.00 $              1,975,227.00 $     128,408,742.00 $    123,331,327.00




                                                                                                                    95
         United States Air Force


                                 General Property, Plant, and Equipment
                    Real Property Deferred Annual Sustainment and RestorationTables

                                        As of September 30, 2005 ($ in thousands)

                                                             Annual Sustainment FY 2005
           Property Type                      1. Required    2. Appropriated  3. Executed 4. Difference
Buildings, Structures, and Utilities               2,540,229        2,369,899     1,949,650    $590,579

Notes:
1. FY05 O&M Sustainment figures include subsidies and MILPERS contribution (49% of MILPAY).

2. FY05 O&M Sustainment Required is based on Facilities Sustainment Model (FSM 5.1) per business rule direc-
tion of OSD (AT&L).

3. FY05 O&M Sustainment Appropriated amount is the FY05 PB plus/minus Congressional marks.

4. FY05 O&M Sustainment Actuals were pulled from the CRIS database. The numbers are not certified DFAS
numbers and are subject to change. Certifed numbers for FY05 obligations are not expected until late Oct/early
Nov 05.

5. MFH annual sustainment requirements are based upon data reflected in the 2002 Family Housing Master Plan.
These requirements are further refined based upon a combination of historical expenditures for day-to-day main-
tenance and condition assessment surveys for MFH real property maintenance by contract, and take into account
programmatic changes such as housing privatization initiatives.

                                                          Annual Deferred Sustainment Trend
           Property Type                        FY 2002          FY 2003         FY 2004          FY 2005
Buildings, Structures, and Utillities                808,628          417,112       550,609          590,579

Notes
RDT&E Sustainment funding obligations and expenditures are not available prior to FY04; appropriation/program
element structure did not facilitate an accurate determination of this number.




96
                                                                        2005 Annual Financial Statement


                                               Military Equipment
                                         Deferred Maintenance Amounts

                                   As of September 30, 2005 ($ in thousands)

                                                   Military Equipment
                                           Deferred Maintenance Amounts
                            As of September 30, 2005 (Amounts in Thousands)
                                             (a)                        (b)

                           Major Type

                           1. Aircraft                                         $70,980
                           2. Engines                                          $21,580
                           3. Missiles                                          $2,400
                           4. Software                                         $44,800

                           5. Other Major End Items                            $17,500
                           6. Non-MSD Exchangeables

                           7. Area Base Maintenance

                           8. Storage

                           Total                                              $157,260



The figures presented are actual deferred maintenance amounts for FY05. The figures include Active Air Force,
Air National Guard and the Air Force Reserve.




                                                                                                            97
          United States Air Force


Required Supplemental Information - Part A
                                                                           Fund Balance     Accounts          Loans
AT57 - Air Force General Fund                            Treasury Index:                                                 Investments      Other
                                                                           with Treasury    Receivable      Receivable
Schedule, Part A DoD Intra-governmental Asset Balances
Executive Office of the President                             11                                    $2.00
Department of Agriculture                                     12                                $2,219.00
Department of Commerce                                        13                                 $553.00                                  $10,745.00
Department of the Interior                                    14                                $1,831.00                                $124,048.00
Department of Justice                                         15                                $3,859.00                                   $780.00
Department of Labor                                           16                                   $12.00
Navy General Fund                                             17                               $43,215.00
United States Postal Service                                  18                                 $153.00
Department of State                                           19                               $19,873.00
Department of the Treasury                                    20           $62,350,242.00       $3,386.00                      $717.00         $0.00
Army General Fund                                             21                               $26,277.00                                  $2,249.00
Office of Personnel Management                                24                                    $6.00                                 $52,822.00
Social Security Administration                                28                                    $1.00
Library of Congress                                            3                                    $4.00
Nuclear Regulatory Commission                                 31                                    $7.00
Department of Veterans Affairs                                36                                 $217.00
Government Printing Office                                     4                                    $0.00
General Service Administration                                47                                 $888.00                                   $2,339.00
National Science Foundation                                   49                               $12,594.00                                  $1,413.00
General Accounting Office                                      5                                    $2.00
Central Intelligence Agency                                   56                                 $202.00
Environmental Protection Agency                               68                                   $82.00                                  $9,701.00
Department of Transportation                                  69                               $23,437.00                                  $1,484.00
Homeland Security                                             70                                $8,939.00                                  ($122.00)
Agency for International Development                          72                                 $659.00
Small Business Administration                                 73                                                                            $109.00
Department of Health and Human Services                       75                                 $158.00
National Aeronautics and Space Administration                 80                               $11,098.00                                 $45,692.00
National Archives and Records Administration                  88                                   $25.00
Department of Energy                                          89                                $7,117.00                                  $4,480.00
Department of Education                                       91                                   $41.00
US Army Corps of Engineers                                    96                                 $102.00
Other Defense Organizations General Funds                     97                              $109,542.00                                     $91.00
Other Defense Organizations Working Capital Funds           97-4930                           $293,245.00                                 $38,044.00
Army Working Capital Fund                                 97-4930.001                            $421.00
Navy Working Capital Fund                                 97-4930.002                           $1,029.00                                      $3.00
Air Force Working Capital Fund                            97-4930.003                          $82,392.00                                $134,111.00




98
                                                                                  2005 Annual Financial Statement


                                                                                              Debts/ Borrowings
Required Supplemental Information - Part B                                      Accounts
                                                              Treasury Index:                    From Other        Other
Schedule, Part B DoD Intra-governmental entity liabilities.                      Payable
                                                                                                  Agencies
Department of Agriculture                                          12              $225.00
Department of Commerce                                             13             $3,491.00                            $19.00
Department of the Interior                                         14             $3,099.00                             $1.00
Department of Justice                                              15             $2,523.00                         $8,105.00
Department of Labor                                                16                                             $324,795.00
Navy General Fund                                                  17            $25,208.00                       $101,858.00
Department of State                                                19             $5,626.00
Department of the Treasury                                         20            $14,530.00                          $124.00
Army General Fund                                                  21            $58,326.00                        $15,778.00
Office of Personnel Management                                      24                $0.00                        $50,083.00
Federal Communications Commission                                  27              $140.00
Social Security Administration                                      28                $2.00
Nuclear Regulatory Commission                                      31                $66.00
Department of Veterans Affairs                                     36             $8,928.00
General Service Administration                                     47           $269,895.00                           $24.00
National Science Foundation                                        49             $3,085.00
Tennessee Valley Authority                                          64            $2,475.00
Environmental Protection Agency                                    68                $12.00
Department of Transportation                                       69            $42,551.00                          $351.00
Homeland Security                                                  70            $14,526.00
Agency for International Development                                72           $11,760.00
Department of Health and Human Services                             75             $268.00                              $0.00
National Aeronautics and Space Administration                      80            $75,970.00                             $8.00
Department of Energy                                               89            $27,052.00                         $3,110.00
US Army Corps of Engineers                                          96            $1,035.00
Other Defense Organizations General Funds                          97            $61,219.00                       $397,780.00
Other Defense Organizations Working Capital Funds                97-4930        $586,952.00                            $62.00
Army Working Capital Fund                                      97-4930.001        $5,609.00
Navy Working Capital Fund                                      97-4930.002       $15,615.00
Air Force Working Capital Fund                                 97-4930.003      $411,716.00                        $48,076.00
The General Fund of the Treasury                                   99                                             $639,694.00




                                                                                                                                99
      United States Air Force


         Required Supplemental Information - Part C
         AT57 - Air Force General Fund                                             Treasury Index:   Earned Revenue
         Schedule, Part C DoD Intra-governmental revenue and related costs.
         Executive Office of the President                                              11                  $8,787.00
         Department of Agriculture                                                      12                  $2,008.00
         Department of Commerce                                                         13                   $565.00
         Department of the Interior                                                     14                   $308.00
         Department of Justice                                                          15                 $13,434.00
         Department of Labor                                                            16                   $268.00
         Navy General Fund                                                              17               $283,057.00
         United States Postal Service                                                    18                  $580.00
         Department of State                                                            19                 $29,538.00
         Department of the Treasury                                                     20                 $41,685.00
         Army General Fund                                                              21               $179,263.00
         Office of Personnel Management                                                  24                     $7.00
         Library of Congress                                                             3                     $33.00
         Nuclear Regulatory Commission                                                   31                     $7.00
         Department of Veterans Affairs                                                 36                   $829.00
         Government Printing Office                                                      4                      $2.00
         General Service Administration                                                 47                  $1,991.00
         National Science Foundation                                                    49                 $61,202.00
         General Accounting Office                                                       5                     $21.00
         Central Intelligence Agency                                                    56                  $1,315.00
         Environmental Protection Agency                                                68                   $710.00
         Department of Transportation                                                   69                 $29,372.00
         Homeland Security                                                              70                 $60,648.00
         Agency for International Development                                            72                $62,130.00
         Department of Health and Human Services                                        75                   $254.00
         National Aeronautics and Space Administration                                  80                 $72,188.00
         National Archives and Records Administration                                   88                     $25.00
         Department of Energy                                                           89                 $25,459.00
         Department of Education                                                        91                   $157.00
         US Army Corps of Engineers                                                     96                  $4,095.00
         Other Defense Organizations General Funds                                       97             $1,486,905.00
         Other Defense Organizations Working Capital Funds                            97-4930           $1,259,887.00
         Army Working Capital Fund                                                  97-4930.001             $1,808.00
         Navy Working Capital Fund                                                  97-4930.002            $19,011.00
         Air Force Working Capital Fund                                             97-4930.003          $331,083.00
         Military Retirement Fund                                                     97-8097                   $0.00
         DoD Medicare-Eligible Retiree Health Care Fund                                                  $181,752.00




          Required Supplemental Information - Part E
          AT57 - Air Force General Fund                          Treasury Index:    Transfers In     Transfers Out
          ($Amounts in Thousands)
          Navy General Fund                                            17                                     $21.00
          Army General Fund                                            21                                 $36,234.00
          Other Defense Organizations General Funds                    97             $145,255.00        $135,630.00
          Other Defense Organizations Working Capital Funds          97-4930          $968,182.00




100
           2005 Annual Financial Statement




General Fund

Audit Opinion




                                       101
      United States Air Force




102
2005 Annual Financial Statement




                            103
      United States Air Force




104
2005 Annual Financial Statement




                            105
      United States Air Force




106
2005 Annual Financial Statement




                            107
      United States Air Force




                                This page intentionally left blank.




108
              2005 Annual Financial Statement




Working Capital Fund

Principal Statements




                                          109
      United States Air Force




                                This page intentionally left blank.




110
                                                                               2005 Annual Financial Statement


Consolidated Balance Sheet—Working Capital Fund
As of September 30, 2005 and 2004 ($ in Thousands)

                                                                                   2005                   2004
                                                                                Consolidated           Consolidated
1. ASSETS (Note 2)
   A. Intra-governmental:
     1. Fund Balance with Treasury (Note 3)
        a. Entity                                                          $         1,164,223     $        1,051,110
        b. Non-Entity Seized Iraqi Cash                                                      0                      0
        c. Non-Entity-Other                                                                  0                      0
      2. Investments (Note 4)                                                                0                      0
      3. Accounts Receivable (Note 5)                                                  510,560                576,396
      4. Other Assets (Note 6)                                                          48,515                     10
      5. Total Intra-governmental Assets                                   $         1,723,298     $        1,627,516
   B. Cash and Other Monetary Assets (Note 7)                              $                 0     $                0
   C. Accounts Receivable (Note 5)                                                     219,929                103,111
   D. Loans Receivable (Note 8)                                                              0                      0
   E. Inventory and Related Property (Note 9)                                       32,701,689             28,311,805
   F. General Property, Plant and Equipment (Note 10)                                1,205,556              1,197,683
   G. Investments (Note 4)                                                                   0                      0
   H. Other Assets (Note 6)                                                            440,337                788,966
2. TOTAL ASSETS                                                            $        36,290,809     $       32,029,081
3. LIABILITIES (Note 11)
   A. Intra-governmental:
     1. Accounts Payable (Note 12)                                         $           199,650     $          256,763
     2. Debt (Note 13)                                                                       0                      0
     3. Other Liabilities (Note 15 & Note 16)                                          146,538                243,131
     4. Total Intra-governmental Liabilities                               $           346,188     $          499,894
   B. Accounts Payable (Note 12)                                           $           546,739     $          497,471
   C. Military Retirement Benefits and Other Employment-Related                        233,713                238,729
   D. Actuarial Liabilities (Note 17)
   E. Environmental Liabilities (Note 14)                                                      0                      0
   F. Loan Guarantee Liability (Note 8)                                                        0                      0
   G. Other Liabilities (Note 15 and Note 16)                                         1,389,331             1,616,321
  TOTAL LIABILITIES                                                        $          2,515,971    $        2,852,415
4. NET POSITION
   A. Unexpended Appropriations                                            $                 0     $                0
   B. Cumulative Results of Operations                                              33,774,838             29,176,666
6. TOTAL NET POSITION                                                      $        33,774,838     $       29,176,666
7. TOTAL LIABILITIES AND NET POSITION                                      $        36,290,809     $       32,029,081




The accompanying notes are an integral part of the financial statements.


                                                                                                                      111
      United States Air Force


Consolidated Statement of Net Cost—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                          2005                   2004
                                                                       Consolidated           Consolidated
1. Program Costs
   A. Intra-governmental Gross Costs                               $         5,312,719    $        5,399,793
   B. (Less: Intra-governmental Earned Revenue)                            -10,643,244           -11,888,462
   C. Intragovernmental Net Costs                                  $        -5,330,525    $       -6,488,669
   D. Gross Costs With the Public                                            5,201,476             8,674,787
   E. (Less: Earned Revenue From the Public)                                  -771,703              -891,419
   F. Net Costs With the Public                                    $         4,429,773    $        7,783,368
   G. Total Net Cost                                               $          -900,752    $        1,294,699
2. Cost Not Assigned to Programs                                                      0                      0
3. (Less: Earned Revenue Not Attributable to Programs)                                0                      0
4. Net Cost of Operations                                          $         -900,752     $        1,294,699




The accompanying notes are an integral part of the financial statements.


112
                                                                           2005 Annual Financial Statement


Consolidated Statement of Changes in Net Position—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)
                                                                                    2005                2004
                                                                                 Consolidated        Consolidated

CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                                        $      21,890,389   $      11,537,088
2. Adjustments (+/-)
   2a. Changes in Accounting Principles (+/-)                                        3,632,598             699,393
   2b. Correction of Errors (+/-)                                                    7,256,576          18,656,733
3. Beginning Balances, as adjusted                                                  32,779,563          30,893,214
4. Budgetary Financing Sources:                                                              0                   0
   4a. Appropriations received                                                               0                   0
   4b. Appropriations transferred-in/out (+/-)                                               0                   0
   4c. Other adjustments (rescissions, etc) (+/-)                                            0                   0
   4d. Appropriations used                                                                   0                   0
   4e. Nonexchange revenue                                                                   0                   0
   4f. Donations and forfeitures of cash and cash equivalents                                0                   0
   4g. Transfers-in/out without reimbursement (+/-)                                    -73,911            -580,900
   4h. Other budgetary financing sources (+/-)                                               0                   0
5. Other Financing Sources:                                                                  0                   0
   5a. Donations and forfeitures of property                                                 0                   0
   5b. Transfers-in/out without reimbursement (+/-)                                          0                  34
   5c. Imputed financing from costs absorbed by others                                 168,434             159,017
   5d. Other (+/-)                                                                           0                   0
6. Total Financing Sources                                                              94,523            -421,849
7. Net Cost of Operations (+/-)                                                       -900,752           1,294,699
8. Net Change                                                                          995,275          -1,716,548
9. Ending Balance                                                            $      33,774,838   $      29,176,666




The accompanying notes are an integral part of the financial statements.



                                                                                                               113
        United States Air Force


Combined Statement of Budgetary Resources—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)
                                                                  2005               2004
                                                                Combined           Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
1. Budget Authority:
   1a. Appropriations received                              $             0    $             0
   1b. Borrowing authority                                                0                  0
   1c. Contract authority                                         9,744,293            684,378
   1d. Net transfers (+/-)                                                0                  0
   1e. Other                                                              0                  0
2. Unobligated balance:
   2a. Beginning of period                                          134,440            607,130
   2b. Net transfers, actual (+/-)                                  -73,911           -580,900
   2c. Anticipated Transfers Balances                                     0                  0
3. Spending authority from offsetting collections:
   3a. Earned                                                              0                 0
       1. Collected                                               16,559,412        17,824,823
       2. Receivable from Federal sources                             50,393          -186,398
   3b. Change in unfilled customer orders                                  0                 0
       1. Advance received                                          -121,421          -173,221
       2. Without advance from Federal sources                       692,744          -733,915
   3c. Anticipated for the rest of year, without advances                  0                 0
   3d. Previously unavailable                                              0                 0
   3e. Transfers for trust funds                                           0                 0
   3f. Subtotal                                                   17,181,128        16,731,289
4. Recoveries of prior year obligations                                    4             3,180
5. Temporarily not available pursuant to Public Law                        0                 0
6. Permanently not available                                     -10,801,211           -36,669
7. Total Budgetary Resources                                $     16,184,743   $    17,408,408

STATUS OF BUDGETARY RESOURCES
8. Obligations incurred:
   8a. Direct                                               $             0    $         2,027
   8b. Reimbursable                                              15,892,064         17,271,941
   8c. Subtotal                                                  15,892,064         17,273,968
9. Unobligated balance:
   9a. Apportioned                                                  292,678            134,440
   9b. Exempt from apportionment                                          0                  0
   9c. Other available                                                    1                  0
10. Unobligated Balances Not Available                                    0                  0
11. Total, Status of Budgetary Resources Relationship of    $    16,184,743    $    17,408,408
    Obligations to Outlays:
12. Obligated Balance, Net - beginning of period            $     4,755,983    $     3,317,312
13. Obligated Balance transferred, net (+/-)                              0                  0
14. Obligated Balance, Net - end of period:
    14a. Accounts receivable                                      -1,009,179           -958,783
    14b. Unfilled customer order from Federal sources             -3,958,214         -3,265,470
    14c. Undelivered orders                                        6,461,705          6,610,227
    14d. Accounts payable                                          2,159,623          2,370,008
15. Outlays:
     15a. Disbursements                                           16,250,968         16,752,435
     15b. Collections                                            -16,437,991        -17,651,602
     15c. Subtotal                                                  -187,023           -899,167
16. Less: Offsetting receipts                                              0                  0
17. Net Outlays                                             $       -187,023   $       -899,167

The accompanying notes are an integral part of the financial statements.



114
                                                                                                 2005 Annual Financial Statement


Combined Statement of Financing—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)
                                                                                                             2005                 2004
                                                                                                          Consolidated         Consolidated
 Resources Used to Finance Activities:
 Budgetary Resources Obligated
 1. Obligations incurred                                                                              $       15,892,064   $       17,273,968
 2. Less: Spending authority from offsetting collections                                                     -17,181,132          -16,734,469
    and recoveries (-)
 3. Obligations net of offsetting collections and recoveries                                                  -1,289,068              539,499
 4. Less: Offsetting receipts (-)                                                                                      0                    0
 5. Net obligations                                                                                           -1,289,068              539,499
 Other Resources
 6. Donations and forfeitures of property                                                                              0                    0
 7. Transfers in/out without reimbursement (+/-)                                                                       0                   34
 8. Imputed financing from costs absorbed by others                                                              168,434              159,017
 9. Other (+/-)                                                                                                        0                    0
 10. Net other resources used to finance activities                                                              168,434              159,051
 11. Total resources used to finance activities                                                               -1,120,634              698,550
      Resources Used to Finance Items not Part
      of the Net Cost of Operations
 12. Change in budgetary resources obligated for goods,
      services and benefits ordered but not yet provided
      12a. Undelivered Orders (-)                                                                                180,293             -951,116
      12b. Unfilled Customer Orders                                                                              571,323             -907,137
 13. Resources that fund expenses recognized in prior periods                                                     -5,775              -36,403
 14. Budgetary offsetting collections and receipts that                                                                0                    0
     do not affect net cost of operations
 15. Resources that finance the acquisition of assets                                                         -5,376,780           -2,686,199
 16. Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
      16a. Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                         0                    0
      16b. Other (+/-)                                                                                                 0                  -34
 17. Total resources used to finance items not part of the net cost of operations                             -4,630,939           -4,580,889
 18. Total resources used to finance the net cost of operations                                               -5,751,573           -3,882,339

 Components of the Net Cost of Operations that will
 not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                                                                0                      0
 20. Increase in environmental and disposal liability                                                                  0                      0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                                       0                      0
 22. Increase in exchange revenue receivable from the the public (-)                                                   0                      0
 23. Other (+/-)                                                                                                   5,961                      0
 24. Total components of Net Cost of Operations that                                                               5,961                      0
     will require or generate resources in future periods
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                                               190,703              259,260
 26. Revaluation of assets or liabilities (+/-)                                                                    3,193           -5,660,357
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                                                  0                    0
     27b. Cost of Goods Sold                                                                                   5,026,638            5,866,527
     27c. Operating Material & Supplies Used                                                                     416,094              325,585
     27d. Other                                                                                                 -791,768            4,386,023
 28. Total components of Net Cost of Operations that                                                           4,844,860            5,177,038
     will not require or generate resources
 29. Total components of net cost of operations that will not                                                  4,850,821            5,177,038
     require or generate resources in the current period                                              $         -900,752   $        1,294,699
 30. Net Cost of Operations




The accompanying notes are an integral part of the financial statements.



                                                                                                                                         115
      United States Air Force




                                This page intentionally left blank.




116
              2005 Annual Financial Statement




Working Capital Fund

  Footnotes to the
Principal Statements




                                          117
       United States Air Force


Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the
United States Air Force Working Capital Fund (AFWCF), as required by the “Chief Financial Officers (CFO) Act
of 1990,” expanded by the “Government Management Reform Act (GMRA) of 1994,” and other appropriate leg-
islation. The financial statements have been prepared from the books and records of the AFWCF in accordance
with “Department of Defense Financial Management Regulation (DoDFMR),” the Office of Management and
Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency Financial Statements” and, to the extent possi-
ble, Federal Generally Accepted Accounting Principles (GAAP). The accompanying financial statements account
for all resources for which the AFWCF is responsible, except that information relative to classified assets, pro-
grams, and operations. This information has been excluded from the statements or otherwise aggregated and
reported in such a manner that is no longer considered classified. The AFWCF’s financial statements are in addi-
tion to the financial reports that are prepared by the United States Air Force pursuant to OMB directives to mon-
itor and control the Air Force’s use of budgetary resources.

The AFWCF is unable to implement all elements of Federal GAAP and the OMB Bulletin No. 01-09, due to limi-
tations of its financial management processes and systems, including nonfinancial feeder systems and processes.
Reported values and information for the AFWCF's major asset and liability categories are derived largely from
nonfinancial feeder systems, such as inventory systems and logistic systems. These systems were designed to
support reporting requirements focusing on maintaining accountability over assets and reporting the status of fed-
eral appropriations, rather than preparing financial statements in accordance with Federal GAAP. The AFWCF
continues to implement process and system improvements addressing the limitations of its financial and nonfinan-
cial feeder systems. A more detailed explanation of these financial statement elements is provided in the applica-
ble footnote.

The AFWCF continues to enter material amounts of unsupported accounting entries. Financial and nonfinancial
feeder systems continue to lack sufficient customer identification necessary to accurately process eliminations.
The issue has been addressed as part of the Air Force plan for obtaining a favorable opinion by FY 2007. This
was also disclosed in the DoD Agency-wide Note 1.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947 by the National Security Act of 1947. The
National Security Act Amendments of 1949 established the DoD and made the Air Force a department within the
DoD. The overall mission of the DoD is to organize, train, and equip armed forces to deter aggression and, if
necessary, defeat aggressors of the United States and its allies. The overall mission of the Air Force is to defend
the United States through control and exploitation of air and space.

The stock and industrial revolving fund accounts were created by the National Security Act of 1947, as amended
in 1949 and codified in Title 10, U.S.C., Section 2208. The revolving funds were established as a means to more
effectively control the cost of work performed by the DoD. The DoD began operating under the revolving fund
concept as early as July 1, 1951.

1.C. Appropriations and Funds
The Air Force’s funds are divided into the general, working capital (revolving funds), trust, special, and deposit
funds. These appropriations and funds are used to fund and report how the resources have been used in the
course of executing the Air Force’s missions.




118
                                                                         2005 Annual Financial Statement


Working Capital Funds receive their initial working capital through an appropriation or a transfer of resources
from existing appropriations or funds, and use those capital resources to finance the initial cost of products and
services. Financial resources to replenish the initial working capital and to permit continuing operations are gen-
erated by the acceptance of customer orders. The Defense Working Capital Fund (DCWF) operates with finan-
cial principles that provide improved cost visibility and accountability to enhance business management and
improve the decision making process. The activities provide goods and services on a reimbursable basis.
Receipts derived from operations generally are available in their entirety for use without further congressional
action.

Air Force systems are not transaction driven for budgetary accounts. Therefore, in some cases proprietary and
statistical accounts are used to develop the Report on Budget Execution (SF133) and Statement of Budgetary
Resources for reporting budgetary data.

Supply Management

The Air Force Stock Funds were established within the DoD under 10 U.S.C. 2208, as described in DoD
7000.14-R, Financial Management Regulation, to finance inventories of supplies. Most inventories of supplies are
financed by use of a stock fund. Exceptions include an item financed with a procurement appropriation or when
financing by other means has been deemed to be more economical and efficient. A stock fund operates as a
revolving fund acquiring inventories with funds received from prior sales to customers.

There are four active business activities in the Supply Management Activity Group (SMAG). They are Materiel
Support Division (MSD), General Support Division (GSD), Medical-Dental Division, and Academy Division. In FY
2001, the Fuels Division was taken over by the Defense Energy Support Center; therefore, all activity within the
Fuels Division is residual. Troop Support is also a residual activity.

Depot Maintenance

The Air Force Depot Maintenance Activity Group (DMAG) performs manufacturing, development, and test work
as well as aviation maintenance. Primarily supporting Air Force organizations, DMAG also supports other DoD
components, government agencies, and foreign governments. The DMAG environment is rapidly changing.
Weapons systems embodying new material and technologies require new maintenance processes, while improve-
ments in reliability reduce the frequency of maintenance for many items. The net result requires flexibility in
addressing both wartime and peacetime workload changes. The DMAG achieves this flexibility by employing the
unique strengths of organic (in-house) and contractor repair resources.

Transportation

The unique transportation responsibilities of the Air Mobility Command (AMC) include the executive travel mis-
sion and operation of other operational support aircraft, the air weather service, AMC training, AMC base opera-
tions, tanker operations, and other miscellaneous AMC functions. The Air Force Transportation Defense Business
Operations Fund (DBOF) was established during FY 1993 and discontinued in FY 1995 in accordance with the
DWCF improvement plan. Only residual accounting remains.

Air Force Working Capital Fund Component

The purpose of the Air Force Component Activity is to provide an activity within the AFWCF to record transac-
tions that cannot be identified to a specific business area. The January 21, 1997 memorandum “Policy and
Procedures for Cash Management Working Capital Funds (DWCF)” established the “Component Level
Adjustment” column.



                                                                                                                119
       United States Air Force


Additional DFAS-Arlington memorandums provided specific and detailed instructions and procedures to maintain
accountability for fund balances with Treasury.

Operations of the activities within the AFWCF are based on policies and procedures that include:

(1) Funding Authority:

Prior to FY 1992, industrial fund activities were not issued funding documents. Activities now receive obligation
authority for customer orders from the Air Force Deputy Assistant Secretary, Budget (SAF/FMB). The total costs
that can be incurred are a function of the cost goals applied to the actual customer funded workload.

(2) Minor Construction Funding:

Minor construction projects that cost $100,000 or more, but less than $300,000, are funded through a separate
section of the capital budget, and depreciated over a 20-year period.

(3) Software Development Costs:

Policy and procedures have been changed to move the development costs of new software that meets capitaliza-
tion requirements to the capital budget. Software is to be amortized after release.

(4) Capital Budgeting:

Activity group budgets are segregated into operating and capital budgets. Any investment in equipment, soft-
ware, minor construction and other management improvements that meet capitalization requirements are funded
through the capital budget and the cost is depreciated or amortized over the relevant life cycle.

(5) Asset Capitalization and Depreciation:

The assets of the industrial and stock funds were transferred to the DBOF and subsequently to the AFWCF.
Capital assets, excluding land, which exceed a unit cost of $100,000 or more are subject to depreciation. In addi-
tion, capital assets previously capitalized using the established thresholds for prior years will continue to be depre-
ciated if depreciation was being recorded prior to the increase to the $100,000 threshold.

(6) Rates and Prices:

All Air Force activity groups within the WCF are expected to set their rates and prices based upon full cost
recovery, ensuring that cost reductions made by an activity will be passed on to the customers. Rates and prices
normally will not change during the year of execution, but occasionally change based on certain world situations.
If there is a need for a price change in Depot Maintenance, the authority is requested from HQ Air Force
Material Command.

The FY 2005, AFWCF operations encompassed three activity groups: Supply Management, Depot Maintenance,
and Information Services. These activity groups use their resources to finance the initial cost of products or serv-
ices for activities of the United States Government, primarily those of the DoD. Work is generated by the
acceptance of customer orders from ordering activities.

1.D. Basis of Accounting
The AFWCF generally records transactions on an accrual accounting basis as is required by Federal GAAP.
However, some of the Air Force's financial and nonfinancial feeder systems and processes are not designed to col-
lect and record financial information on the full accrual accounting basis. The AFWCF has undertaken efforts to
determine the actions required to bring all of its financial and nonfinancial feeder systems and processes into com-
pliance with all elements of Federal GAAP. One such action is the current revision of its accounting systems to
record transactions based on the United States Government Standard General Ledger (USSGL). Until such time



120
                                                                           2005 Annual Financial Statement


that all of the processes are updated to collect and report financial information as required by Federal GAAP,
some of the AFWCF’s financial data will be based on budgetary transactions (obligations, disbursements, and col-
lections) and nonfinancial feeder systems. For example, most of the information presented on the Statement of
Net Cost (SONC) is based on accrued costs; however, some of this information is based on obligations and dis-
bursements.

Under the accrual method revenues are recognized when earned and expenses are recognized when incurred,
without regard to receipt or payment of cash. Budgetary accounting is accomplished through unique general ledger
accounts to facilitate compliance with legal and internal control requirements associated with the use of federal
funds; however, the cash basis of accounting may be followed if the reported activity and amounts are not materially
significant. In addition to the accrual basis of accounting, Depot Maintenance also uses the full absorption accounting
principal. During FY 1996, the Defense Finance and Accounting Service, Denver Center (DFAS-DE), SAF/FMB, and
the Office of the Security of Defense, Financial Management (OSD/FM) jointly agreed on the use of this principal by
Depot Maintenance. This principal requires that overhead costs, such as depreciation and bad debt expenses, are
included in the cost of services sold. The effect of known intrafund transactions is eliminated.

The Air Force uses several service unique general ledger structures plus data converted from the Defense Business
Management System (DBMS). The financial statements depicted are derived from supply, maintenance, and
accounting records, utilizing the Air Force service and DBMS unique general ledger structures. The activity groups’
general ledger accounts are "cross-walked" to the USSGL chart of accounts to produce the financial statements.

In addition, the Air Force identifies programs based upon the major appropriation groups provided by Congress.
The Air Force is in the process of reviewing available data and attempting to develop a cost-reporting methodolo-
gy that balances the need for cost information required by the SFFAS No. 4, “Managerial Cost Accounting
Concepts and Standards for the Federal Government,” with the need to keep the financial statements readable.

The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity assets
consist of resources that the agency has the authority to use, or where management is legally obligated to use
funds to meet entity obligations. Nonentity assets are assets that are held by an entity that are not available for
use in the operations of the entity.

Material disclosures are provided at Note 10.

1.E. Revenues and Other Financing Sources
The Under Secretary of Defense (Comptroller) directed, per memorandum dated January 1992, all of the services
to use the percentage of completion accounting method to recognize revenue and expenses. The DoD 7000.14-R,
Financial Management Regulation, Chapter 11B, January 1995, also prescribes this method of accounting.

Each working capital activity group recognizes revenue in the following manner:

Supply Management

Air Force Supply Management revenue is recognized at the time of sale under constructive delivery terms (nor-
mally when an item is released from inventory or delivered to the customer). Foreign Military Sales transactions
also require proof of shipment before revenue is recognized. Generally, Supply Management’s revenue consists
of sales at standard prices less sales returns. Sales of Materiel Support Division items are at exchange price. The
Medical-Dental division and the Air Force Academy Store add surcharges to their billings rather than include a
surcharge in the standard price. Intra-division Supply Management sales have been eliminated. Cash discounts
and interfund retail stock loss allowances are reported as additional revenue.




                                                                                                                   121
       United States Air Force


Depot Maintenance

Revenue recognition for Organic DMAG is the percentage of completion method now that the Depot Maintenance
Accounting and Production System (DMAPS) is fully operational at all three Air Logistic Centers (ALCs).

Revenue recognition for Contract DMAG is based on the number of units produced times the Unit Sales Price
(USP) and does not recognize Incremental Revenue Recognition (IRR) at this time.

Information Services

The Information Services Activity Group (ISAG), as a service type organization, recognizes revenue in one of two
ways based on the service level agreement between the customer and the provider. ISAG uses either the com-
pleted contract method or the percentage of completion method.

1.F. Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. However, because the Air Force’s financial and nonfinancial feeder systems were not designed to col-
lect and record financial information on the full accrual accounting basis, accrual adjustments are made for major
items such as payroll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other
long-term assets are not recognized as expenses in the AFWCF’s operations until depreciated in the case of prop-
erty, plant, and equipment (PP&E) or consumed in the case of operating materials and supplies (OM&S). Certain
expenses, such as annual and military leave earned but not taken, are financed in the period in which payment is
made. Operating expenses were adjusted as a result of the elimination of balances between the DoD
Components. Net increases or decreases in unexpended appropriations are recognized as a change in net posi-
tion. See Note 18, Intra-governmental Expenses and Revenue, for disclosure of adjustment amounts.

1.G. Accounting for Intra-governmental Activities
The Air Force, as an agency of the federal government, interacts with and is dependent upon the financial activi-
ties of the federal government as a whole. Therefore, these financial statements do not reflect the results of all
financial decisions applicable to the Air Force as though the agency was a stand-alone entity.

The Air Force’s proportionate share of public debt and related expenses of the federal government are not included.
Debt issued by the federal government and the related costs are not apportioned to the federal agencies. The Air
Force’s financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the
statements report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of the DoD facilities is obtained through budget appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

The Air Force’s civilian employees participate in the Civil Service Retirement System (CSRS) and Federal
Employees Retirement System (FERS), while military personnel are covered by the Military Retirement System
(MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage under Social
Security. The AFWCF funds a portion of the civilian and military pensions. Reporting civilian pension information
under the CSRS and FERS retirement systems is the responsibility of the Office of Personnel Management (OPM).
The AFWCF recognizes an imputed expense for the portion of civilian employee pensions and other retirement
benefits funded by the OPM in the Statement of Net Cost, and recognizes corresponding imputed revenue in the
Statement of Changes in Net Position.




122
                                                                          2005 Annual Financial Statement


To prepare reliable financial statements, transactions occurring between components or activities within the DoD
or between two or more federal agencies must be eliminated. However, the Air Force, as well as the rest of the
federal government, cannot accurately identify all intra-governmental transactions by customer. The DFAS is
responsible for eliminating transactions between the components or activities of the AFWCF. For FY 1999 and
beyond, seller entities within the Department provided summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-
side records have been adjusted to recognize unrecorded costs and accounts payable. Intra-DoD intra-govern-
mental balances were then eliminated.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions
between the Department and other federal agencies. In September 2000, the FMS issued the “Federal Intra-gov-
ernmental Transactions Accounting Policies and Procedures Guide.” The DoD was not able to fully implement
the policies and procedures in this guide related to reconciling intra-governmental assets, liabilities, revenues, and
expenses for nonfiduciary transactions. The Air Force was able to implement the policies and procedures con-
tained in the “Intra-governmental Fiduciary Transactions Accounting Guide,” as updated by the “Federal Intra-gov-
ernmental Transactions Accounting Policies and Procedures Guide,” for reconciling intra-governmental transac-
tions pertaining to investments in federal securities, borrowings from the United States (U.S.) Treasury and the
Federal Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor (DoL),
and benefit program transactions with the OPM.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the DoD Components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
the Act, the AFWCF has authority to sell defense articles and services to foreign countries and international
organizations, generally at no profit or loss to the U.S. Government. Customers may be required to make pay-
ments in advance.

1.I. Funds with the U.S. Treasury
The AFWCF’s financial resources are maintained in U.S. Treasury accounts. The majority of cash collections, dis-
bursements, and adjustments are processed worldwide at the DFAS, Military Services and U.S. Army Corps of
Engineers (USACE) disbursing stations, as well as the Department of State financial service centers. Each disburs-
ing station prepares monthly reports that provide information to the U.S. Treasury on check issues, electronic
funds transfers, interagency transfers, and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained
in the Treasury’s system. Differences between the AFWCF's recorded balance in the FBWT account and
Treasury’s FBWT sometimes result and are subsequently reconciled.

Fund Balances with Treasury are maintained at the AFWCF corporate business area today. In 1992, when the
Defense Business Operating Fund was established, the FBWT was moved from the Air Force level to the DoD
level. In 1996, the DWCF was established and the FBWT was moved back to the Air Force level. However, allo-
cations of FBWT were at a lower level than the level transferred out. The cash balance had been maintained at
10 days worth of cash, but what was allocated back was 3 days worth of cash. The days are based on the aver-
age of cash needed to pay vendors. The fund has been under funded since that time.

Material disclosures are provided at Note 3. Differences are caused by in-transit disbursements and unmatched
disbursements, which are not recorded in the accounting offices’ detail-level records.



                                                                                                                 123
       United States Air Force


1.J. Foreign Currency
Not applicable.

1.K. Accounts Receivable
As presented on the Balance Sheet, accounts receivable includes accounts receivables, claims receivables, and
refunds receivable from other Federal entities or from nonfederal entities. Allowances for loss on accounts
receivable due from nonfederal entities are based upon analysis of collection experience by fund type. The
AFWCF does not recognize an allowance for loss on accounts receivable amounts from another Federal agency.
Claims against another federal agency are to be resolved between the agencies. If the claim cannot be resolved
by the agencies involved, it should be referred to the Government Accountability Office. Only Supply
Management allows for allowance for loss on accounts receivable based upon analysis of historical data from prior
year accounts receivable balances, write-offs, and collection policy.

Material disclosures are provided at Note 5.

1.L. Loans Receivable
Not applicable.

1.M. Inventories and Related Property
Inventory for the AFWCF is held in SMAG except for work-in-process inventory, which is in the Depot
Management Activity Group. Prior to fiscal year 2004, the majority of the SMAG inventory was reported at
approximate historical cost based on Latest Acquisition Cost (LAC), adjusted for holding gains and losses. During
fiscal years 2004 and 2005, a major portion of the Supply Management Activity Group inventory changed from
the LAC method to the Moving Average Cost (MAC) method of valuation. This allowed SMAG to comply with
the SFFAS No. 3, “Accounting for Inventory and Related Property” for that percentage of the inventory. The con-
version to MAC included programming changes for the SMAG accounting system to convert from the Air Force
General Ledger (AFGL) to the USSGL for supply accounting.

Under the LAC method of inventory valuation, gains and losses resulting from valuation changes for inventory
items were recognized and reported in the Statement of Net Cost and included in the calculation of Cost of
Goods Sold. To calculate the allowances for gain or loss on inventories, DFAS Denver prepared an inventory
worksheet monthly for each fund code within the SMAG. SFFAS No. 3, "Accounting for Inventory and Related
Property," directs that using a historical cost valuation method does not require an allowance for holding gains and
losses account. Additionally, SFFAS No. 3 provides for either the direct or allowance method to be used in valuing
inventory held for repair. Therefore the change to a historical costing method also included the elimination of the
allowance for holding gains and losses, revaluation of all inventories to a historical basis and the creation of an
allowance for repairs. The implementation of Moving Average Cost for SMAG inventories in fiscal year 2004 and
2005 eliminated the need for the gains and losses allowance account for that portion of the inventory and has
been credited against a prior period. Inventory held for repair is now valued at MAC with an allowance for repair
equal to the latest repair cost.

Related property includes operating materials and supplies (OM&S) and stockpile materials. The OM&S, including
munitions not held for sale, are valued at standard purchase price. The department uses the consumption
method of accounting for OM&S for the most part, expensing material when it is issued to the end user. Where
current systems cannot fully support the consumption method, the AFWCF uses the purchase method, expensed
when purchased.

Material disclosures related to inventory and related property are provided at Note 9.



124
                                                                          2005 Annual Financial Statement


1.N. Investments in U.S. Treasury Securities
Not applicable.

1.O. General Property, Plant and Equipment
General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus capitalized
improvements, when an asset has a useful life of two or more years, and when the acquisition cost equals or
exceeds the DoD capitalization threshold of $100,000. Also, improvement costs over the DoD capitalization
threshold of $100,000 for General PP&E are required to be capitalized. All General PP&E, other than land, is
depreciated using the straight-line method. Land is not depreciated.

Prior to FY 1996, General PP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FYs 1993, 1994,
and 1995 respectively, and an estimated useful life of 2 or more years was capitalized. These assets remain capi-
talized and are reported on WCF financial statements. General PP&E previously capitalized at amounts below
$100,000 were written off General Fund financial statements in FY 1998.

When it is in the best interest of the government, the Air Force provides government property necessary to com-
plete contract work to contractors. Such property is either owned or leased by the Air Force, or purchased
directly by the contractor for the government based on contract terms. When the value of contractor procured
General PP&E exceeds the DoD capitalization threshold, the items should be included in the value of General
PP&E reported on the Air Force's Balance Sheet. The AFWCF recently completed a study that indicates that the
value of General PP&E that meets the capitalization requirement and is in the possession of contractors is not
material to the Department’s financial statements. Regardless, the AFWCF is developing new policies and a con-
tractor reporting process that will provide appropriate General PP&E information for future financial statement
reporting purposes. Accordingly, the Air Force currently reports only the government property in the possession
of contractors that is maintained in the Air Force’s property systems.

For entities operating as business type activities (WCFs), all PP&E used in the performance of their mission is cat-
egorized as General PP&E, whether or not it meets the definition of any other PP&E categories. National
Defense PP&E, Heritage Assets and Stewardship Land owned or maintained on a WCF installation are reported
in the Supplemental Stewardship Report of the applicable military department.

Material disclosures are provided at Note 10.

1.P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported
as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when
the related goods and services are received.

1.Q. Leases
Not applicable.

1.R. Other Assets
The AFWCF conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that these long-term con-
tracts can cause, the AFWCF provides financing payments. One type of financing payment that the AFWCF
makes is for real property, and is based upon a percentage of completion. In accordance with SFFAS No. 1,
"Accounting for Selected Assets and Liabilities," such payments are treated as construction in process and are




                                                                                                                 125
       United States Air Force


reported on the General PP&E line and in Note 10, General PP&E, Net. In addition, based on the provision of
the Federal Acquisition Regulations, the AFWCF makes financing payments under fixed price contracts. The
AFWCF reports these financing payments in the “Other Assets” line item. Because the AFWCF becomes liable
only after the contractor delivers the goods in conformance with the contract terms. If the contractor does not
deliver a satisfactory product, the AFWCF is not obligated to reimburse the contractor for its costs, and the con-
tractor is liable to repay the AFWCF for the full amount of the advance.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing con-
dition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the AFWCF. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as
a liability when a past event or exchange transaction has occurred, a future loss is probable, and the amount of loss
can be reasonably estimated. Financial statement reporting is limited to disclosure when conditions for liability
recognition do not exist, but there is at least a reasonable possibility that a loss or an additional loss will be
incurred. Examples of loss contingencies include the collectability of receivables, pending or threatened litigation,
possible claims and assessments. The AFWCF’s loss contingencies arising are events such as aircraft, ship and vehi-
cle accidents, medical malpractice, property or environmental damages, and contractual disputes.

1.T. Accrued Leave
 Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are
reported as liabilities. The liability reported at the end of the fiscal year reflects the current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropri-
ations represent amounts of authority, which are unobligated and have not been rescinded or withdrawn, and
amounts obligated but for which legal liabilities for payments have not been incurred.

Cumulative results of operations for the AFWCF represent the excess of revenues over expenses, less refunds to
customers, and returns to the U.S. Treasury since fund inception.

1.V. Treaties for Use of Foreign Bases
The DoD Components have the use of land, buildings and other facilities that are located overseas and have been
obtained through various international treaties and agreements negotiated by the Department of State. The DoD
capital assets located overseas are purchased with appropriated funds; however, the host country retains the title
to the land and any improvements. Generally, treaty terms allow the DoD Components continued use of these
properties until the treaties expire. These fixed assets are subject to loss in the event treaties are not renewed
or the AFWCF does not reach agreements that allow for the continued use. Therefore, in the event treaties or
other agreements are terminated and the use of foreign bases is not allowed, the losses will be recorded for the
value of any nonretrievable capital assets. Negotiations between the United States and the host country deter-
mine the amount to be paid the United States for such capital investments.

1.W. Comparative Data
The AFWCF presents the current and previous year’s financial data for comparative purposes. This data is pre-
sented in the financial statements, as well as in the notes to the principal statements.




126
                                                                          2005 Annual Financial Statement


1.X. Unexpended Obligations
The AFWCF presents the current and previous year’s financial data for comparative purposes. This data is pre-
sented in the financial statements, as well as in the notes to the principal statements.

1.Y. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
reported on the departmental accounting reports. In transit payments are payments that have been made for
other agencies or entities that have not been recorded in their accounting records. These payments are applied
to the entities’ outstanding accounts payable balance.

The Department of Defense policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of federal and nonfederal accounts payable and
accounts receivable. The majority of the DoD Components reported following this allocation procedure.
Unsupported undistributed disbursements and collections are recorded in other liabilities.

Note 2. Nonentity Assets

 As of September 30                                  2005                 2004
 (Amounts in thousands)

 1. Intra-governmental Assets
   A. Fund Balance with Treasury                 $             0      $              0
   B. Investments                                              0                     0
   C. Accounts Receivable                                      0                     0
   D. Other Assets                                             0                     0
   E. Total Intra-governmental Assets            $             0      $              0
 2. Nonfederal Assets
   A. Cash and Other Monetary Assets             $             0      $             0
   B. Accounts Receivable                                      0                    0
   C. Loans Receivable                                         0                    0
   D. Inventory & Related Property                             0                    0
   E. General PP&E                                             0                    0
   F. Investments                                              0                    0
   G. Other Assets                                             0                    0
   H. Total Nonfederal Assets                    $             0      $             0
 3. Total Nonentity Assets                       $             0      $             0
 4. Total Entity Assets                          $    36,290,809      $    32,029,081
 5. Total Assets                                 $    36,290,809      $    32,029,081


Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are avail-
able for use in the operations of the entity. The Air Force is authorized to decide how to use resources in entity
accounts. The Air Force may be legally obligated to use these resources to meet entity obligations. Nonentity
accounts, on the other hand, consist of assets that are held by an entity but are not available for use in the opera-
tions of the entity.

The Air Force Working Capital Fund does not have any nonentity assets.




                                                                                                                 127
       United States Air Force


Note 3. Fund Balance with Treasury

As of September 30                                               2005                2004
(Amounts in thousands)

1. Fund Balances
  A. Appropriated Funds                                      $             0     $             0
  B. Revolving Funds                                               1,164,223           1,051,111
  C. Trust Funds                                                           0                   0
  D. Special Funds                                                         0                   0
  E. Other Fund Types                                                      0                   0
  F. Total Fund Balances                                     $     1,164,223     $     1,051,111
2. Fund Balances Per Treasury Versus Agency
  A. Fund Balance per Treasury                               $     1,038,596     $     1,703,858
  B. Fund Balance per AFWCF                                        1,164,223           1,051,111
3. Reconciling Amount                                        $      -125,627     $       652,747


The reconciling amount on line 3 above represents $(125.6) million for the United States Transportation
Command (USTC), which is reported at the Department of the Treasury as part of the Air Force Working Capital
Fund (AFWCF). However, for the purposes of Audited Financial Statements (AFS), USTC is included with the
Other Defense Organizations (ODO) reporting, which is separate from the AFWCF. Therefore, USTC cash is
not included on the AFWCF AFS statements.

Fluctuations and Abnormalities
Fund Balance with Treasury increased $113.1 million (11 percent) in FY 2005. The increase can be attributed to
three primary factors. First, the Information Services Activity Group (ISAG) and the Depot Maintenance Activity
Group (DMAG) both had increases in their respective fund balances from the prior year primarily attributed to
favorable financial performance. Net operation results for ISAG and DMAG before eliminations and mandated
Audited Financial Statement adjustments, which do not impact cash flow, totaled $84.3 million, which is a source
of cash inflow. Secondly, DMAG experienced favorable balance sheet performance. DMAG collected an addi-
tional $92.8 million in accounts receivable over the prior year, increased their accounts payable $20.9 million, and
disbursed $55.5 million less under the Capital Purchase Program then planned. Overall, the increases from these
items total $253.5 million, which was offset by a Congressional mandated cash transfer to the Army in the
amount of $155.0 million, resulting in a net increase of $98.5 million. The remaining $14.6 million increase can be
attributed to normal business fluctuations in the remaining business areas.

Note Reference
See Note Disclosure 1.I., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and Department of Defense policies governing funds with the U.S Treasury.




128
                                                                                 2005 Annual Financial Statement


Status of Fund Balance with Treasury

As of September 30                                      2005                     2004
(Amounts in thousands)

1. Unobligated Balance
  A. Available                                      $          292,679       $          134,439
  B. Unavailable                                                     0                        0
2. Obligated Balance not yet Disbursed              $        8,621,328       $      8,980,235
3. Non-Budgetary FBWT                               $                 0      $               0
4. Non-FBWT Budgetary Accounts                      $       -7,749,784       $      -8,063,563
5. Total                                            $        1,164,223       $      1,051,111

The amounts reported in this schedule represent the budgetary resources associated with cash.

Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                                               (Decrease)/
                                                            2003             2004                 2005        Increase from
As of September 30                                                                                              2004 - 2005
(Amounts in thousands)

1. Total Problem Disbursements, Absolute Value
  A. Unmatched Disbursements (UMDS)                     $          2,813 $          4,713     $      60,443    $      55,730
  B. Negative Unliquidated Obligations (NULO)                      6,498            4,255             2,405           -1,850
 2. Total In-transit Disbursements, Net                 $      464,049 $         415,522      $     347,157    $     -68,365




Problem disbursements represent disbursements of AFWCF funds reported by a disbursing station to the
Department of Treasury that have not yet been precisely matched against the specific source obligation. The
problem disbursements arise when the various contracting, disbursing, and accounting systems fail to match the
data necessary to properly account for the transaction in all the applicable accounting systems.

Due to the accelerated reporting requirements the 2004 column represents August 2004 amounts. The 2003
and 2005 columns are both September balances.

The AFWCF has a $55.7 million increase in problem disbursements and a $68.4 million decrease in In-transit dis-
bursements. The amount of Unmatched Disbursements (UMDs) over 180 days old is $0.00, for Negative
Unliquidated Obligations (NULOs) is $0.00, and for In-transit is $3.6 million. The amount of UMDs over 120
days old is $0.00, for NULO is $0.00, and for In-transit is $7.9 million. The current absolute value of In-transit
disbursements is $433.0 million.

The increase in UMDs can be attributed to database mergers (San Antonio to Limestone in October 2004, and
Omaha to Dayton in May 2005) and difficulties encountered with the merger of the Contract Procurement
Accounting System (CPAS) and the General Accounting and Finance System (GAFS). Also, a substantial amount of
problems were encountered when we implemented new business processes for handling disbursements. All cor-
rections are expected to be accomplished by the first quarter of FY 2006. The decrease in NULOS and In-transit
Disbursements is due to a concentrated effort to resolve problems and the corresponding posting of transactions.

Note 4. Investments and Related Interest
Not Applicable.




                                                                                                                               129
          United States Air Force


Note 5. Accounts Receivable

      As of September 30                                             2005                                    2004
                                                                 Allowance For
                                                 Gross Amount                           Accounts          Accounts
                                                                   Estimated
                                                     Due                              Receivable, Net   Receivable, Net
                                                                 Uncollectibles
      (Amounts in thousands)


  1. Intra-governmental Receivables               $    510,560              N/A           $   510,560    $      576,396
  2. Non-federal Receivables (From the Public)    $    219,929     $              0       $   219,929    $      103,111
  3. Total Accounts Receivable                    $    730,489     $              0       $   730,489    $      679,507


Fluctuations
Federal receivables decreased $65.8 million (11 percent). The amount consists primarily of a decrease in Depot
Maintenance Activity Group (DMAG). The decrease in DMAG is caused by a decrease in revenues, which would
lead to a subsequent decrease in outstanding invoices. See Note 18 for more information on the cause of the
revenue decrease.

Non-federal receivables increased $116.8 million (113 percent). The amount consists primarily of an increase of
$115.4 million in the Supply Management Activity Group (SMAG). The increase was attributed to a change in clas-
sification of receivables from Foreign Military Sales that were previously recorded as other assets. This change
occurred in the 3rd Qtr, FY 2005 reports.

Information Related to Accounts Receivables

Allowance Method

SMAG uses an allowance method based on historical data for non-federal receivables. The Depot Maintenance
and the Information Services Activity Groups generally use the direct write-off method for uncollectible accounts.

Allocation of Undistributed Collections

The Department of Defense (DoD) policy is to allocate supported undistributed collections between federal and
non-federal categories based on the percentage of federal and non-federal accounts receivable. Unsupported
undistributed collections are recorded in USSGL account 2400, Liability For Deposit Funds, Clearing Accounts,
and Undeposited Collections. The Air Force Working Capital Fund (AFWCF) followed this allocation procedure,
applying $608.7 thousand in undistributed collections to accounts receivable and recording $54.8 million of unsup-
ported undistributed to USSGL account 2400.

Elimination Adjustments

Accounts receivable within the AFWCF have been eliminated for statement presentation purposes. The total
value of the receivables that were eliminated on these financial statements is $332.4 million.

The Air Force accounting systems do not capture trading partner data at the transaction level in a manner that
facilitates trading partner aggregations. Therefore, the Air Force was unable to reconcile intra-governmental
accounts receivable balances with its trading partners. Through the ongoing Business Management Modernization
Program, the Department intends to develop long-term systems improvements that will capture the data neces-
sary to perform reconciliations.




130
                                                                           2005 Annual Financial Statement


Receivables over 180 Days

The Air Force has $4.5 million intra-government receivables and $16.1 million non-federal receivables over 180
days. Processes have been implemented to closely monitor the delinquent receivables and to refer them to the
appropriate entity for resolution.

Note Reference

See Note Disclosure 1.K., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing accounts receivable.

Note 6. Other Assets

As of September 30                                                2005                2004
(Amounts in thousands)

1. Intra-governmental Other Assets
  A. Advances and Prepayments                                 $          48,515       $         10
  B. Total Intragovernmental Other Assets                     $          48,515       $         10
2. Non-federal Other Assets
  A. Outstanding Contract Financing Payments                  $             0         $         0
  B. Other Assets (With the Public)                                   440,337             788,966
  C. Total Nonfederal Other Assets                            $       440,337         $   788,966
3. Total Other Assets                                         $       488,852         $   788,976

Fluctuations and Abnormalities

Intra-governmental other assets (Line 1)

The $48.5 million (486,139 percent) increase to intra-governmental other assets is primarily due to an advance to
the Air Force General Funds in the amount of $47.9 million for miscellaneous contractual services to the depots.
The remaining advances are being reported by other defense organizations.

Non-federal other assets (Line 2)

Non-Federal Other Assets decreased $348.6 million (44 percent) and can be attributed to the decrease in the
Supply Management Activity Group (SMAG). SMAG had decreases in both the "Other" and the Advances section
of the Other Asset Line. Additional details of how the variance breaks out can be found in the table below.

In the assets other than advances section, there was a decrease of $279.3 million, which can be attributed to two
events. First, there was a $163.9 million decrease in the vendors pending credit account in the Materiel Support
Division. Based on the recommendations of a prior audit, a program was developed to identify and systematically
prepare journal vouchers to write off unsupported balances greater than 210 day old. The journal vouchers were
processed in October 2004 and May 2005. The second event can be found in the SMAG assets for foreign mili-
tary sales, which had a decrease of $115.4 million. As was discussed in Note 5, this account is now being report-
ed as a component of accounts receivable.

In the advances section, there was a decrease of $63.8 million which can also be attributed to two events. First,
the "Inventory Intransit from Vendor" account in the Material Support Division (MSD) decreased $35.3 million.
This decrease was the result of a journal voucher (JV) processed in FY05 to correct the balance in this account.
For several months, a program that removes the Wholesale Intransit Inventory as it is received was not run, thus,



                                                                                                                 131
       United States Air Force


causing the account to be overstated at the end of FY 2004. Once the issue was identified, a journal voucher was
processed to correct for this error. The program continues to run each month to ensure the proper entries are
made and the account balance is accurate. Second, the "Inventory Intransit from Vendor" account in the General
Support Division (GSD) decreased $8.8 million and is currently in an abnormal balance. This decrease was the
result of a systemic issue within the Financial Inventory Accounting and Billing System (FIABS). Erroneous
amounts were used to reduce the account when the monthly systemic programs were executed. The cause of
the glitch has not yet been identified; however, the issue is currently being worked by the appropriate DFAS per-
sonnel for resolution. The remaining decrease in the account is the normal business fluctuation in advances in the
remaining categories of advance accounts.

Note Reference

See Note Disclosure 1.R., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing other assets.
Non-Federal Other Assets (in Thousands)
Types of Asset                                                           2005                     2004
Advances
SMAG - Advances and Prepayments to Contractors                          $317,655                $374,443
DMAG - Advances and Prepayments to Contractors                                  0                   7,044
Total Advances                                                         $317,655                $381,487

Other Assets

SMAG - Air Force assets—other DoD foreign military sales (depot)                0                 115,434

SMAG - Other assets returns to vendors pending credit                     122,167                286,109

DMAG - Unallocated labor and materials                                       515                    5,937

Total Other Assets                                                       122,682                 407,480

Total Non-Federal Other Assets                                          $440,337               $788,966

Note 7. Cash and Other Monetary Assets

Definitions

Cash—The total of cash resources under the control of the Working Capital Fund, including coin, paper curren-
cy, purchased foreign currency, negotiable instruments, and amounts on deposit in banks and other financial insti-
tutions. Cash available for agency use should include petty cash funds and cash held in revolving funds that will
not be transferred into the U.S Government General Fund.

Foreign Currency—The total U.S. dollar equivalent of non-purchased foreign currencies held in foreign curren-
cy fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000 fund account (for-
merly called FT accounts).

Other Monetary Assets—included gold, special drawing rights, and U.S Reserve in the International Monetary
Fund. This category is principally for use by the Department of Treasury.




132
                                                                                            2005 Annual Financial Statement


Note 8. Direct Loan and/or Loan Guarantee Programs
Direct Loan and/or Loan Guarantee Programs The entity operates the following direct loan and/or Loan
guarantee program(s)
•   Military Housing Privatization Initiative

•   Armament Retooling & Manufacturing Support Initiative

Not applicable.

Note 9. Inventory and Related Property

As of September 30                                                        2005                      2004
(Amounts in thousands)

1. Inventory, Net                                                   $       32,319,057        $      27,779,167
2. Operating Materials & Supplies, Net                                           382,632                  532,638
3. Stockpile Materials, Net                                                             0                        0
4. Total                                                            $       32,701,689        $      28,311,805




Inventory, Net
As of September 30                                                        2005                                        2004
                                                 Inventory,          Revaluation                                                 Valuation
                                                                                         Inventory, Net        Inventory, Net
                                                Gross Value          Allowance                                                    Method
(Amounts in thousands)

1. Inventory Categories
  A. Available and Purchased for Resale           $    22,717,224       $       -15,016   $       22,702,208      $   17,978,646  LAC,MAC
  B. Held for Repair                                   13,445,847            -4,073,414            9,372,433           9,330,509  LAC,MAC
  C. Excess, Obsolete, and Unserviceable                  775,072              -775,072                    0                   0    NRV
  D. Raw Materials                                               0                    0                    0                   0 MAC,SP,LAC
  E. Work in Process                                      244,416                     0              244,416             470,012     AC
  F. Total                                        $    37,182,559       $    -4,863,502   $       32,319,057      $   27,779,167
    Legend for Valuation Methods:
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses       NRV = Net Realizable Value
    SP = Standard Price                                                                 O = Other
    AC = Actual Cost                                                                    MAC = Moving Average Cost



There are no restrictions on the use, sale, or disposition of inventory except in the following situations:
1) Distributions without reimbursement are made when authorized by Department of Defense (DoD)
   directives.

2) War Reserve Material includes fuels and subsistence items that are considered restricted.

3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private
   parties, and contractors in accordance with current policies and guidance or at the direction of the President.




                                                                                                                                         133
       United States Air Force


Definitions

Inventory available and purchased for resale includes consumable spare and repair parts as well as repairable
items owned and managed by the Department. Material available and purchased for resale includes material held
due to a managerial determination that it should be retained to support military or national contingencies.

Inventory held for repair is damaged inventory that requires repair to make it suitable for sale. Many of the
inventory items are more economical to repair than to procure. In addition, because the Department often relies
on weapon systems and machinery no longer in production, the Department supports a process that encourages
the repair and rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed
military force.

Excess, obsolete, and unserviceable inventory consists of scrap materials or items that cannot be economically
repaired and are awaiting disposal. Potentially reusable material, presented in previous years as excess, obsolete,
and unserviceable, is included in the held for use or held for repair categories, according to its condition.

Work in process balances include costs related to the production or servicing of items, including direct material,
direct labor, applied overhead, and other direct costs. Work in process also includes the value of finished prod-
ucts or completed services pending the submission of bills to the customer. The work in process designation may
also be used to accumulate the amount paid to a contractor under cost-reimbursable contracts, including the
amount withheld from payment to ensure performance and the amount paid to other government plants for
accrued costs of end-items of material ordered but not delivered.

Fluctuations

Inventory increased $4.5 billion (16 percent) due to the following factors.

Inventory Available and Purchased for Resale values for the Supply Management Activity Group (SMAG) had an
increase of $4.7 billion. The increase is a result of an inventory valuation change from Latest Acquisition Cost
to Moving Average Cost. In FY 2005, the allowance account of $11.3 billion was removed for the Material
Support Division. For comparative statement purposes, the Inventory Available and Purchased for Resale bal-
ance for FY 2004 was restated by $7.2 billion, which represents the portion of the prior period adjustment
related to errors. The remaining $4.1billion, which represents the portion of the prior period adjustment
related to a standard change in accounting procedure, was not restated. Therefore the inventory balance in FY
2004 is less than FY 2005.

Work in Process (WIP) had a decrease of $225.6 million in the Depot Maintenance Activity Group (DMAG). This
decrease can be attributed to two events. The first event is the continuing phase out of Contract Depot
Maintenance Activity Group (CDMAG) operations from the Working Capital Fund. This phase-out caused the
$168.2 million WIP decrease in CDMAG. The second event, a $57.4 million decrease in Organic WIP, was due to
less work being inducted into the WIP then what had been completed, coupled with the clean-up effort of some
of the old customer orders that still had open WIP balances.

General Composition of Inventory

Inventory includes spare and repair parts, clothing and textiles, fuels, and ammunition. Inventory is tangible per-
sonal property that is (1) held for sale or held for repair for eventual sale, (2) in the process of production for
sale, or (3) to be consumed in the production of goods for sale or in the provision of services for a fee.

The category inventory held for repair consists of damaged material that requires repair to make it usable.
Excess inventory is condemned material that must be retained for management purposes. The category held for



134
                                                                                           2005 Annual Financial Statement


sale includes all issuable material. The category held for repair includes all economically reparable material. Work
in process includes depot maintenance work with its associated labor, applied overhead, and supplies used in the
delivery of maintenance services. The U.S. Standard General Ledger does not include a separate work in process
account unrelated to sales. Inventory is assigned to categories based on guidance in the DoD Financial
Management Regulation, Volume 11B.

Note Reference

See Note Disclosure 1.M., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing Inventory and related property.

Operating Materials and Supplies, Net
As of September 30                                                            2005                                 2004
                                                        OM&S             Revaluation                                           Valuation
                                                                                             OM&S, Net       OM&S, Net
                                                      Gross Value         Allowance                                             Method
(Amounts in thousands)

1. OM&S Categories
   A. Held for Use                                     $     382,632      $            0      $   382,632      $     532,638   SP, LAC
   B. Held for Repair                                              0                   0                0                  0   SP, LAC
   C. Excess, Obsolete, and Unserviceable                          0                   0                0                  0    NRV
   D. Total                                            $     382,632      $            0      $   382,632      $     532,638

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses              NRV = Net Realizable Value
SP = Standard Price                                                                        O = Other
AC = Actual Cost


Fluctuations

The $150.0 million decrease (28 percent) in the OM&S category held for use (Line 1A) can be attributed to two
events. A $76.9 million decrease resulted from the continuing phase out of Contract DMAG operations. In addi-
tion, a $51.0 million decrease occurred in Organic DMAG operations, which is attributed to the clean-up effort of
on hand supplies, coupled with a credit return of shop materials returned to the supplier by the Warner Robins
Air Logistic Center.

General Composition of Operating Materials and Supplies

OM&S include spare and repair parts. The OM&S data reported on the financial statements are derived from
logistics systems designed for material management purposes, i.e. accountability and visibility. The reported bal-
ances from these systems are not recorded at historical cost, in conformance with the valuation requirements in
the Statement of Federal Financial Accounting Standard (SFFAS) No. 3, “Accounting for Inventory and Related
Property.” Instead, the Air Force uses standard price to value OM&S without computing unrealized holding gains
or losses. Furthermore, past audit results have led to uncertainties pertaining to the completeness and existence
of the OM&S quantities used to derive the balances reported in the financial statements.

For the most part, DMAG uses the consumption method of accounting for OM&S, since OM&S is defined in the
SFFAS No. 3 as material which has not yet been issued to the end user. Once issued, the material is expensed.
As stated above, current financial and logistics systems cannot fully support the consumption method. According
to federal accounting standards, the consumption method of accounting should be used to account for OM&S
unless (1) the amount of OM&S is not significant, (2) OM&S are in the hands of the end user for use in normal
operations, or (3) it is cost-beneficial to expense OM&S when purchased (purchase method). The DoD, in con-
sultation with its auditors, is (1) developing specific criteria for determining when OM&S amounts are not signifi-
cant for the purpose of using the consumption method, (2) developing functional requirements for feeder systems



                                                                                                                                           135
             United States Air Force


to support the consumption method, (3) identifying feeder systems that are used to manage OM&S items, and (4)
developing plans to revise those systems to support the consumption method. The department reported signifi-
cant amounts using the purchase method either because the systems could not support the consumption method
or because management deems that the item is in the hands of the end user.

Note Reference

See Note Disclosure 1.M., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing Inventory and related property.

Stockpile Materials, Net

Not Applicable.

Note 10. General PP&E, Net
                                                  Depreciation/                                (Accumulated
                                                                   Service     Acquisition                        Net Book      Prior FY Net
                                                  Amortization                                 Depreciation/
                                                                    Life         Value                             Value        Book Value
                                                    Method                                     Amortization)
(Amounts in thousands)

1. Major Asset Classes
      A. Land                                         N/A             N/A      $           0                N/A   $         0    $          0
      B. Buildings, Structures, and Facilities        S/L          20 Or 40          905,184   $       -591,229       313,955         249,229
      C. Leasehold Improvements                       S/L         lease term               0                  0             0               0
      D. Software                                     S/L          2-5 Or 10       1,025,075           -683,000       342,075         369,465
      E. General Equipment                            S/L           5 or 10        2,053,877         -1,542,561       511,316         551,426
      F. Military Equipment                           S/L           Various                0                  0             0               0
      G. Assets Under Capital Lease                   S/L         lease term               0                  0             0               0
      H. Construction-in-Progress                     N/A            N/A              38,210               N/A         38,210          27,563
      I. Other                                                                             0                 0              0               0
2. Total General PP&E                                                          $   4,022,346   $     -2,816,790   $ 1,205,556    $ 1,197,683

[1]
  Note 15 for additional information on Capital
Legend for Valuation Methods:
S/L = Straight Line      N/A = Not Applicable




Information Related to General PP&E, Net

Real property reported by the Automated Civil Engineering System (ACES) and personal property reported by
the Air Force Equipment Management System (AFEMS) and the Information Processing Management System
(IPMS) has not been validated and reconciled to reported figures received by Defense Finance and Accounting
Service (DFAS) from the field activities. However, the Depot Maintenance Air Logistic Centers (ALC) and
Aerospace Maintenance and Regeneration Center (AMARC) use the ACES to capture the costs of real property
based on preponderance of use for each building. They use the straight-line method for recording depreciation
maintained on spreadsheets in place of the ACES schedule. The accounting entries are recorded directly into the
field-level trial balances.

Any Working Capital Fund Special Tools and Special Test equipment in the possession and control of the Air Force
are reported in the Air Force General Funds financial statements.

The value of Air Force General PP&E real property in the possession of contractors is included in the value
reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General
PP&E personal property (Major Asset Classes of Software and Equipment) does not include all of the General
PP&E in the possession of contractors that is above the Department of Defense (DoD) capitalization threshold.



136
                                                                          2005 Annual Financial Statement


The net book amount of such property is immaterial in relation to the total General PP&E net book value. In
accordance with a strategy approved by the Office of Management and Budget, the Government Accountability
Office, and the Inspector General, DoD, the Department is developing new policies and a contractor-reporting
process to capture General PP&E information for future reporting purposes in compliance with generally accept-
ed accounting practices.

Past audit results have identified uncertainties as to whether all General PP&E assets in the possession or control
(existence) of the Department are properly and accurately recorded in the system (completeness).

Note Reference

See Note Disclosure 1. N., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing General PP&E.

Assets Under Capital Lease

Not Applicable.

Note 11. Liabilities Not Covered by Budgetary Resources
As of September 30                                                       2005                 2004
(Amounts in thousands)

1. Intra-governmental Liabilities
  A. Accounts Payable                                                $               0    $               0
  B. Debt                                                                            0                    0
  C. Other                                                                           0                    0
  D. Total Intra-governmental Liabilities                            $               0    $               0

2. Non-Federal Liabilities
  A. Accounts Payable                                                $               0    $               0
  B. Military Retirement Benefits and
     Other Employment-Related Actuarial Liabilities                             233,713              238,729
  C. Environmental Liabilities                                                        0                    0
  D. Loan Guarantee Liability                                                        0                    0
  E. Other Liabilities                                                               0                    0
  F. Total Non-Federal Liabilities                                   $          233,713   $          238,729

3. Total Liabilities Not Covered by Budgetary Resources              $          233,713   $          238,729

4. Total Liabilities Covered by Budgetary Resources                  $      2,282,258     $     2,613,686
5. Total Liabilities                                                 $      2,515,971     $     2,852,415



Definitions

Liabilities Not Covered and Covered by Budgetary Resources – These are liabilities that are not considered cov-
ered by realized budgetary resources as of the balance sheet date. Budgetary resources include the following:
•   New budget authority

•   Spending authority from offsetting collections (credited to an appropriation or fund account)

•   Recoveries of unexpired budget authority through downward adjustments of prior-year obligations




                                                                                                                  137
           United States Air Force


•     Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year bal-
      ances during the year

•     Borrowing authority or permanent indefinite appropriations that have been enacted and signed into law as of
      the balance sheet date, provided that the Office of Management and Budget (OMB) can apportion the
      resources without first meeting a contingency or without additional action by the Congress.

Liabilities Covered by Budgetary Resources –These are resources the reporting entity incurred that are covered
by realized budget resources as of the balance sheet date. Budgetary resources encompass not only new budget
authority but also other resources available to cover liabilities for specified purposes in a given year. Available
budgetary resources include the following:
•     New budget authority

•     Spending authority from offsetting collections (credited to an appropriation or fund account)

•     Recoveries of unexpired budget authority through downward adjustments of prior-year obligations

•     Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year bal-
      ances during the year

•     Borrowing authority or permanent indefinite appropriations that have been enacted and signed into law as of
      the balance sheet date, provided that the OMB can apportion the resources without first meeting a contin-
      gency or without additional action by the Congress.

Note Reference

For additional line item discussion, see:

Note 8, Direct Loans and/or Loan Guarantee Programs

Note 12, Accounts Payable

Note 13, Liabilities Not Covered and Covered by Budgetary Resources

Note 14, Environmental Restoration Liabilities and Environmental Disposal Liabilities

Note 15, Other Liabilities

Note 16, Commitments and Contingencies

Note 17, Military Retirement Benefits and Other Employment Related

Note 12. Accounts Payable
As of September 30                                                       2005                                  2004
                                                                  Interest, Penalties,
                                              Accounts Payable    and Administrative         Total             Total
                                                                         Fees
(Amounts in thousands)

1. Intra-governmental Payables                 $        199,650      $            N/A    $       199,650   $       256,763
2. Non-Federal Payables (to the Public)                 546,739                      0           546,739           497,471
3. Total                                       $        746,389      $               0   $       746,389   $       754,234




138
                                                                            2005 Annual Financial Statement


Definition

Intra-governmental payables consist of amounts owed to other federal agencies for goods or services ordered
and received but not yet paid for. Interest, penalties, and administrative fees are not applicable to intra-govern-
mental payables. Non-federal payables (to the public) are payments to non-federal entities.

Fluctuations and Abnormalities

Intra-governmental payables decreased by $57.1 million (22 percent). The primary cause was a decrease of
$60.6 million in the General Support Division (GSD). In FY 2004 unpaid bills for Defense Logistics Agency
increased at the end of the year causing an increase in accounts payable as well. The unpaid bills were paid in the
first month of FY 2005. The account balance has returned to a normal balance and maintained a normal balance
throughout the remainder of FY 2005.

Non-Federal payables increased $49.2 million (10 percent). The primary cause was an increase in unmatched dis-
bursements caused by difficulties encountered with the merger of the Contract Procurement Accounting System
(CPAS) and the General Accounting and Finance System (GAFS). Information regarding unmatched disburse-
ments is discussed in Note 3.

Undistributed Disbursements

Undistributed disbursements consist of the difference between (1) disbursements/collections recorded at the
transaction level to a specific obligation, payable, or receivable in the activity field records, and (2) those disburse-
ments/collections reported by the U.S. Treasury via the reconciled DD1329 and DD1400. The total undistributed
disbursement amounts displayed in this note should agree with the undistributed amounts reported on accounting
reports (SF 133/(M) 1002/(M) 1307). In-transit payments are payments that have been made for other agencies
or entities that have not been recorded in their accounting records. These payments are applied to each entity’s
outstanding accounts payable balance at year-end. Accounts payable were adjusted downward in the amount of
$408.3 million for these payments.

Allocation of Undistributed Disbursements

The Department of Defense (DoD) policy is to allocate supported undistributed disbursements between intra-
governmental and non-federal categories based on the percentage of intra-governmental and non-federal
accounts payable. Unsupported undistributed disbursements should be recorded in U.S. Standard General
Ledger account (USSGLA) 2120, Disbursements in Transit. The AFWCF followed this allocation policy reporting
$184.6 million in USSGLA 2120.

Intra-governmental Eliminations

For the majority of intra-agency sales, the AFWCF accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the AFWCF was unable to
reconcile intra-governmental accounts payable to the related intra-governmental accounts receivable that gener-
ated the payable. Elimination adjustments are made at the consolidated business activity level instead of at the
fund-code level, resulting in less distortion of the actual payable amounts.

The DoD intends to develop long-term systems improvements that will include sufficient up-front edits and con-
trols to eliminate the need for after-the-fact reconciliations. The volume of intra-governmental transactions is so
large that after-the-fact reconciliations cannot be accomplished with the existing or foreseeable resources.




                                                                                                                    139
        United States Air Force


Note Reference

See Note Disclosure 1.G., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and DoD policies governing accounting for intra-governmental activities.

Note 13. Debt
Not applicable.

Note 14. Environmental Liabilities and Disposal Liabilities
Not applicable.

Note 15. Other Liabilities
As of September 30                                                           2005                               2004
                                                           Current         Noncurrent
                                                                                                Total           Total
                                                           Liability        Liability
(Amounts in thousands)

1. Intra-governmental
  A. Advances from Others                                 $     136,241     $           0   $     136,241   $      234,529
  B. Deposit Funds and Suspense Account Liabilities                   0                 0               0                0
  C. Disbursing Officer Cash                                          0                 0               0                0
  D. Judgment Fund Liabilities                                        0                 0               0                0
  E. FECA Reimbursement to the Department of Labor                    0                 0               0                0
  F. Other Liabilities                                           10,297                 0          10,297            8,602
  G. Total Intra-governmental Other Liabilities           $     146,538     $           0   $     146,538   $      243,131
2. Non-Federal
  A. Accrued Funded Payroll and Benefits                   $    129,479     $           0   $     129,479   $      135,633
  B. Advances from Others                                         8,570                 0           8,570           15,256
  C. Deferred Credits                                                 0                 0               0                0
  D. Deposit Funds and Suspense Accounts                         54,771                 0          54,771           18,913
  E. Temporary Early Retirement Authority                             0                 0               0                0
  F. Nonenvironmental Disposal Liabilities
     (1) Military Equipment (Nonnuclear)                               0                0             0                  0
     (2) Excess/Obsolete Structures                                    0                0             0                  0
     (3) Conventional Munitions Disposal                               0                0             0                  0
     (4) Other                                                         0                0             0                  0
  G. Accrued Unfunded Annual Leave                                     0                0             0                  0
  H. Capital Lease Liability                                           0                0             0                  0
   I. Other Liabilities                                        1,196,511                0     1,196,511          1,446,519
  J. Total Non-Federal Other Liabilities                  $    1,389,331    $           0   $ 1,389,331     $    1,616,321
3. Total Other Liabilities                                $    1,535,869    $           0   $ 1,535,869     $    1,859,452



Fluctuations and Abnormalities

Line 1.A – The Intra-governmental advances from others decreased $98.3M (42 percent) due to the decrease in
the Depot Maintenance Activity Group (DMAG) Contract progress billings. Contract DMAG is phasing out of the
Working Capital Fund (WCF).

Line 1.F – The Intra-governmental other liabilities increase of $1.7M (20 percent) represents employee benefits
that are payable to the Office of Personnel Management (OPM). Liabilities fluctuate based on staffing levels and
participation in benefit programs by employees. Health insurance premiums and contribution limits for employ-
ees to the Thrift Savings Plan both increased, which is reflected in the overall increase in employee benefit liabilities.




140
                                                                            2005 Annual Financial Statement


Line 2.B – The decrease of advances from others of $6.7M (44 percent) was in the DMAG business area. This
decrease is largely due to the resolution of the problem with the billing of public workload that resulted in FY04
with the implementation of the Defense Industrial Fund Financial Management System (DIFMS). DIFMS was not
designed to bill private party billings at a fixed price, thus resulting in an increase in the advances account through-
out all of FY 2004. A release was installed to correct the report during the first quarter of FY 2005 and current
private party bills can now be processed. The release, however, did not provide functionality to process the
older contracts and a backlog continued to exist in the account throughout the first two quarters of FY 2005.
This backlog has been steadily worked off and the account is now at a normal balance.

Line 2.D – The increase of $35.9M (190 percent) was due to an amount of unsupported undistributed for AF
component in FY 2005 that was classified as supported in FY 2004.

Information Related to Other Liabilities (Line 2.I)

(In thousands)                                                                     FY2005              FY 2004
Misc Liabilities                                                                            500                  0
DMAG – WIP Accrued Expenses                                                           1,161,308          1,377,793
SMAG – Future Purchase - Foreign Military Sales                                          28,377             29,049
SMAG – Other Accrued Liabilities                                                          6,326              4,140
Component – Reclass of Abnormal Non-Federal Accounts Receivable             $                 0    $        35,537
Total                                                                       $         1,196,511    $     1,446,519



DMAG work in process accrued expenses continue to decrease as a result of the removal Contract DMAG from
the Working Capital Funds, which has resulted in a decline in material, labor, and overhead cost accruals.

Supply Management Activity Group (SMAG) future purchase – foreign military sales consist of money that various
countries have deposited with the SMAG as a buy-in on future purchases they plan to make under the foreign
military sales program. These funds are considered a liability as the funds are returned if the countries do not
make future purchases. Revenue is not recognized on these transactions until the purchase takes place. The
decrease in this account is caused by some foreign governments canceling agreements.

The Component other liability is related to an abnormal non-federal accounts receivable amount. The amount
was abnormal because of Unsupported Undistributed Collections that were moved to Component as part of the
undistributed stabilization effort. In FY2005, the amount was reported on Line 2.D with total unsupported col-
lections.

Note Reference

See Note Disclosure 1.S., Significant Accounting Policies, for additional discussion on financial reporting require-
ments and Department of Defense policies governing contingencies and other liabilities.

Note 16. Commitments and Contingencies
Not applicable.




                                                                                                                     141
         United States Air Force


Note 17. Military Retirement Benefits and Other Employment Related Actuarial
Liabilities
As of September 30                                                                 2005                                         2004
                                                  Actuarial Present       Assume      (Less: Assets
                                                                       Interest Rate Available to Pay    Unfunded            Unfunded
                                                  Value of Projected
                                                                            (%)                       Actuarial Liability Actuarial Liability
                                                    Plan Benefits                       Benefits)
(Amounts in thousands)

1. Pension and Health Benefits
  A. Military Retirement Pensions                   $              0                    $            0    $             0     $             0
  B. Military Retirement Health Benefits                           0                                 0                  0                   0
  C. Medicare-Eligible Retiree Benefits                            0                                 0                  0                   0
  D. Total Pension and Health Benefits              $              0                    $            0    $             0     $             0
2. Other
  A. FECA                                           $        233,713                    $            0    $      233,713      $      238,729
  B. Voluntary Separation Incentive Programs                       0                                 0                 0                   0
  C. DoD Education Benefits Fund                                   0                                 0                 0                   0
  D. [Enter Program Name}                                          0                                 0                 0                   0
  E. Total Other                                    $        233,713                    $            0    $      233,713      $      238,729
3. Total Military Retirement Benefits and Other
FFEmployment Related Actuarial Liabilities:         $        233,713                    $            0    $      233,713      $      238,729

 Actuarial Cost Method Used:
 Assumptions:
 Market Value of Investments in Market-based and Marketable Securities:


Military Retirements Pensions

Not applicable

Military Retirement Health Benefits

Not applicable

Federal Employees Compensation Act (FECA)

The Air Force Working Capital Fund’s (AFWCF) actuarial liability for workers’ compensation benefits is devel-
oped by the Department of Labor and provided to the AFWCF at the end of each fiscal year. The FECA is not
related to and should not be misinterpreted to represent the Federal Unemployment Compensation Act. The
liability includes the expected liability for death, disability, medical, and miscellaneous costs for approved compen-
sation cases. The liability is determined using a method that utilizes historical benefit payment patterns to predict
the ultimate payments. The projected annual benefit payments are then discounted to the present value using
the Office of Management and Budget’s (OMB’s) economic assumptions for 10-year U.S. Treasury notes and
bonds. Cost-of-living adjustments and medical inflation factors are also applied to the calculation of projected
future benefits.

The liability for future workers’ compensation (FWC) benefits includes the expected liability for death, disability,
medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but not
reported claims. The liability is determined using a method that utilizes historical benefit payment patterns relat-
ed to a specific incurred period to predict the ultimate payments related to that period. Consistent with past
practice, these projected annual benefit payments have been discounted to present value using the OMB’s eco-
nomic assumptions for 10-year Treasury notes and bonds.




142
                                                                          2005 Annual Financial Statement


Interest rate assumptions utilized for discounting were as follows:

            2001                 2002                  2003                  2004                 2005
       5.21% in year 1     5.20% in year 1        3.84% in year 1     4.883% in year 1       4.528% in year 1
       5.21% in year 2     5.20% in year 2        4.35% in year 2     5.235% in year 2       5.020% in year 2
       And thereafter      And thereafter         And thereafter       And thereafter        And thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors
for the charge back year (CBY) 2005 were also used to adjust the methodology’s historical payments to current-
year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:


                                  CBY                 COLA                CPIM
                                  2005                2.20%               4.33%
                                  2006                3.33%               4.09%
                                  2007                2.93%               4.01%
                                  2008                2.40%               4.01%
                                  2009+               2.40%               4.01%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was
based on two tests: (1) a comparison of the percentage change in the liability amount by agency to the percent-
age change in the actual payments, and (2) a comparison of the ratio of the estimated liability to the actual pay-
ment of the beginning year calculated for the current projection to the liability-payment ratio calculated for the
prior projection.

Note Reference

For regulatory discussion on “Military Retirement Benefits and Other Employment Related Actuarial Liabilities,”
see Department of Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1019.

Note 18. Disclosures Related to the Statement of Net Cost
Fluctuations and Abnormalities

Intra-governmental Earned Revenue

Intra-governmental earned revenue had a decrease of $1.2 billion (10 percent). The majority of the decrease was
in the Supply Management Activity Group (SMAG), which had a decrease of $968.8 million. Two events caused
the SMAG decrease. The Material Support Division (MSD) had a decrease of $507.7 million which was caused by
backorders of spare engines. In FY 2004 there was a significant quantity of backordered spare engines and the
Air Force focused on filling these backorders, which resulted in a reduction of most of the backlog by the end
of FY 2004. This reduction in backlog resulted in a one time spike in net sales. With only a minimal level of
backorders existing, FY 2005 net sales for spare engines have returned to normal recurring demands. For the
General Support Division (GSD), a decrease of $105.1 million is attributed to a reduction in current program
requirement levels which are lower than the prior year. Budget estimates have been updated to reflect this


                                                                                                                 143
       United States Air Force


trend. The remaining decrease of $356.0 million (represents three percent of the total AFWCF revenue) is a
result of normal operations. The Depot Maintenance Activity Group (DMAG) had a decrease of $313.3 million
which can be attributed to two events. The first event was a planned budget decrease in FY 2005. The FY 2005
revenue budget was over $200 million less then the actual revenue earned in FY 2004. FY 2005 actual revenue
was within 1% of the budget. The second event was due to more accurate classification of revenues between
intra-governmental and nonfederal. In FY 2004, allocated information was used to classify revenues and in FY
2005, allocation was not used as actual data was reported.

Earned Revenue from the Public

Nonfederal earned revenue had a decrease of $119.7 million (13 percent), which was primarily caused by the
decrease of $236.8 million in SMAG, offset by the $117.2 million increase in DMAG. Two events caused the
SMAG decrease. First, MSD had a decrease of $163.3 million which was caused by the non reimbursement of
the Readiness Spares Packages (RSP) in FY 2005. RSP kits are parts packages that are purchased in order to
ensure that parts are available when needed. MSD was reimbursed for their RSP purchases and the reimburse-
ment was booked as revenues in FY 2004; however, MSD was not reimbursed for their RSP kits in FY 2005. In
addition upon researching the decrease it was discovered that these revenues were incorrectly reported as public
in FY 2004. For FY 2005 these amounts were zero therefore the error did not impact the FY 2005 financial
statements. The second event was the $65.4 million decrease in GSD revenue. The GSD decrease is attributed
to a return to current program requirement levels which are lower than the prior year. Budget estimates have
been updated to reflect this trend. The DMAG increase of $117.2 million can be attributed to more accurate
classification of revenues between intra-governmental and nonfederal. In FY 2004, allocated information was
used to classify revenues and in FY 2005, allocation was not used as actual data was reported.

Gross Costs with the Public

Gross cost with the public had a decrease of $3.5 billion (40 percent). The primary cause of this decrease was a
change in accounting procedures which required a prior period adjustment to inventory values as discussed in
Note 9. A portion of the prior period adjustment relating to standard price changes was not restated, totaling
$3.6 billion. If this amount had been recorded in accordance with current procedures, prior year expenses would
be decreased by the amount. Further disclosures of the prior period adjustments are disclosed in Note 19.

Information Related to the Statement of Net Cost (SoNC)

The Consolidated SoNC in the federal government is unique because its principles are based on understanding
the net cost and/or organizations that the federal government supports through appropriations or other means.
This statement provides gross and net cost information that can be related to the amount of output or outcome
for a given program and/or organization administered by a responsible reporting entity.

Working Capital Funds

While the Air Force Working Capital Fund (AFWCF) generally records transactions on an accrual basis as is
required by generally accepted accounting principles, the systems do not always capture actual costs. Information
presented on the SoNC is primarily based on budgetary obligations, disbursements, or collection transactions, as
well as information from nonfinancial feeder systems.




144
                                                                                     2005 Annual Financial Statement


Intra-governmental Operating Expenses

The AFWCF’s operating expenses were adjusted based on a comparison between the AFWCF’s accounts payable
and the DoD summary-level seller accounts receivables. An adjustment was posted to accounts payable and
operating expenses to reflect unrecognized accounts payable and operating expenses. The operating expenses of
the AFWCF were adjusted upward in the amount of $168.2 million

Note 19. Disclosures Related to the Statement of Changes in Net Position
As of September 30                                                    2005                  2005              2004                    2004
                                                                    Cumulative
                                                                                      Unexpended       Cumulative Results       Unexpended
                                                                    Results of
                                                                                     Appropriations      of Operations         Appropriations
                                                                    Operations
(Amounts in thousands)

1. Prior Period Adjustments Increases (Decreases) to Net Position
  A. Changes in Accounting Standards                                $    3,632,598      $          0      $          699,393      $           0
  B. Errors and Omissions in Prior Year
     Accounting Reports                                                  7,256,576                 0           18,656,732                     0
  C. Other Prior Period Adjustments                                              0                 0                    0                     0
  D. Total Prior Period Adjustments                                 $   10,889,174      $          0      $    19,356,125         $           0
2. Imputed Financing
  A. Civilian CSRS/FERS Retirement                                  $      62,192       $          0      $           63,443      $           0
  B. Civilian Health                                                      105,973                  0                  95,320                  0
  C. Civilian Life Insurance                                                  269                  0                     255                  0
  D. Judgment Fund                                                              0                  0                       0                  0
  E. Intra-Entity                                                               0                  0                       0                  0
  F. Total Imputed Financing                                        $     168,434       $          0      $          159,018      $           0




Information Related to the Statement of Changes in Net Position

Prior Period Adjustments

The Material Support Division (MSD) inventory valued at Latest Acquisition Cost (LAC) in Standard Base Supply
System (SBSS) was converted to Moving Average Cost historical cost basis valuation on October 1, 2004.
Historical cost does not require an allowance for gains and losses. The conversion created a prior period adjust-
ment in fiscal year 2005 of approximately $10.8 billion for the elimination of the allowance for gains and losses,
the establishment of an allowance for repairs and the revaluation of inventory. Of this amount, $3.6 billion repre-
sents standard price changes, which is classified as a change in standard and not restated, $7.3 billion was attrib-
uted to correction of errors and restated in prior year, and $29.7 million was attributed to a correction of error
that was not restated. The table below provides detail by USSGL of the prior period adjustment.




                                                                                                                                             145
        United States Air Force


USSGL           Description                                                                     Debit                     Credit
1529            Inventory - Allowance Available and Purchased for Resale            $4,019,352,856.89
7400            Prior Period Adjustment – Not Restated – Changes                                             $4,019,352,856.89
Eliminate Allowance related to price gains and losses

7210            Losses on Disposition of Assets                                       $442,693,990.47
7400            Prior Period Adjustment – Not Restated – Changes                                              $442,693,990.47
Eliminate value of initial increase in inventory from LAC to MAC

7400            Prior Period Adjustment – Not Restated – Changes                      $829,448,586.05
7290            Other Losses                                                                                  $829,448,586.05
Eliminate value of initial decrease in inventory from LAC to MAC

7400             Prior Period Adjustment – Not Restated – Changes Total                                      $3,632,598,261.31

7400            Prior Period Adjustment – Not Restated – Errors                           $29,700,432.94
6790            Other Expenses Not Requiring Budgetary Resources                                                  $29,700,432.94
Eliminate the value of the initial establishment of the allowance for repair

7400             Prior Period Adjustment – Not Restated – Errors Total                    $29,700,432.94

1529            Inventory - Allowance Available and Purchased for Resale            $1,554,025,803.22
7401            Prior Period Adjustment – Restated – Errors                                                  $1,554,025,803.22
Value of Realization from Inventory Worksheet

1529             Inventory - Allowance Available and Purchased for Resale           $5,732,250,672.69
7401             Prior Period Adjustment – Restated – Errors                                                 $5,732,250,672.69
Restate prior year inventory balance upon changing from LAC to MAC
and eliminating the allowance account

7401             Prior Period Adjustment – Restated-Errors Total                                             $7,286,276,475.91


In FY 2004, three prior adjustments were processed for MSD and GSD inventory valued at LAC. The $699.4
million on Line 1.A. represents standard prices changes related to the conversion of GSD inventory. The correc-
tion of errors amount on Line 1.B. equates to $10.9 billion for MSD and $465.3 million for GSD. In addition, the
FY 2004 amount reflects the restatement of $7.3 billion for the FY 2005 restated amount.

Imputed Financing

The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil
Service Retirement System, Federal Employee Retirement System, Federal Employees Health Benefits program,
and the Federal Employee Group Life Insurance program do not fully cover the Government’s cost to provide
these benefits. An imputed cost is recognized as the difference between the Government’s cost of providing
these benefits to the employees and contributions made by and for them. The OPM provides the cost factors to
the Defense Finance and Accounting Service (DFAS) for computation of imputed financing cost. Then DFAS pro-
vides the costs to the OUSD (Personnel and Readiness) for validation. Approved imputed costs are provided to
the reporting components for inclusion in their financial statements.

Note 20. Disclosures Related to the Statement of Budgetary Resources
As of September 30                                                                 2005               2004
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated
   for Undelivered Orders at the End of the Period                             $   6,937,550      $   7,117,842
2. Available Borrowing and Contract Authority at the End of the Period             2,782,392          3,839,310




146
                                                                          2005 Annual Financial Statement


Information Related to the Statement of Budgetary Resources
Intra-entity Transactions

The Statement of Budgetary Resources (SBR) does not include intra-entity transactions because the statements
are presented as combined and combining.

Apportionment Categories

Office of Management and Budget Bulletin No. 01-09, section 9.27, specifically requires disclosure of the amount of
direct and reimbursable obligations incurred against amounts apportioned under categories A, B, and exempt from
apportionment. This disclosure should agree with the aggregate of the related information as included in each report-
ing entity’s SF 133 and lines 8A and 8B in the SBR. There are no Category A direct or reimbursable obligations.
Category B reimbursable obligations total $15.9 billion. There are no category B direct or exempt obligations.

Undelivered Orders

Undelivered orders presented in the SBR includes undelivered orders-unpaid for both direct and reimbursable funds.

Spending Authority from Offsetting Collections

Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently
not available (included in the “Adjustments” line on the SBR), are not included in the “Spending Authority from
Offsetting Collections and Adjustments” line on the SBR or the “Spending Authority for Offsetting Collections and
Adjustments” line on the Statement of Financing.

Note 21. Disclosures Related to the Statement of Financing
The objective of the Statement of Financing is to reconcile the difference between budgetary obligations and the
net cost of operations reported. It is presented as combined or combining statements rather than consolidated
statements due to intra-governmental transactions not being eliminated. Due to limitations in the Department of
the Air Force’s financial system, budgetary data is not in agreement with proprietary expenses and assets capital-
ized. Differences between budgetary and proprietary data constitutes a previously identified deficiency.
Note 1.A. and Note 1.F. provide additional detail.

Other Information Related to the Statement of Financing

Budgetary data is not in agreement with Proprietary Expenses and Assets Capitalized. This causes a difference in
Net Cost between the Statement of Net Cost (SoNC) and the Statement of Financing. Line 15 on the Statement
of Financing, “Resources that finance the acquisition of assets,” is adjusted in order to align the amount of net cost
on the Statement of Financing with the amount reported on the (SoNC). Line 15 was adjusted by an absolute
value of $862.2 million to balance the report. The adjustment will be researched to determine the cause of the
increase over prior reporting periods.

Note 22. Disclosures Related to the Statement of Custodial Activity
Not applicable.

Note 23. Other Disclosures
Not applicable.




                                                                                                                  147
      United States Air Force




                                This page intentionally left blank.




148
              2005 Annual Financial Statement




Working Capital Fund

  Consolidating and
Combining Statements




                                          149
        United States Air Force


Consolidating Balance Sheet—Working Capital Fund
As of September 30, 2005 and 2004 ($ in Thousands)
                                                                         Depot              Supply            Information
                                                                      Maintenance         Management            Services
1. ASSETS (Note 2)
   A. Intra-governmental:
      1. Fund Balance with Treasury (Note 3)
         a. Entity                                                $         623,824   $         476,882   $          38,195
         b. Non-Entity Seized Iraqi Cash                                          0                   0                   0
         c. Non-Entity-Other                                                      0                   0                   0
      2. Investments (Note 4)                                                     0                   0                   0
      3. Accounts Receivable (Note 5)                                       308,008             422,459              77,137
      4. Other Assets (Note 6)                                               47,936              98,600                  16
      5. Total Intra-governmental Assets                          $         979,768   $         997,941   $         115,348
   B. Cash and Other Monetary Assets (Note 7)                     $               0   $               0   $               0
   C. Accounts Receivable (Note 5)                                           36,093             183,551                   8
   D. Loans Receivable (Note 8)                                                   0                   0                   0
   E. Inventory and Related Property (Note 9)                               627,048          32,074,641                   0
   F. General Property, Plant and Equipment (Note 10)                     1,053,914             122,299              29,336
   G. Investments (Note 4)                                                        0                   0                   0
   H. Other Assets (Note 6)                                                     516             439,821                   0
2. TOTAL ASSETS                                                   $       2,697,339   $      33,818,253   $         144,692
3. LIABILITIES (Note 11)
   A. Intra-governmental:
      1. Accounts Payable (Note 12)                               $        260,118    $         235,695   $             881
      2. Debt (Note 13)                                                          0                    0                   0
      3. Other Liabilities (Note 15 & Note 16)                             243,164                1,000                 411
      4. Total Intra-governmental Liabilities                     $        503,282    $         236,695   $           1,292
   B. Accounts Payable (Note 12)                                  $          1,158    $         498,481   $         156,739
   C. Military Retirement Benefits and Other Employment-Related            202,565               23,216               7,932
      Actuarial Liabilities (Note 17)
   D. Environmental Liabilities (Note 14)                                         0                   0                   0
   E. Loan Guarantee Liability (Note 8)                                           0                   0                   0
   F. Other Liabilities (Note 15 and Note 16)                             1,283,805              59,936              10,335
4. TOTAL LIABILITIES                                              $       1,990,810   $         818,328   $         176,298
5. NET POSITION                                                                   0                   0                   0
   A. Unexpended Appropriations                                   $               0   $               0   $               0
   B. Cumulative Results of Operations                                      706,529          32,999,925             -31,606
6. TOTAL NET POSITION                                             $         706,529   $      32,999,925   $         -31,606
7. TOTAL LIABILITIES AND NET POSITION                             $       2,697,339   $      33,818,253   $         144,692




The accompanying notes are an integral part of the financial statements.



150
                                                                            2005 Annual Financial Statement




                          Component           Combined                                   2005                 2004
    Transportation          Level               Total            Eliminations         Consolidated         Consolidated




$            10,137   $         15,185    $      1,164,223   $                0   $        1,164,223   $        1,051,110
                  0                  0                   0                    0                    0                    0
                  0                  0                   0                    0                    0                    0
                  0                  0                   0                    0                    0                    0
                  0                  0             807,604              297,044              510,560              576,396
                  0                  0             146,552               98,037               48,515                   10
$            10,137   $         15,185    $      2,118,379   $          395,081   $        1,723,298   $        1,627,516
$                 0   $              0    $              0   $                0   $                0   $                0
                277                  0             219,929                    0              219,929              103,111
                  0                  0                   0                    0                    0                    0
                  0                  0          32,701,689                    0           32,701,689           28,311,805
                  7                  0           1,205,556                    0            1,205,556            1,197,683
                  0                  0                   0                    0                    0                    0
                  0                  0             440,337                    0              440,337              788,966
$            10,421   $         15,185    $     36,685,890   $          395,081   $       36,290,809   $       32,029,081


$                 0   $               0   $        496,694   $          297,044   $          199,650   $          256,763
                  0                   0                  0                    0                    0                    0
                  0                   0            244,575               98,037              146,538              243,131
$                 0   $               0   $        741,269   $          395,081   $          346,188   $          499,894
$             1,685   $        -111,324   $        546,739   $                0   $          546,739   $          497,471
                  0                   0            233,713                    0              233,713              238,729

                  0                   0                  0                    0                    0                    0
                  0                   0                  0                    0                    0                    0
               -340              35,595          1,389,331                    0            1,389,331            1,616,321
$             1,345   $         -75,729   $      2,911,052   $          395,081   $        2,515,971   $        2,852,415
                  0                   0                  0                    0                    0                    0
$                 0   $               0   $              0   $                0   $                0   $                0
              9,076              90,914         33,774,838                    0           33,774,838           29,176,666
$             9,076   $          90,914   $     33,774,838   $                0   $       33,774,838   $       29,176,666
$            10,421   $          15,185   $     36,685,890   $          395,081   $       36,290,809   $       32,029,081




The accompanying notes are an integral part of the financial statements.



                                                                                                                     151
       United States Air Force


Consolidating Statement of Net Cost—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)
                                                         Combined                                 2005                2004
                                                           Total           Eliminations        Consolidated        Consolidated
Program Costs
B. Component Level
        Intra-governmental Gross Costs               $             0   $              0    $               0   $         10,166
        (Less: Intra-governmental Earned Revenue)                  0                  0                    0                  0
        Intra-governmental Net Costs                 $             0   $              0    $               0   $         10,166
        Gross Costs With the Public                          -10,166                  0              -10,166                  0
        (Less: Earned Revenue From the Public)                     0                  0                    0                  0
        Net Costs With the Public                    $       -10,166   $              0    $         -10,166   $              0
        Total Net Cost                               $       -10,166   $              0    $         -10,166   $         10,166
C. Depot Maintenance
        Intra-governmental Gross Costs               $     3,586,771   $       2,423,153   $       1,163,618   $         615,753
        (Less: Intra-governmental Earned Revenue)         -6,187,933          -2,640,520          -3,547,413          -3,860,743
        Intra-governmental Net Costs                 $    -2,601,162   $        -217,367   $      -2,383,795   $      -3,244,990
        Gross Costs With the Public                        2,883,343                   0           2,883,343           3,940,937
        (Less: Earned Revenue From the Public)              -285,280                   0            -285,280            -168,063
        Net Costs With the Public                    $     2,598,063   $               0   $       2,598,063   $       3,772,874
        Total Net Cost                               $        -3,099   $        -217,367   $         214,268   $         527,884
D. Information Services
        Intra-governmental Gross Costs               $        58,243   $             12    $         58,231    $         59,444
        (Less: Intra-governmental Earned Revenue)           -733,469           -128,620            -604,849            -567,884
        Intra-governmental Net Costs                 $      -675,226   $       -128,608    $       -546,618    $       -508,440
        Gross Costs With the Public                          667,961                  0             667,961             670,818
        (Less: Earned Revenue From the Public)                -3,339                  0              -3,339              -2,865
        Net Costs With the Public                    $       664,622   $              0    $        664,622    $        667,953
        Total Net Cost                               $       -10,604   $       -128,608    $        118,004    $        159,513
E. Supply Management
        Intra-governmental Gross Costs               $     6,850,471   $       2,759,601   $       4,090,870   $       4,714,430
        (Less: Intra-governmental Earned Revenue)         -8,904,608          -2,413,626          -6,490,982          -7,459,835
        Intra-governmental Net Costs                 $    -2,054,137   $         345,975   $      -2,400,112   $      -2,745,405
        Gross Costs With the Public                        1,660,261                   0           1,660,261           4,063,032
        (Less: Earned Revenue From the Public)              -483,084                   0            -483,084            -719,910
        Net Costs With the Public                    $     1,177,177   $               0   $       1,177,177   $       3,343,122
        Total Net Cost                               $      -876,960   $         345,975   $      -1,222,935   $         597,717
F. Transportation
        Intra-governmental Gross Costs               $            0    $              0    $              0    $              0
        (Less: Intra-governmental Earned Revenue)                 0                   0                   0                   0
        Intra-governmental Net Costs                 $            0    $              0    $              0    $              0
        Gross Costs With the Public                              77                   0                  77                   0
        (Less: Earned Revenue From the Public)                    0                   0                   0                -581
        Net Costs With the Public                    $           77    $              0    $             77    $           -581
        Total Net Cost                               $           77    $              0    $             77    $           -581
G. Total Program Costs
        Intra-governmental Gross Costs               $    10,495,485   $       5,182,766   $       5,312,719   $       5,399,793
        (Less: Intra-governmental Earned Revenue)        -15,826,010          -5,182,766         -10,643,244         -11,888,462
        Intra-governmental Net Costs                 $    -5,330,525   $               0   $      -5,330,525   $      -6,488,669
        Gross Costs With the Public                        5,201,476                   0           5,201,476           8,674,787
        (Less: Earned Revenue From the Public)              -771,703                   0            -771,703            -891,419
        Net Costs With the Public                    $     4,429,773   $               0   $       4,429,773   $       7,783,368
        Total Net Cost                               $      -900,752   $               0   $        -900,752   $       1,294,699
Cost Not Assigned to Programs                                      0                   0                   0                   0
(Less:Earned Revenue Not Attributable to Programs)                 0                   0                   0                   0
Net Cost of Operations                               $      -900,752   $               0   $        -900,752   $       1,294,699




The accompanying notes are an integral part of the financial statements.



152
                                 2005 Annual Financial Statement




This page intentionally left blank.




                                                             153
       United States Air Force


Consolidating Statement of Changes in Net Position—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                       Depot                Supply             Information
                                                                    Maintenance           Management             Services


CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                           $        716,058      $      21,134,398    $         -49,968
2. Adjustments (+/-)                                                           0                      0                    0
    2a. Changes in Accounting Principles (+/-)                                 0              3,632,598                    0
    2b. Correction of Errors (+/-)                                             0              7,256,576                    0
3. Beginning Balances, as adjusted                                       716,058             32,023,572              -49,968
4. Budgetary Financing Sources:
   4a. Appropriations received                                                  0                    0                       0
   4b. Appropriations transferred-in/out (+/-)                                  0                    0                       0
   4c. Other adjustments (rescissions, etc) (+/-)                               0                    0                       0
   4d. Appropriations used                                                      0                    0                       0
   4e. Nonexchange revenue                                                      0                    0                       0
   4f. Donations and forfeitures of cash and cash equivalents                   0                    0                       0
   4g. Transfers-in/out without reimbursement (+/-)                      -155,000               81,089                       0
   4h. Other budgetary financing sources (+/-)                                  0                    0                       0
5. Other Financing Sources:
   5a. Donations and forfeitures of property                                   0                      0                    0
   5b. Transfers-in/out without reimbursement (+/-)                            0                      0                    0
   5c. Imputed financing from costs absorbed by others                   142,373                 18,303                7,758
   5d. Other (+/-)                                                             0                      0                    0
6. Total Financing Sources                                               -12,627                 99,392                7,758
7. Net Cost of Operations (+/-)                                           -3,099               -876,960              -10,604
8. Net Change                                                             -9,528                976,352               18,362
9. Ending Balance                                               $        706,530      $      32,999,924    $         -31,606

UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                           $                 0   $                0   $                 0
2. Prior period adjustments (+/-)
   2a. Changes in Accounting Principles (+/-)                                     0                    0                     0
   2b. Correction of Errors (+/-)                                                 0                    0                     0
3. Beginning Balances, as adjusted                                                0                    0                     0
4. Budgetary Financing Sources:
   4a. Appropriations received                                                    0                    0                     0
   4b. Appropriations transferred-in/out (+/-)                                    0                    0                     0
   4c. Other adjustments (rescissions, etc) (+/-)                                 0                    0                     0
   4d. Appropriations used                                                        0                    0                     0
   4e. Nonexchange revenue                                                        0                    0                     0
   4f. Donations and forfeitures of cash and cash equivalents                     0                    0                     0
   4g. Transfers-in/out without reimbursement (+/-)                               0                    0                     0
   4h. Other budgetary financing sources (+/-)                                    0                    0                     0
5. Other Financing Sources:
   5a. Donations and forfeitures of property                                      0                    0                     0
   5b. Transfers-in/out without reimbursement (+/-)                               0                    0                     0
   5c. Imputed financing from costs absorbed by others                            0                    0                     0
   5d. Other (+/-)                                                                0                    0                     0
6. Total Financing Sources                                                        0                    0                     0
7. Net Cost of Operations (+/-)
8. Net Change                                                                     0                    0                     0
9. Ending Balance                                               $                 0   $                0   $                 0




The accompanying notes are an integral part of the financial statements.



154
                                                                              2005 Annual Financial Statement




                               Component           Combined                                 2005                   2004
      Transportation             Level               Total            Eliminations       Consolidated           Consolidated



  $             9,153      $        80,748     $     21,890,389   $             0    $      21,890,389      $      11,537,088
                    0                    0                    0                 0                    0                      0
                    0                    0            3,632,598                 0            3,632,598                699,393
                    0                    0            7,256,576                 0            7,256,576             18,656,733
                9,153               80,748           32,779,563                 0           32,779,563             30,893,214

                       0                   0                  0                 0                    0                      0
                       0                   0                  0                 0                    0                      0
                       0                   0                  0                 0                    0                      0
                       0                   0                  0                 0                    0                      0
                       0                   0                  0                 0                    0                      0
                       0                   0                  0                 0                    0                      0
                       0                   0            -73,911                 0              -73,911               -580,900
                       0                   0                  0                 0                    0                      0

                    0                     0                   0                 0                    0                      0
                    0                     0                   0                 0                    0                     34
                    0                     0             168,434                 0              168,434                159,017
                    0                     0                   0                 0                    0                      0
                    0                     0              94,523                 0               94,523               -421,849
                   77               -10,166            -900,752                 0             -900,752              1,294,699
                  -77                10,166             995,275                 0              995,275             -1,716,548
  $             9,076      $         90,914    $     33,774,838   $             0    $      33,774,838      $      29,176,666


  $                    0   $               0   $              0   $             0    $                  0   $                  0

                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0

                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0

                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0
                       0                   0                  0                 0                       0                      0

                       0                   0                  0                 0                       0                      0
  $                    0   $               0   $              0   $             0    $                  0   $                  0




The accompanying notes are an integral part of the financial statements.



                                                                                                                          155
        United States Air Force


Combining Statement of Budgetary Resources—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                   Depot              Supply            Information
                                                                Maintenance         Management            Services

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
1. Budget Authority:
   1a. Appropriations received                              $              0    $              0    $              0
   1b. Borrowing authority                                                 0                   0                   0
   1c. Contract authority                                             71,246           9,671,556               1,491
   1d. Net transfers (+/-)                                                 0                   0                   0
   1e. Other                                                               0                   0                   0
2. Unobligated balance:
   2a. Beginning of period                                            87,989              -57,606              3,997
   2b. Net transfers, actual (+/-)                                  -155,000               81,089                  0
   2c. Anticipated Transfers Balances                                      0                    0                  0
3. Spending authority from offsetting collections:
   3a. Earned                                                              0                    0                  0
       1. Collected                                                6,473,199            9,365,795            720,359
       2. Receivable from Federal sources                            -84,665              114,626             20,491
   3b. Change in unfilled customer orders                                  0                    0                  0
       1. Advance received                                          -121,421                    0                  0
       2. Without advance from Federal sources                       -75,839              786,229            -17,646
   3c. Anticipated for the rest of year, without advances                  0                    0                  0
   3d. Previously unavailable                                              0                    0                  0
   3e. Transfers for trust funds                                           0                    0                  0
   3f. Subtotal                                                    6,191,274           10,266,650            723,204
4. Recoveries of prior year obligations                                    0                    4                  0
5. Temporarily not available pursuant to Public Law                        0                    0                  0
6. Permanently not available                                        -434,683          -10,348,877            -17,651
7. Total Budgetary Resources                                $      5,760,826    $       9,612,816   $        711,041

STATUS OF BUDGETARY RESOURCES
8. Obligations incurred:
   8a. Direct                                               $              0    $              0    $              0
   8b. Reimbursable                                                5,448,028           9,674,370             769,589
   8c. Subtotal                                                    5,448,028           9,674,370             769,589
9. Unobligated balance:
   9a. Apportioned                                                   312,798             -61,554             -58,548
   9b. Exempt from apportionment                                           0                   0                   0
   9c. Other available                                                     0                   0                   0
10. Unobligated Balances Not Available                                     0                   0                   0
11. Total, Status of Budgetary Resources                    $      5,760,826    $      9,612,816    $        711,041

Relationship of Obligations to Outlays:
12. Obligated Balance, Net - beginning of period            $        603,274    $      4,203,791    $         32,221
13. Obligated Balance transferred, net (+/-)                               0                   0                   0
14. Obligated Balance, Net - end of period:
    14a. Accounts receivable                                         -380,677            -586,336            -77,144
    14b. Unfilled customer order from Federal sources              -1,988,813          -1,720,404           -248,997
    14c. Undelivered orders                                           889,591           5,327,888            244,226
    14d. Accounts payable                                           1,581,220             519,676            168,366
15. Outlays:
    15a. Disbursements                                              6,110,484           9,436,477            712,514
    15b. Collections                                               -6,351,778          -9,365,795           -720,359
    15c. Subtotal                                                    -241,294              70,682             -7,845
16. Less: Offsetting receipts                                               0                   0                  0
17. Net Outlays                                             $        -241,294   $          70,682   $         -7,845




The accompanying notes are an integral part of the financial statements.



156
                                                                           2005 Annual Financial Statement




                         Component             2005                 2004
    Transportation         Level             Combined             Combined




$                0   $               0   $               0    $              0
                 0                   0                   0                   0
                 0                   0           9,744,293             684,378
                 0                   0                   0                   0
                 0                   0                   0                   0

             9,146             90,914             134,440              607,130
                 0                  0             -73,911             -580,900
                 0                  0                   0                    0

                 0                  0                    0                   0
                 0                 59           16,559,412          17,824,823
                 0                -59               50,393            -186,398
                 0                  0                    0                   0
                 0                  0             -121,421            -173,221
                 0                  0              692,744            -733,915
                 0                  0                    0                   0
                 0                  0                    0                   0
                 0                  0                    0                   0
                 0                  0           17,181,128          16,731,289
                 0                  0                    4               3,180
                 0                  0                    0                   0
                 0                  0          -10,801,211             -36,669
$            9,146   $         90,914    $      16,184,743    $     17,408,408




$               0    $               0   $              0     $          2,027
               77                    0         15,892,064           17,271,941
               77                    0         15,892,064           17,273,968

             9,068             90,914             292,678              134,440
                 0                  0                   0                    0
                 1                  0                   1                    0
                 0                  0                   0                    0
$            9,146   $         90,914    $     16,184,743     $     17,408,408


$            1,077   $        -84,380    $       4,755,983    $      3,317,312
                 0                  0                    0                   0

              -617             35,595           -1,009,179            -958,783
                 0                  0           -3,958,214          -3,265,470
                 0                  0            6,461,705           6,610,227
             1,685           -111,324            2,159,623           2,370,008

               86              -8,593           16,250,968          16,752,435
                0                 -59          -16,437,991         -17,651,602
               86              -8,652             -187,023            -899,167
                0                   0                    0                   0
$              86    $         -8,652    $        -187,023    $       -899,167




The accompanying notes are an integral part of the financial statements.



                                                                                                       157
         United States Air Force


Consolidating Statement of Financing—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)
                                                                                    Depot                Supply             Information
                                                                                 Maintenance           Management             Services

 Resources Used to Finance Activities:
 Budgetary Resources Obligated
 1. Obligations incurred                                                     $        5,448,028    $       9,674,370    $         769,589
 2. Less: Spending authority from offsetting collections                             -6,191,274          -10,266,654             -723,204
   and recoveries (-)
 3. Obligations net of offsetting collections and recoveries                          -743,246              -592,284               46,385
 4. Less: Offsetting receipts (-)                                                            0                     0                    0
 5. Net obligations                                                                   -743,246              -592,284               46,385
 Other Resources
 6. Donations and forfeitures of property                                                    0                     0                    0
 7. Transfers in/out without reimbursement (+/-)                                             0                     0                    0
 8. Imputed financing from costs absorbed by others                                    142,373                18,303                7,758
 9. Other (+/-)                                                                              0                     0                    0
 10. Net other resources used to finance activities                                    142,373                18,303                7,758
 11. Total resources used to finance activities Resources Used to                     -600,873              -573,981               54,143
     Finance Items not Part of the Net Cost of Operations

 Resources Used to Finance Items not Part
 of the Net Cost of Operations
 12. Change in budgetary resources obligated for goods,
      services and benefits ordered but not yet provided
      12a. Undelivered Orders (-)                                                      435,035              -208,236              -46,506
      12b. Unfilled Customer Orders                                                   -197,260               786,229              -17,646
 13. Resources that fund expenses recognized in prior periods                           -4,098                     0               -1,677
 14. Budgetary offsetting collections and receipts that                                      0                     0                    0
     do not affect net cost of operations
 15. Resources that finance the acquisition of assets                                 -253,098            -5,108,841               -4,675
 16. Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
      16a. Less: Trust or Special Fund Receipts Related to Exchange in the                     0                    0                     0
           Entity's Budget (-)
      16b. Other (+/-)                                                                       0                     0                    0
 17. Total resources used to finance items not part of the net                         -19,421            -4,530,848              -70,504
      net cost of operations
 18. Total resources used to finance the net cost of operations                       -620,294            -5,104,829              -16,361

 Components of the Net Cost of Operations that will not Require or
 Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                                        0                  0                       0
 20. Increase in environmental and disposal liability                                          0                  0                       0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                               0                  0                       0
 22. Increase in exchange revenue receivable from the the public (-)                           0                  0                       0
 23. Other (+/-)                                                                               0              5,961                       0
 24. Total components of Net Cost of Operations that                                           0              5,961                       0
     will require or generate resources in future periods

 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                      134,880               50,066                5,757
 26. Revaluation of assets or liabilities (+/-)                                           3,216                  -23                    0
 27. Other (+/-)                                                                              0                    0                    0
     27a. Trust Fund Exchange Revenue                                                         0                    0                    0
     27b. Cost of Goods Sold                                                          5,026,640                    0                    0
     27c. Operating Material & Supplies Used                                            416,094                    0                    0
     27d. Other                                                                      -4,963,634            4,171,866                    0
 28. Total components of Net Cost of Operations that                                    617,196            4,221,909                5,757
     will not require or generate resources
 29. Total components of net cost of operations that will not                          617,196             4,227,870                5,757
     require or generate resources in the current period
 30. Net Cost of Operations                                                  $           -3,098    $        -876,959    $         -10,604


The accompanying notes are an integral part of the financial statements.



158
                                                                                 2005 Annual Financial Statement




                          Component              2005               2004
     Transportation         Level              Combined           Combined




 $               77   $               0    $     15,892,064   $     17,273,968
                  0                   0         -17,181,132        -16,734,469

                 77                   0          -1,289,068           539,499
                  0                   0                   0                 0
                 77                   0          -1,289,068           539,499

                  0                   0                   0                 0
                  0                   0                   0                34
                  0                   0             168,434           159,017
                  0                   0                   0                 0
                  0                   0             168,434           159,051
                 77                   0          -1,120,634           698,550




                  0                   0            180,293            -951,116
                  0                   0            571,323            -907,137
                  0                   0             -5,775             -36,403
                  0                   0                  0                   0

                  0            -10,166           -5,376,780         -2,686,199


                  0                   0                   0                  0

                  0                  0                    0                -34
                  0            -10,166           -4,630,939         -4,580,889

                 77            -10,166           -5,751,573         -3,882,339




                  0                   0                  0                   0
                  0                   0                  0                   0
                  0                   0                  0                   0
                  0                   0                  0                   0
                  0                   0              5,961                   0
                  0                   0              5,961                   0




                  0                    0            190,703            259,260
                  0                    0              3,193         -5,660,357
                  0                    0                  0                  0
                  0                    0                  0                  0
                  0                   -2          5,026,638          5,866,527
                  0                    0            416,094            325,585
                  0                    0           -791,768          4,386,023
                  0                   -2          4,844,860          5,177,038

                  0                   -2          4,850,821          5,177,038

 $               77   $        -10,168     $       -900,752   $      1,294,699


The accompanying notes are an integral part of the financial statements.



                                                                                                             159
      United States Air Force




                                This page intentionally left blank.




160
               2005 Annual Financial Statement




 Working Capital Fund

Required Supplementary
      Information




                                           161
      United States Air Force




                                This page intentionally left blank.




162
                                                                               2005 Annual Financial Statement


Disaggregated Statement of Budgetary Resources—Working Capital Fund
For the years ended September 30, 2005 and 2004 ($ in Thousands)

                                                                 Working Capital         2005               2004
                                                                     Funds             Combined           Combined

BUDGETARY RESOURCES
1. Budget Authority:
   1a. Appropriations received                               $                 0   $              0   $             0
   1b. Borrowing authority                                                     0                  0                 0
   1c. Contract authority                                              9,744,293          9,744,293           684,378
   1d. Net transfers (+/-)                                                     0                  0                 0
   1e. Other                                                                   0                  0                 0
2. Unobligated balance:
    2a. Beginning of period                                              134,439           134,440             607,130
    2b. Net transfers, actual (+/-)                                      -73,911           -73,911            -580,900
    2c. Anticipated Transfers Balances                                         0                 0                   0
3. Spending authority from offsetting collections:
    3a. Earned                                                                 0                  0                  0
       1. Collected                                                   16,559,411         16,559,412         17,824,823
       2. Receivable from Federal sources                                 50,394             50,393           -186,398
    3b. Change in unfilled customer orders                                     0                  0                  0
       1. Advance received                                              -121,421           -121,421           -173,221
       2. Without advance from Federal sources                           692,744            692,744           -733,915
    3c. Anticipated for the rest of year, without advances                     0                  0                  0
    3d. Transfers from trust funds                                             0                  0                  0
    3e. Subtotal                                                               0                  0                  0
4. Recoveries of prior year obligations                                        4                  4              3,180
5. Temporarily not available pursuant to Public Law                            0                  0                  0
6. Permanently not available                                         -10,801,211        -10,801,211            -36,669
7. Total Budgetary Resources                                 $        16,184,742   $     16,184,743   $     17,408,408

STATUS OF BUDGETARY RESOURCES
8. Obligations incurred:                                     $
   8a. Direct                                                                  0                  0              2,027
   8b. Reimbursable                                                   15,892,064         15,892,064         17,271,941
   8c. Subtotal                                                       15,892,064         15,892,064         17,273,968
9. Unobligated balance:
   9a. Apportioned                                                       292,679            292,678            134,440
   9b. Exempt from apportionment                                               0                  0                  0
   9c. Other available                                                         0                  1                  0
10. Unobligated Balances Not Available                                         0                  0                  0
11. Total, Status of Budgetary Resources                     $        16,184,743   $     16,184,743   $     17,408,408

Relationship of Obligations to Outlays:
12. Obligated Balance, Net - beginning of period             $         4,755,982   $      4,755,983   $      3,317,312
13. Obligated Balance transferred, net (+/-)                                   0                  0                  0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                           -1,009,178         -1,009,179           -958,783
   14b. Unfilled customer order from Federal sources                  -3,958,214         -3,958,214         -3,265,470
   14c. Undelivered orders                                             6,461,706          6,461,705          6,610,227
   14d. Accounts payable                                               2,159,621          2,159,623          2,370,008
15. Outlays:
   15a. Disbursements                                                 16,250,968         16,250,968         16,752,435
   15b. Collections                                                  -16,437,991        -16,437,991        -17,651,602
   15c. Subtotal                                                        -187,023           -187,023           -899,167
16. Less: Offsetting receipts                                                  0                  0                  0
17. Net Outlays                                              $          -187,023   $       -187,023   $       -899,167




                                                                                                                     163
         United States Air Force


Required Supplemental Information - Part A
                                                                                 Fund Balance       Accounts         Loans
AT97 - Air Force Working Capital Fund                         Treasury Index:                                                   Investments     Other
                                                                                 with Treasury      Receivable     Receivable
Schedule, Part A DoD Intra-governmental Asset Balances
Department of Agriculture                                          12                                      $8.00
Department of the Interior                                         14                                      $4.00
Department of Justice                                              15                                   $476.00
Navy General Fund                                                  17                                  $3,941.00
Department of State                                                19                                     $16.00
Department of the Treasury                                         20              $1,164,223.00
Army General Fund                                                  21                                  $1,347.00
General Service Administration                                     47                                  $2,634.00
General Accounting Office                                           5                                     $13.00
Air Force General Fund                                             57                                $411,716.00                              $48,076.00
Homeland Security                                                  70                                  $2,107.00
National Aeronautics and Space Administration                      80                                  $1,205.00
Department of Energy                                               89                                   $120.00
US Army Corps of Engineers                                         96                                     $34.00
Other Defense Organizations General Funds                          97                                 $39,672.00
Other Defense Organizations Working Capital Funds                97-4930                              $39,802.00                                 $439.00
Army Working Capital Fund                                      97-4930.001                             $3,059.00
Navy Working Capital Fund                                      97-4930.002                             $4,405.00


Required Supplemental Information - Part B
                                                                                                                        Debts/Borrowings
AT97 - Air Force Working Capital Fund                                           Treasury Index:    Accounts Payable                             Other
                                                                                                                       From Other Agencies
Schedule, Part B DoD Intra-governmental entity liabilities.
Navy General Fund                                                                    17                     $634.00                             $1,572.00
Army General Fund                                                                    21                    $1,220.00
Office of Personnel Management                                                       24                                                        $10,297.00
Air Force General Fund                                                               57                   $82,392.00                          $134,111.00
Homeland Security                                                                    70                                                          $408.00
Other Defense Organizations General Funds                                            97                     $122.00
Other Defense Organizations Working Capital Funds                                  97-4930               $110,118.00                             $149.00
Army Working Capital Fund                                                        97-4930.001               $2,884.00
Navy Working Capital Fund                                                        97-4930.002               $2,279.00




164
                                                                    2005 Annual Financial Statement


Required Supplemental Information - Part C
                                                                                               Earned
AT97 - Air Force Working Capital Fund                                   Treasury Index:
                                                                                              Revenue
Schedule, Part C DoD Intra-governmental revenue and related costs
Department of Agriculture                                                     12                    $15.00
Department of Commerce                                                        13                     $0.00
Department of the Interior                                                    14                    $75.00
Department of Justice                                                         15                 $3,139.00
Navy General Fund                                                             17                $71,663.00
Department of State                                                           19                  $171.00
Department of the Treasury                                                    20                    $15.00
Army General Fund                                                             21                $28,995.00
General Service Administration                                                47                    $51.00
National Science Foundation                                                   49                     $6.00
General Accounting Office                                                      5                     $7.00
Air Force General Fund                                                        57             $8,620,533.00
Department of Transportation                                                  69                    $57.00
Homeland Security                                                             70                 $8,462.00
Small Business Administration                                                 73                     $0.00
National Aeronautics and Space Administration                                 80                 $2,341.00
Department of Energy                                                          89                     $6.00
US Army Corps of Engineers                                                    96                    $79.00
Other Defense Organizations General Funds                                     97             $1,227,126.00
Other Defense Organizations Working Capital Funds                           97-4930           $473,044.00
Army Working Capital Fund                                                 97-4930.001           $21,271.00
Navy Working Capital Fund                                                 97-4930.002         $177,449.00


Required Supplemental Information - Part E
AT97 - Air Force Working Capital Fund                        Treasury Index: Transfers In Transfers Out
($Amounts in Thousands)
Army General Fund                                                 21                           $155,000.00
Other Defense Organizations Working Capital Funds               97-4930         $81,089.00




                                                                                                        165
      United States Air Force




                                This page intentionally left blank.




166
              2005 Annual Financial Statement




Working Capital Fund

   Audit Opinion




                                          167
      United States Air Force




168
2005 Annual Financial Statement




                            169
      United States Air Force




170
2005 Annual Financial Statement




                            171
      United States Air Force




172
2005 Annual Financial Statement




                            173
      United States Air Force




                                This page intentionally left blank.




174
